 Office of Inspector General
     Audit Report


   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
    FISCAL YEARS 2013 AND 2012
       Department of Transportation

       Report Number: QC-2014-015
      Date Issued: December 16, 2013
           U.S. Department of
                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of Audited             Date:   December 16, 2013
           Consolidated Financial Statements for Fiscal Years
           2013 and 2012, Department of Transportation
           Report Number: QC-2014-015

  From:    Calvin L. Scovel III
           Inspector General

    To:    The Secretary

           We respectfully submit our report on the quality control review (QCR) of the
           Department of Transportation’s (DOT) audited financial statements for fiscal
           years 2013 and 2012.

           The audit of DOT’s consolidated financial statements, as of and for the years
           ended September 30, 2013, and September 30, 2012, was completed by
           KPMG LLP, of Washington, DC (see Attachment), under contract to the Office of
           Inspector General (OIG). The contract required that the audit be performed in
           accordance with generally accepted Government auditing standards and Office of
           Management and Budget (OMB) Bulletin 14–02, “Audit Requirements for Federal
           Financial Statements.”

           KPMG LLP concluded that the financial statements present fairly, in all material
           respects, DOT’s financial position as of September 30, 2013, and
           September 30, 2012, and its net costs, changes in net position, and budgetary
           resources for the years then ended, in accordance with U.S. generally accepted
           accounting principles.

           KPMG LLP’s Fiscal Year 2013 Audit Report

           KPMG LLP reported three significant deficiencies in internal control over
           financial reporting. In addition, KPMG LLP reported instances of noncompliance
           with laws and regulations.
                                                                                2


Significant Deficiencies

1. Lack of Sufficient Controls over Undelivered Orders – DOT had potential
   misstatements in undelivered orders as of September 30, 2013 of
   approximately $407 million and $111 million for grant and non-grant related
   undelivered orders, respectively. Inadequate and/or inconsistent application of
   policies contributed to these misstatements. This finding was identified by
   KPMG LLP as a material weakness in fiscal year 2012. Since then, DOT
   initiated corrective actions that included deobligating approximately
   $2.1 billion of grant agreements and revising criteria for reviewing inactive
   projects. As a result, KPMG LLP no longer considers this significant
   deficiency to be a material weakness.

2. Lack of Sufficient Controls over Unfilled Customer Orders Without
   Advance Funding – The Federal Highway Administration (FHWA) did not
   properly record transactions pertaining to unfilled customer orders (UCO) for
   which the Agency did not receive advance funding. The Department’s
   financial systems cannot produce a report with the amount of detail needed for
   adequately reviewing and monitoring open UCOs and determining whether the
   balance is complete and accurate. As a result, UCOs that the Agency did not
   obtain advances for are potentially overstated.

3. Reliability of Audit Evidence – On more than one occasion, Federal Transit
   Administration (FTA) management did not provide the auditors with timely,
   accurate, reliable, or valid responses to their requests. For example, FTA
   management could not provide reliable evidence that its personnel reviewed
   the Financial Management System’s daily audit logs. Such reviews are
   necessary to identify processing errors that may need investigation. FTA lacks
   organizational policies and procedures to ensure appropriate responses are
   provided to auditor requests in accordance with Federal and DOT requirements
   regarding access to audit evidence. FTA’s non-adherence to these requirements
   increases the risk of compromising the integrity and availability of audit
   evidence.

Noncompliance with Laws and Regulations

   Noncompliance with the Anti-Deficiency Act – From fiscal years 2005
   through 2010, the Federal Motor Carrier Safety Administration (FMCSA)
   committed multiple anti-deficiency violations. Likewise, during fiscal year
   2010, FHWA also committed three anti-deficiency violations. On April 29,
   2013, DOT reported the FMCSA and FHWA violations to the President, U.S.
   Senate, U.S. Congress, and OMB, as required by the Anti-Deficiency Act.
   Furthermore, pending additional review, the Federal Railroad Administration
                                                                                3


   (FRA) may have committed anti-deficiency violations during fiscal year 2013
   by obligating $1.24 million prior to OMB’s apportionment approval. While
   FRA’s investigation continues, FRA management has indicated that corrective
   action is already underway to strengthen the process and controls governing
   fund administration.

We performed a QCR of KPMG LLP’s report and related documentation. Our
QCR, as differentiated from an audit performed in accordance with generally
accepted Government auditing standards, was not intended for us to express, and
we do not express an opinion on DOT’s financial statements or conclusions about
the effectiveness of internal controls or compliance with laws and regulations.
KPMG LLP is responsible for its report dated December 12, 2013, and the
conclusions expressed in that report. However, our QCR disclosed no instances in
which KPMG LLP did not comply, in all material respects, with generally
accepted Government auditing standards.

KPMG LLP made 15 recommendations to strengthen DOT’s financial,
accounting, and system controls. DOT officials concurred with KPMG LLP’s
recommendations. The Department also committed to submitting to OIG, by
December 31, 2013, a detailed action plan to address the findings contained in the
KPMG LLP’s audit report. In accordance with DOT Order 8000.1C, the corrective
actions taken in response to the findings are subject to follow up.

We appreciate the cooperation and assistance of DOT’s representatives and
KPMG LLP. If you have any questions, please contact me at x61959, or Lou E.
Dixon, Principal Assistant Inspector General for Auditing and Evaluation, at
x61427.

Attachment
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                                        Independent Auditors’ Report


Secretary and Inspector General
U.S. Department of Transportation:

Report on the Financial Statements

We have audited the accompanying consolidated financial statements of the U.S. Department of
Transportation (“Department” or “DOT”), which comprise the consolidated balance sheets as of
September 30, 2013 and 2012 and the related consolidated statements of net cost, and changes in net
position, and combined statements of budgetary resources for the years then ended, and the related notes to
the consolidated financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these consolidated financial
statements in accordance with U.S. generally accepted accounting principles; this includes the design,
implementation, and maintenance of internal control relevant to the preparation and fair presentation of
consolidated financial statements that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these consolidated financial statements based on our audits.
We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin No.
14-02 require that we plan and perform the audit to obtain reasonable assurance about whether the
consolidated financial statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
consolidated financial statements. The procedures selected depend on the auditors’ judgment, including the
assessment of the risks of material misstatement of the consolidated financial statements, whether due to
fraud or error. In making those risk assessments, the auditor considers internal control relevant to the
entity’s preparation and fair presentation of the consolidated financial statements in order to design audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an opinion on
the effectiveness of the entity’s internal control. Accordingly, we express no such opinion. An audit also
includes evaluating the appropriateness of accounting policies used and the reasonableness of significant
accounting estimates made by management, as well as evaluating the overall presentation of the
consolidated financial statements.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Opinion on the Financial Statements

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Transportation as of September 30, 2013 and
2012, and its net costs, changes in net position, and budgetary resources for the years then ended in
accordance with U.S. generally accepted accounting principles.

Emphasis of Matter

As discussed in Notes 1 and 19, the consolidated financial statements reflect actual excise tax revenues
deposited in the Highway Trust Fund and the Airport and Airway Trust Fund through June 30, 2013, and
excise tax receipts estimated by the Department of Treasury’s Office of Tax Analysis for the quarter ended
September 30, 2013. Our opinion is not modified with respect to this matter.

Other Matters

Required Supplementary Information

U.S. generally accepted accounting principles require that the information in the Management’s Discussion
and Analysis, Required Supplementary Information, and Required Supplementary Stewardship
Information sections be presented to supplement the basic consolidated financial statements. Such
information, although not a part of the basic consolidated financial statements, is required by the Federal
Accounting Standards Advisory Board who considers it to be an essential part of financial reporting for
placing the basic consolidated financial statements in an appropriate operational, economic, or historical
context. We have applied certain limited procedures to the required supplementary information in
accordance with auditing standards generally accepted in the United States of America, which consisted of
inquiries of management about the methods of preparing the information and comparing the information
for consistency with management’s responses to our inquiries, the basic consolidated financial statements,
and other knowledge we obtained during our audits of the basic consolidated financial statements. We do
not express an opinion or provide any assurance on the information because the limited procedures do not
provide us with sufficient evidence to express an opinion or provide any assurance.

Other Information

Our audits were conducted for the purpose of forming an opinion on the basic consolidated financial
statements as a whole. The information in the Other Information, Foreword, and Messages from the
Secretary and the Chief Financial Officer sections as listed in the Table of Contents of the DOT Agency
Financial Report is presented for purposes of additional analysis and is not a required part of the basic
consolidated financial statements. Such information has not been subjected to the auditing procedures
applied in the audit of the basic consolidated financial statements, and accordingly, we do not express an
opinion or provide any assurance on it.

Other Reporting Required by Government Auditing Standards
Internal Control Over Financial Reporting
In planning and performing our audit of the consolidated financial statements, we considered the
Department’s internal control over financial reporting (internal control) to determine the audit procedures
that are appropriate in the circumstances for the purpose of expressing our opinion on the consolidated
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the
Department’s internal control. Accordingly, we do not express an opinion on the effectiveness of the
Department’s internal control. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies and therefore, material weaknesses or significant deficiencies may
exist that were not identified. Given these limitations, during our audit we did not identify any deficiencies
in internal control that we consider to be material weaknesses. However, we did identify certain
deficiencies in internal control, described in Exhibit I, that we consider to be significant deficiencies.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the DOT’s consolidated financial statements are
free from material misstatement, we performed tests of its compliance with certain provisions of laws,
regulations, contracts, and grant agreements, noncompliance with which could have a direct and material
effect on the determination of financial statement amounts, and certain provisions of other laws and
regulations specified in OMB Bulletin No. 14-02. However, providing an opinion on compliance with
those provisions was not an objective of our audit, and accordingly, we do not express such an opinion.
The results of our tests disclosed instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards or OMB Bulletin No. 14-02, and which are described in
Exhibit II.

We also performed tests of its compliance with certain provisions referred to in Section 803(a) of the
Federal Financial Management Improvement Act of 1996 (FFMIA). Providing an opinion on compliance
with FFMIA was not an objective of our audit, and accordingly, we do not express such an opinion. The
results of our tests of FFMIA disclosed no instances in which the Department’s financial management
systems did not substantially comply with the (1) Federal financial management systems requirements, (2)
applicable Federal accounting standards, and (3) the United States Government Standard General Ledger at
the transaction level.

Department’s Responses to Findings

The Department’s responses to the findings identified in our audit and presented herein were not subjected
to the auditing procedures applied in the audit of the consolidated financial statements and, accordingly, we
express no opinion on the responses.

Purpose of the Other Reporting Required by Government Auditing Standards

The purpose of the communication described in the Other Reporting Required by Government Auditing
Standards section is solely to describe the scope of our testing of internal control and compliance and the
result of that testing, and not to provide an opinion on the effectiveness of the Department’s internal
control or compliance. Accordingly, this communication is not suitable for any other purpose.




December 12, 2013
U.S. Department of Transportation
Independent Auditors’ Report
Internal Control Over Financial Reporting                                   EXHIBIT I
                                                          SIGNIFICANT DEFICIENCIES
______________________________________________________________________________________


A. Lack of Sufficient Controls over Undelivered Orders
Criteria
US Code Title 31 Section 1501 states that an amount shall be recorded as an obligation of the United States
Government only when supported by documentary evidence of a binding agreement between an agency
and another person (including an agency) that is (a) in writing, in a way and form, and (b) for a purpose
authorized by law, and executed before the end of the period of availability.
US Code Title 31 Section 1554 states that the head of each agency shall establish internal controls to assure
that an adequate review of obligated balances is performed to support the certification required by section
1108 (c) of this title.
The United States Standard General Ledger Supplement No. S2 Treasury Financial Manager defines an
Undelivered Order (Obligation) as the amount of goods and/or services ordered, which have not been
actually or constructively received and for which amounts have not been prepaid or advanced. This
includes amounts specified in other contracts or agreements such as grants, program subsidies, undisbursed
loans and claims, and similar events for which an advance or prepayment has not occurred.
Statement of Federal Financial Accounting Concepts (SFFAC) No 1, Objective of Federal Financial
Reporting Issued by the Federal Financial Accounting Standards Advisory Board (FASAB), Federal
financial reporting should assist report users in understanding whether financial management systems and
internal accounting and administrative controls are adequate to ensure that transactions are executed in
accordance with budgetary and financial laws and other requirements, consistent with the purpose
authorized, and are recorded in accordance with federal accounting standards.
The Standards for Internal Control in the Federal Government (Standards) issued by the Government
Accountability Office (GAO) states that transactions should be promptly recorded to maintain their
relevance and value to management in controlling operations and making decisions. This applies to the
entire process or life cycle of a transaction or event from the initiation and authorization through its final
classification in summary records. In addition, control activities help to ensure that all transactions are
completely and accurately recorded.
Each operating administration (OA) is responsible for developing and implementing these policies and
procedures. In particular, the Federal Highway Administration (FHWA)’s Financial Integrity Review and
Evaluation (FIRE) Program, defined by 23 CFR 630.106(a) requires states to review inactive projects in
the grant management system (Financial Management Information System (FMIS)) and revise funds
obligated, if necessary.
The Federal Transit Administration (FTA)’s obligation monitoring controls include a quarterly review of
grantees’ milestone progress reports and an annual review of grants obligated more than 3 years ago that
have not had a disbursement within 12 months.

Background
In carrying out its mission, the DOT incurs obligations by entering into contracts or agreements for the
purchase of goods and services from other Federal agencies and the public, and for the execution of grant
agreements with state and local governments and other grantees. These obligations are recorded as
undelivered orders in the DOT consolidated financial statements on the statement of budgetary resources.
U.S. Department of Transportation
Independent Auditors’ Report
Internal Control Over Financial Reporting                                   EXHIBIT I
                                                          SIGNIFICANT DEFICIENCIES
______________________________________________________________________________________

Once an obligation is satisfied and/or no longer required, funds are required to be de-obligated, which
reduces the balance of undelivered orders and potentially releases the funds for other uses. As of
September 30, 2013, the DOT reported $90.9 billion in obligations.

Effective in FY2013, FHWA increased the training provided to grant management personnel as well as
revised the policies and procedures of the FIRE Program to require the review of projects based on the
following tiers:
        (i)      Projects inactive for the past 12 months with unexpended balances more than $200,000
        (ii)     Projects inactive for the past 18 months with unexpended balances of $50,000 to $200,000
        (iii)    Projects inactive for the past 36 months with unexpended balances of less than $50,000

Condition
We noted a control deficiency in the monitoring of grant and non-grant undelivered orders, particularly
those obligations that were aged over one year and had no recent activity (aged undelivered orders). The
following conditions were identified during our audit:

    1. As of March 31, 2013:
       • During our review of a statistical sample of 256 items, totaling $3.7 billion from a total of
           $9.6 billion of aged grant related undelivered orders, we noted that for 19 items, totaling
           $6.9 million, the related grant agreements’ period of performance had either ended and/or the
           project funded by the grant was completed; however, the unused obligations for these items
           were not properly de-obligated by management.
       • In addition, during our review of a statistical sample of 20 items, totaling $1.15 billion from a
           total of $1.5 billion of aged non-grant related undelivered orders, we noted that for 6 items,
           totaling $5.1 million, the related contracts/agreements had ended; however, the unused
           balances for these items were not properly de-obligated by management.

   2. As of September 30, 2013:
      • During our review of a statistical sample of 99 items, totaling $1.3 billion from a total of
          $4.4 billion of aged grant related undelivered orders, we noted that for 6 items, totaling
          $3.9 million, the related grant agreements’ period of performance had either ended and/or the
          project funded by the grant was completed; however, the unused obligations for these items
          were not properly de-obligated by management.
Cause
DOT has inadequate policies and/or does not consistently apply its policy of timely review and de-
obligation of open obligations.
Specifically, the revised FHWA FIRE tier review is not operating effectively to identify all unused
obligation balances that should be de-obligated and to de-obligate those funds that are found to be stale, in
a timely manner. In addition, the FHWA FIRE tier review is performed over a listing of obligations
generated from FMIS. Therefore, projects closed and de-obligated in FMIS, but not the general ledger, are
not included in this review.

In addition, the Federal Transit Administration (FTA)’s obligation monitoring controls, including the
quarterly review of grantees’ milestone progress reports and the revised annual review of grants obligated
U.S. Department of Transportation
Independent Auditors’ Report
Internal Control Over Financial Reporting                                   EXHIBIT I
                                                          SIGNIFICANT DEFICIENCIES
______________________________________________________________________________________

more than 3 years ago that have not had a disbursement within 12 months, are not designed at an
appropriate level of precision to timely identify and de-obligate unused obligation balances.
Effect
Undelivered orders were potentially overstated as of September 30, 2013 by approximately $407 million
and $111 million for grant and non-grant related undelivered orders, respectively. Furthermore, the lack of
adequate processes to review undelivered orders increases the risk that errors may occur and not be
detected.
Recommendations
We recommend that DOT strengthen its policies and controls for review and monitoring of grant
obligations by performing the following:

    1. Develop a department-wide requirement for the periodic operating administration certification of
       the open obligation balance that is inactive for twelve or more months (validity);
    2. Continue to provide department-wide training related to grants management, including the
       monitoring and close-out process;
    3. Require that FHWA emphasize the timely review and de-obligation of stale obligations in
       accordance with the revised Financial Integrity Review and Evaluation (FIRE) program; and
    4. Require that FTA review their processes for monitoring obligations in order to more timely
       identify and de-obligate stale obligations.


B. Lack of Sufficient Controls over Unfilled Customer Orders without Advance
Criteria
The Standards for Internal Control in the Federal Government (Standards) issued by the Government
Accountability Office (GAO) states that “Transactions should be promptly recorded to maintain their
relevance and value to management in controlling operations and making decisions. This applies to the
entire process or life cycle of a transaction or event from the initiation and authorization through its final
classification in summary records. In addition, control activities help to ensure that all transactions are
completely and accurately recorded.”
Statements of Federal Financial Accounting Standards (SFFAS) No. 7: Accounting for Revenue and Other
Financing Sources, paragraph 78 states:
           Recognition and measurement of budgetary resources should be based on budget concepts and
           definitions contained in OMB Circulars A-11 and A-34. In addition, the reporting entity should
           provide this information for each of its major budget accounts as supplementary information.
           Small budget accounts may be aggregated.
U.S. Department of Transportation
Independent Auditors’ Report
Internal Control Over Financial Reporting                                   EXHIBIT I
                                                          SIGNIFICANT DEFICIENCIES
______________________________________________________________________________________

Per OMB Circular A-11, Section 130, Economy Act Activities Between Federal Entities:

  If the ordering   And the performing     Then the performing     Should the performing agency account
  agency account    agency account…        agency account          Treasury Account Fund Symbol (TAFS)
  has…                                     must…                   show unobligated balances on the
                                                                   September 30th Standard Form (SF) 133?

  No-year TAFS      Has no-year TAFS       Use existing no-year    Yes, unless otherwise specified in the
                                           TAFS                    unfilled customer order. The amount will
                                                                   become part of line 1000 in the next fiscal
                                                                   year.


FHWA Policies and Procedures Reconciliation of Reimbursable Authority states:
        Fund 15X015P633:
        This fund is used by the Federal Lands Highway (FLH) Division offices to pay non-GOE payroll
        expenditures. This is used as a temporary holding account until payroll expenditures can be
        charged out to the appropriate project or overhead account via an interface program in the
        Accounts Payable module. This process takes place every three weeks, or as the file is available
        for download, and should clear all expenditures after the interface process, leaving a zero balance.
        Business Intelligence (BI) reports will be developed to monitor this fund on a monthly basis to
        ensure full recovery at year-end.
        It is conceivable that one pay period will remain in the fund at year-end due to timing of system
        and data availability to complete this interface process. After the last payroll has been interface
        into the accounting system in September of each year, the FLH Financial Team will work with
        each Division Financial Management to determine the accrual amount. This accrual will be based
        on the under-recovered balance in this fund and will be entered as a JV by the ESC.
        The Budget Office will enter closing entries to close this fund out at year-end.
Background
Unfilled customer orders (UCOs) without advance are the total amount of unearned reimbursable orders
accepted without advance funding for goods and/or services to be furnished for other Federal Government
agencies and for the public, if permitted by law. Budgetary transactions should be properly recorded,
properly classified, and accounted for in order to prepare timely and reliable reports.
Condition
We selected a statistical sample of 12 items from the population of UCOs without advance as of
August 31, 2013, and noted the following during our testing:

   1. For 1 of the items selected, the full amount of the reimbursable agreement, $180 million, was not
      properly recorded. As of August 31, 2013, only $142.6 million of the $180 million was recorded,
      resulting in an understatement of $37.4 million. Additionally, the related project had expenditures
      totaling $4.1 million as of August 31, 2013; however, only $2.8 million of the corresponding
U.S. Department of Transportation
Independent Auditors’ Report
Internal Control Over Financial Reporting                                   EXHIBIT I
                                                          SIGNIFICANT DEFICIENCIES
______________________________________________________________________________________

       revenue was recognized against the related UCO resulting in an overstatement of $1.3 million.
       The net balance of this UCO is understated by $36.1 million.
    2. For 1 of the items selected, the related project had expenditures totaling $1.9 million as of August
       31, 2013; however, $2.2 million of corresponding revenue was recognized against the UCO. The
       net balance of this UCO is understated by $300 thousand.
    3. For 1 of the items selected, the purpose of the transaction selected was to record the current year
       funding related to multiple reimbursable agreements. This funding was for the carryover of
       reimbursable authority for prior year agreements; however, FHWA failed to record the reduction
       of the UCO balance in the prior year. The reestablishment of the current year funding resulted in
       the double counting of these monies, resulting in a $29.4 million overstatement to the
       corresponding UCOs.
    4. For 1 of the items selected, the transaction selected was to record the allotment of payroll, which
       should have been recovered through the payroll labor distribution process. The balance in this
       fund should have been cleared through the labor distribution process. As of September 30, 2013,
       the balance in this fund was $88.9 million which overstated the UCO balance for the
       corresponding fund.
Cause
DOT cannot produce a report that reflects all open UCOs by agreement number as of the period-end date.
As such, DOT does not have adequate controls over the review and monitoring of open UCOs, at the
appropriate level of precision, to determine if the balance is complete, accurate, and valid.

DOT incurs reimbursable expenditures related to open UCOs and does not timely recognize the
reimbursable revenue. DOT does not have adequate controls to detect and timely correct discrepancies
between reimbursable expenditures and reimbursable revenue, at the agreement level.

DOT recorded the UCO for a reimbursable agreement based on the amount of anticipated expenditures in
an effort to reduce the amount of unobligated reimbursable authority at year-end, instead of recording the
UCO for the full amount of the agreement.

Effect
As of August 31, 2013, the Department’s unfilled customer orders without advance may be overstated by
approximately $192 million.

Recommendations
We recommend that DOT:

    1. Develop a report that reflects a complete population of open UCO balances, by agreement number,
       as of a period-end date;
    2. Implement policies and procedures, whereby the DOT OAs, with material unfilled customer order
       balances, monitor and review its open UCO balances using the above report for completeness,
       accuracy, and validity;
    3. Perform a reconciliation of reimbursable expenditures to reimbursable revenue, at the agreement
       level, to ensure reimbursable revenue is properly recognized in the appropriate accounting period
       and all material reconciling items are investigated;
U.S. Department of Transportation
Independent Auditors’ Report
Internal Control Over Financial Reporting                                   EXHIBIT I
                                                          SIGNIFICANT DEFICIENCIES
______________________________________________________________________________________

    4. Provide training on the execution, monitoring and reporting of UCOs in accordance with the newly
       established policies and procedures;
    5. Follow the established policies and procedures and finish development of a BI report to monitor
       Fund 15X015P633 monthly. In addition, record any necessary year-end accrual and adjusting
       entries to ensure the full cost recovery program reports a zero balance at year-end.

C. Reliability of Audit Evidence
Criteria
The Department of Transportation (DOT) Cyber Security Compendium dated June 14, 2011, Policy states:
Policy ID DOT-AU-6: DOT components must:

    a. Review and analyze information system audit records per frequency established by a risk based
       decision and documented in the System Security Plan (SSP) for indications of inappropriate or
       unusual activity, and report findings to designated officials; and
    b. Adjust the level of audit review, analysis, and reporting within the information system when there
       is a change in risk to operations, assets, individuals, other organizations, or the Nation based on
       law enforcement information, intelligence information, or other credible sources of information”.

The Federal Information System Controls Audit Manual (FISCAM) states:
           AC-5.3.1. Security violations and activities, including failed logon attempts, other failed access
           attempts, and sensitivity activity, are reported and investigated.
           AC-5.3.2. Security managers investigate security violations and suspicious activities and report
           results to appropriate supervisory and management personnel.
National Institute of Standards and Technology (NIST) Special Publication (SP) 800-53, Rev 3 states:
           AU-6 Audit Review, Analysis and Reporting – the organization:

    a. Reviews and analyzes information system audit records for indications of inappropriate or unusual
       activity, and reports findings to designated organizational officials; and
    b. Adjusts the level of audit review, analysis, and reporting within the information system when there
       is a change in risk to organizational operations, organizational assets, individuals, other
       organizations, or the Nation based on law enforcement.

DOT Order 8000.6B states:

           e. Access to Records/Personnel. During the course of the audit work, OIG is authorized to request
           the OA to provide access to official Government records, paper and electronic documents, and
           personnel with information that relate to programs and operations of DOT.
           (1) Section 6(a)(l) of the Inspector General Act authorizes the OIG to have access to all records
           and information needed to complete its audit work.
           (2) Under section 9(a)(l)(K) and (2) of the IG Act, the Secretary of Transportation is authorized to
           transfer functions, powers, or duties as determined by the Secretary to the OIG. The Secretary of
           Transportation has, by memorandum dated April 27, 1979, specifically authorized the OIG access
           to all records, reports, reviews, documents, papers, recommendations, and any other material the
U.S. Department of Transportation
Independent Auditors’ Report
Internal Control Over Financial Reporting                                   EXHIBIT I
                                                          SIGNIFICANT DEFICIENCIES
______________________________________________________________________________________

        OIG considers pertinent to the DOT program being audited. The memorandum further emphasized
        that DOT personnel are expected to comply with this provision.
        (3) The OIG Audit Team and the OA staff will make every effort to cooperate with each other to
        ensure that the OIG Audit Team receives timely and full responses to its information requests with
        as little disruption to the OA as possible. If the OIG Audit Team is denied access to records, or is
        unreasonably refused assistance or information, attempts will be made to resolve the issue at the
        appropriate management level. However, under the statutory authority cited in paragraphs e. (1)
        and e. (2) above, the IG will take necessary actions, including notifying the Secretary and/or the
        Congress, to obtain the documents.

Section 6 of the Inspector General Act of 1978, as amended, states:

        (a) In addition to the authority otherwise provided by this Act, each Inspector General, in carrying
        out the provisions of this Act, is authorized:
                 (3) to request such information or assistance as may be necessary for carrying out the
                 duties and responsibilities provided by this Act from any Federal, State, or local
                 governmental agency or unit thereof;
        (b) (1) Upon request of an Inspector General for information or assistance under subsection (a)(3),
        the head of any Federal agency involved shall, insofar as is practicable and not in contravention of
        any existing statutory restriction or regulation of the Federal agency from which the information is
        requested, furnish to such Inspector General, or to an authorized designee, such information or
        assistance.

Background
The Financial Management System (FMS) managed by the Federal Transit Administration (FTA) is not
currently integrated into the Security Information and Event Management (SIEM) tool. SIEM automates
the collection of audit logs for analysis and review. As a manual compensating control, FTA has adopted a
procedure requiring the FMS system administrators and database administrators to perform daily reviews
of audit logs.
Condition
On more than one occasion, FTA did not provide us with timely, accurate, reliable or valid responses to
auditor requests of information and inquiries. For example, FTA could not provide reliable evidence that
they performed a daily review of the FMS audit log.
Cause
FTA lacks the organizational policies and procedures needed to ensure timely, accurate, reliable and valid
responses to auditor requests of information and inquiries. In addition, sufficient policies and procedures,
and management oversight, are not in place requiring that documented evidence be maintained for the
manual daily review of the FMS audit logs.
The control environment (as defined by the Government Accountability Office, Standards for Internal
Control in the Federal Government) in some operations of FTA was not fully effective in establishing an
environment of internal control awareness and understanding of the importance of following DOT policy.
U.S. Department of Transportation
Independent Auditors’ Report
Internal Control Over Financial Reporting                                   EXHIBIT I
                                                          SIGNIFICANT DEFICIENCIES
______________________________________________________________________________________

Effect
Non-adherence to the criteria cited above increases the risk of compromising the confidentiality, integrity,
and availability of the audit evidence. In addition, a lack of a documented audit log review increases the
risk that FTA will not identify all processing errors for investigation and remediation.


Recommendations
We recommend that FTA continue with plans to add FMS into the SIEM tool. Prior to that
implementation, we recommend that FTA implement policies and procedures to formally document and
track audit logs reviews of FMS, including a date and time stamp with the reviewers’ electronic signature.
We recommend that DOT or FTA:

    1. Emphasize, through training, the importance of Inspector General Act of 1978, as amended and
       DOT Order 8000.6B to ensure that all FTA employees understand the provisions of the laws and
       regulations when responding to Office of Inspector General auditors’ inquiries and requests.
    2. Perform a review of FTA’s control environment using one of the various tools (available from the
       GAO, or organizations such as the Committee of Sponsoring Organizations of the Treadway
       Commission – COSO) to assess entity level control effectiveness at FTA. Based on the outcome
       of this review, take steps to improve the control environment of FTA, including establishing
       management oversight functions that ensure effective internal controls over financial reporting.
U.S. Department of Transportation
Independent Auditors’ Report
Compliance and Other Matters                                               EXHIBIT II
                                                     INSTANCES OF NONCOMPLIANCE
______________________________________________________________________________________

D. Noncompliance with the Anti-Deficiency Act

Criteria
Title 31 U.S. Code (U.S.C.) Section 1517 states that an officer or an employee of the United States
Government may not make or authorize an expenditure or obligation exceeding an apportionment or an
amount permitted by regulations as specified by Title 31 U.S.C. Section 1514. If an officer or employee of
an executive agency or of the District of Columbia government violates subsection (a) of this section, the
head of the executive agency or the Mayor of the District of Columbia, as the case may be, shall report
immediately to the President and Congress all relevant facts and a statement of actions taken. A copy of
each report shall also be transmitted to the Comptroller General on the same date the report is transmitted
to the President and Congress.
Condition
Known Anti-Deficiency Act Violations:
Federal Motor Carrier Safety Administration (FMCSA)
During the fiscal years 2005 through 2010, the FMCSA committed Anti-Deficiency Act violations totaling
$25.6 million, as a result of issuing grant awards within the Commercial Vehicle Information Systems and
Networks (CVISN) that exceeded available funding for this program, as well as reprogramming of funds
within the CVISN, Performance and Registration Information Systems Management (PRISM), and Safety
Data Improvement Program (SaDIP) grant programs, which resulted in grant awards exceeding the
available funding. The DOT reported this violation to the Office of Management and Budget (OMB), the
President, U.S. Senate, and U.S. Congress on April 29, 2013.
Federal Highway Administration (FHWA)
During fiscal year 2010, the FHWA committed Anti-Deficiency Act violations totaling approximately
$11.5 million, as a result of entering obligations in the American Reinvestment and Recovery Act (ARRA)
appropriation(s) within the Tiger Grants Program ($10 million), Refuge Roads Program ($1 million), and
the Puerto Rico Highway Program ($465 thousand) that exceeded the amount apportioned in those
program categories. The DOT reported this violation to the OMB, the President, U.S. Senate, and U.S.
Congress on April 29, 2013.

Potential Anti-Deficiency Act Violations:
FRA
Pending the outcome of further review, the Federal Railroad Administration (FRA) may have committed
Anti-Deficiency Act violations during fiscal year 2013 as a result of obligating $1.2 million and
$40 thousand in excess of the apportioned amounts on two category B 1 project budget lines in the Capital

1
  Apportioned amounts appear on different groups of lines in the application of budgetary resources section of an
apportionment. Amounts are identified in an apportionment as follows:
    • By time (Category A);
    • Project (Category B);
    • A combination of project and time period (Category AB); and,
    • For future years (only for multi-year/no-year accounts) (Category C).
You must report obligations to Treasury with the same categories as used on the apportionment.
U.S. Department of Transportation
Independent Auditors’ Report
Compliance and Other Matters                                               EXHIBIT II
                                                     INSTANCES OF NONCOMPLIANCE
______________________________________________________________________________________

Assistance for High Speed Rail Corridors and Intercity Passenger Rail accounts, respectively. The
amounts represent funds that were appropriated and used for the intended purpose, but were executed prior
to OMB apportionment approval.
Cause
The funds administrator did not follow established protocol to verify that the apportionment had been
approved by the OMB prior to obligating the funds.
Effect
The DOT is potentially not in compliance with the Anti-Deficiency Act.
Recommendations
We recommend that DOT:

    1. Complete the investigation into potential additional Anti-Deficiency Act violations at FRA; and
    2. Follow established protocol that has been designed to prevent Anti-Deficiency Act violations.
                                               ASSIStant Secretary            1200 New Jersey Avenue. SE
U.S. Department of                                                            Washington, OC 20590
                                               for Budget and Program s
Transportation                                 and Chief Financial Offi cer
Office of the Sec retary
of Transportation


                                                             DeC i i 2013


 MEMORANDUM TO:               Calvin L. Scovell, liJ
                              Inspector General, US DOT

                              M. Hannah Padilla
                              Pa~:{JMG LLP

 FROM:                        Sy~~cia
                              Chief Financial Officer and Assistant Secretary for
                              Budgetand Programs

 SUBJECT:                     Management's Response to the Audit Report on the
                              Consolidated Financial Statements for Fiscal Years (FY)
                              2013


 The Department of Transportation (DOT) is pleased to respond to the unmodified audit
 report on our Consolidated Financial Statements for FY 2013. We take great pride in our
 ability to sustain strong and vigilant financial management, as demonstrated in our
 achievement of an unmodified audit opinion.

 We concur with the three significant deficiencies contained in your report on internal
 controls over financial reporting, and with one instance of non-compliance found in
 certain provisions of selected laws and regulations that you reviewed. We concur with all
 recommendations. Corrective actions have already begun to address these issues. The
 Department plans to submit a detailed action plan along with estimated completion dates
 of the actions to the Inspector General no later than December 3 1, 2013, to address the
 findings contained in your report.

 We appreciate the professionalism and cooperation exhibited by your office during the
 audit. Our combined efforts and teamwork made the difference in successfully meeting
 the objectives of the financial audit process. Please refer any questions to David J.
 Rivait, Deputy Chief Financial Officer.
U.S. Department
of Transportation




2013
   U.S.        DEPARTMENT      OF   T R A N S P O R TAT I O N

            A G E N C Y F I N A N C I A L R E P O RT




                                      FISCAL YEAR 2013
TABLE OF CONTENTS

         2    FOREWORD
         5    MESSAGE FROM THE SECRETARY
         9    MANAGEMENT’S DISCUSSION AND ANALYSIS
         9    DOT Mission and Values
        10    Organizational Chart
        11    Overview of Legislative Authorities
        11    Operating Administrations and Independent Organizations
        13    Performance Highlights
        15    Performance Summary Tables
        20    Financial Highlights
        23    FY 2013 FMFIA Assurance Letter to the President
        26    System, Controls, and Legal Compliance
        30    Inspector General’s FY 2013 Top Management Challenges

        33    FINANCIAL REPORT
        33    Message From the Chief Financial Officer & Assistant Secretary for Budget and Programs
        35    Office of Inspector General Quality Control Review
        39    Independent Auditors’ Report
        52    Principal Statements
        57    Notes to the Principal Statements
        103   Required Supplementary Information (RSI)
        107   Required Supplementary Stewardship Information (RSSI)

        113   OTHER INFORMATION
        113   Schedule of Spending
        115   Schedule of Net Cost by Strategic Goal
        116   Affiliated Activities
        117   Summary of Financial Statement Audit and Management Assurances
        118   Inspector General’s FY 2014 Top Management Challenges
        145   Improper Payments Information Act (IPIA) Reporting (As Amended by IPERA)
        153   List of Acronyms




                                                       AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   1
FOREWORD

                                                               The United States Department of Transportation’s (DOT’s or Department’s) Agency
                                                               Financial Report (AFR) for fiscal year (FY) 2013 provides an overview of the Depart-
                                                               ment’s financial performance and results to Congress, the President, and the American
                                                               people. The report details information about our stewardship over the financial resources
                                                               entrusted to us. In addition, the report provides information about our performance as
                                                               an organization, our achievements, our initiatives, and our challenges.

                                                               The AFR, the first in a series of reports required by Office of Management and Budget
                                                               (OMB), provides readers with an overview of the Department’s highest priorities and
                                                               our strengths and challenges.

                                                               The Department’s FY 2013 annual reporting includes two components: the AFR and
                                                               the Annual Performance Report (APR).


                                                               AGENCY FINANCIAL REPORT (AFR)
                                                               The following AFR report is organized into three major sections:

                                                               The Management’s Discussion and Analysis section provides executive-level infor-
                                                               mation on the Department’s history; mission; organization; key activities; analysis of
                                                               financial statements, systems, controls, and legal compliance; accomplishments for
                                                               the fiscal year; and management and performance challenges. The FY 2013 high-level
                                                               summary of performance information is on page 13 of the AFR. Detailed performance
                                                               data are included in the APR.

                                                               The Financial Report section provides a message from the Chief Financial Officer,
                                                               the Department’s consolidated and combined financial statements, the notes to the
                                                               financial statements, and a report from the DOT Office of Inspector General and the
                                                               Independent Auditors.

                                                               The Other Information section provides Improper Payments Information Act reporting
                                                               details and other statutory reporting requirements, including a revised OMB require­
                                                               ment, the Schedule of Spending. The Net Cost by Goal, reporting on Other DOT Non­-
                                                               affiliated Activities, and the Inspector General’s statement on DOT’s major management
                                                               and performance challenges are also included in this section.


                                                               ANNUAL PERFORMANCE REPORT (APR)*
                                                               The APR will be produced in conjunction with the FY 2014 President’s Budget Request
                                                               and will provide the detailed performance information and descriptions of results by
                                                               each key performance measure. This report will also include trend data and a discus-
                                                               sion of DOT performance.


* Available February 2014.




2               U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                            FOREWORD




The APR report satisfies the reporting requirements of the following major legislation:

•	 Reports Consolidation Act of 2000;
•	 Government Performance and Results Act of 1993;
•	 Chief Financial Officers Act of 1990;
•	 Government Management Reform Act of 1994;
•	 Federal Managers’ Financial Integrity Act of 1982;
•	 Federal Financial Management Improvement Act of 1996; and
•	 Improper Payments Information Act of 2002.

The reports will be available on the Department’s Web site at http://www.dot.gov/.




                                  AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 201 3      3
4   U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
MESSAGE FROM THE SECRETARY

        OVERVIEW OF FY 2013 FINANCIAL RESULTS
        I am pleased to submit the U.S. Department of Transporta-
        tion’s (DOT) Agency Financial Report for Fiscal Year (FY) 2013.
        Consistent with statutory requirements, DOT’s Agency Financial
        Report provides information on DOT’s financial operations
        and performance for the fiscal year that ended September 30,
        2013 (FY 2013). This report is presented together with DOT’s
        Annual Performance Report, which will be released in 2014.
        I am very pleased that DOT received an unmodified audit
        opinion on its financial statements for FY 2013, its twelfth              ANTHONY R. FOXX
        in thirteen years.

        Supported by DOT’s successful financial performance, we made significant progress toward
        our strategic goals and objectives in FY 2013. Looking forward to FY 2014, DOT will continue
        to lead in promoting safety and critical transportation investments that will strengthen our
        Nation’s economy.


        STRATEGIC GOALS
        Our citizens are calling for investments in a transportation system that is safer, more efficient,
        and more cost-effective. To achieve these outcomes, DOT’s programs are formulated to sup-
        port a set of strategic goals that include safety, state of good repair, economic competitiveness,
        and environmental sustainability. Among these goals, our main focus will remain safety. In
        addition to this strategic area, DOT’s initiatives will create “Ladders of Opportunity,” empha-
        size “Fix it First” investments, and fund projects that promote Economic Growth.


        LADDERS OF OPPORTUNITY
        Investments in “Ladders of Opportunity” represent a way to connect people with jobs,
        schools, medical facilities, and centers of commerce. As we plan for population growth, we
        must be mindful of the numerous communities that currently lack access to reliable transpor-
        tation options. In the coming year, DOT will support approaches to advance these Ladders of
        Opportunity.

        For example, the Federal Transit Administration (FTA) will look for ways to promote reliable
        low-cost transportation for rural, suburban, and urban commuters. The Federal Motor Carrier
        Safety Administration’s (FMCSA) bus strike force, which is designed to regulate bus and driver
        safety, will help ensure cost effective, reliable transportation by removing unsafe motor carriers
        from our Nation’s roadways. Also, the Federal Highway Administration (FHWA) will continue
        to connect communities with opportunity by linking homes to nearby jobs, schools, and
        centers of commerce.




                                                   AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   5
MESSAGE FROM THE SECRETARY




                                           FIX IT FIRST
                                           “Fix it First” investments improve the state of good repair for our Nation’s roads, bridges, railways,
                                           and runways. Fixing our existing infrastructure must be a top priority in order to keep America
                                           economically competitive. Recent reports on the condition of key facilities—highways, bridges,
                                           transit systems, passenger rail, and airport runways—reveal that many fall short of a state of good
                                           repair and thus compromise the safety, capacity, and efficiency of the U.S. transportation system.
                                           The DOT programs will continue to emphasize improving the condition of our infrastructure to
                                           ensure that these facilities are safe and reliable.

                                           Investments made through FHWA’s highway safety improvement program and national highway
                                           performance program will reduce the backlog of safety needs on roads and bridges throughout the
                                           national highway system. At FTA, resources in the bus and bus facilities program, as well as the
                                           state of good repair program, will ensure transit operators can make critical investments to improve
                                           the overall conditions and performance of our Nation’s transit system. In addition, programs man-
                                           aged by the Federal Railroad Administration (FRA) for passenger rail improvements will increase
                                           the reliability and safety of the existing system.


                                           ECONOMIC GROWTH
                                           With demand for both freight and passenger transportation expected to more than double by 2050,
                                           DOT will support the U.S. economy by fostering smart, strategic investments that will serve the
                                           traveling public and facilitate freight movement. Our central strategies for achieving maximum
                                           economic returns on our policies and investments include leading the development of intercity,
                                           high-speed passenger rail and a competitive air transportation system; increasing travel time
                                           reliability in freight-significant highway corridors; improving the performance of freight rail and
                                           maritime networks; advancing transportation interests in targeted markets around the world; and
                                           expanding opportunities in the transportation sector for small businesses.

                                           Investments in Economic Growth are projects that create jobs and provide efficient transport for
                                           goods and services. Besides conventional funding sources, we have a number of options in our
                                           toolbox to promote economic growth. The DOT’s Transportation Infrastructure Financing and
                                           Innovation Act (TIFIA) is one such program that provides Federal credit assistance to eligible
                                           surface transportation projects. The TIFIA can help advance qualified, large-scale projects that
                                           otherwise might be delayed or deferred because of size, complexity, or uncertainty over the timing
                                           of revenues. Each dollar of Federal funds can provide approximately $10 in TIFIA credit assistance,
                                           which leverages $30 into total investment. For example, our TIFIA program has leveraged several
                                           billion dollars in infrastructure investments across America—in Illinois, California, and Texas.
                                           Further, we have seen another of our innovative financing programs—the Railroad Rehabilitation &
                                           Improvement Financing loan program—help Denver, Colorado revitalize its Union Station.

                                           An additional measure which will further economic growth is DOT’s commitment to the Federal
                                           Aviation Administration’s NextGen program. NextGen represents an evolution from a ground-based
                                           system of air traffic control to a satellite-based system of air traffic management. This evolution is
                                           vital to meeting future demand, and to avoiding gridlock in the sky and at our Nation’s airports. It
                                           will be a better way of doing business. Travel will be more predictable because there will be fewer
                                           delays, less time sitting on the ground and holding in the air, and more flexibility to get around
                                           weather problems.




    6         U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                              MESSAGE FROM THE SECRETARY




EFFICIENCY
DOT programs not only promote economic growth and a stronger America, but they improve
the efficiency and performance of our existing transportation system. The American people are
counting on us to be good stewards of their tax dollars, and DOT has greatly improved the way we
deliver the benefits of transportation to the American people.

For example, the Federal Highway Administration’s Every Day Counts initiative has been promot-
ing innovation and saving money on projects across the country. One tool in this initiative is Warm
Mix Asphalt. While that may not be a household phrase, it is quietly saving taxpayers millions every
year. Warm Mix Asphalt is a new paving technology that allows asphalt to be produced and placed
on the road at a lower temperature. It uses less fuel, reduces emissions, and extends the paving sea-
son into colder weeks, which allows road crews to keep working longer. Under Every Day Counts,
the use of Warm Mix has skyrocketed. By 2020, we project that this program will save more than
$3.5 billion dollars – simply by using less fuel in the production and placement of asphalt.

Further, we are not just saving money on our roads and highways. The Federal Transit Administration
is cutting red tape to get new rail and bus projects off the ground faster than ever before—while
maintaining our commitment to both the environment and safety. This means shovels in the ground
sooner, workers on the job quicker, a shorter wait for improved transit, and savings for taxpayers.


SAFETY
As Secretary of Transportation, my overriding priority is to make our transportation system the saf-
est in the world. At DOT, we will continue to work hard so that Americans feel safe when they get
in a car, hop on a bus, board an airplane or even ride a bike. Our goal is to continue our DOT-wide
focus on reducing transportation-related fatalities and injuries. Over the past year, we have worked
closely with our State partners to reduce the number of motor coach, truck, vehicle, and pedestrian
accidents, and we plan to continue those important efforts in 2014. Our key initiatives include:
roadway safety for all users; combating distracted driving and other dangerous behaviors; pursuing
a more effective Federal role in transit safety; and addressing the most serious safety risks in other
surface transportation modes and in aviation.


INVESTMENTS FOR AMERICA’S FUTURE
Transportation moves America forward. When we build bridges, highways, transit systems, airports
and ports, we are putting people to work and helping businesses expand. But most importantly,
we are giving the next generation the tools to compete. Take a look at the Golden Gate Bridge, the
Hoover Dam, or the Transcontinental Railroad. These symbols of American grit and innovation
were not built by us. Generations before us pursued these projects in difficult times because they
believed in a better future for the next generation. Although resources are scarce, I believe we can
still build great things. We can ensure that the rungs on the ladder of opportunity are not so far
apart—that the American dream is still within reach for those who are willing to work for it. This is
our challenge, and we must work together to address it.




								Anthony R. Foxx




                                               AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 201 3   7
8   U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
MANAGEMENT’S DISCUSSION
AND ANALYSIS

         DOT MISSION AND VALUES

         MISSION
         The Department’s mission is to serve the United States by ensuring a fast, safe, efficient,
         accessible, and convenient transportation system that meets our vital national interests
         and enhances the quality of life of the American people, today and into the future.


         VALUES
         Professionalism
         As accountable public servants, DOT employees exemplify the highest standards of
         excellence, integrity, and respect in the work environment.

         Teamwork
         DOT employees support each other, respect differences in people and ideas, and work
         together in ONE DOT fashion.

         Customer Focus
         DOT employees strive to understand and meet the needs of the Department’s customers
         through service, innovation, and creativity. We are dedicated to delivering results that
         matter to the American people.


         ORGANIZATION

         HISTORY
         Established in 1967, DOT sets Federal transportation policy and works with State,
         local, and private-sector partners to promote a safe, secure, efficient, and interconnect-
         ed national transportation system of roads, railways, pipelines, airways, and seaways.
         DOT’s overall objective of creating a safer, simpler, and smarter transportation system
         is the guiding principle as the Department moves forward to achieve specific goals.


         HOW DOT IS ORGANIZED
         DOT employs more than 57,000 people in the Office of the Secretary (OST) and
         through 12 Operating Administrations (OAs) and bureaus, each with its own manage-
         ment and organizational structure.

         The OST provides overall leadership and management direction, administers aviation
         economic and consumer protection programs, and provides administrative support.
         The Office of Inspector General (OIG) and the Surface Transportation Board (STB),
         while formally part of DOT, are independent by law.



                                            AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   9
MANAGEMENT’S DISCUSSION AND ANALYSIS




   ORGANIZATIONAL CHART




                                                                            SECRETARY/
                                                                              DEPUTY
                                                                            SECRETARY



                                                                                                                            ASSISTANT
                                                                                                                          SECRETARY FOR
                                                                                                                         TRANSPORTATION
                                                                                                                              POLICY
                                                                                            UNDERSECRETARY
                                                                                              FOR POLICY                    ASSISTANT
                                                                                                                            SECRETARY
                                                                                                                         FOR AVIATION AND
                                                                                                                          INTERNATIONAL
                                                                                                                              AFFAIRS




                                                        CHIEF FINANCIAL
                                                                                       OFFICE OF                                OFFICE OF
      ASSISTANT                BOARD OF               OFFICER & ASSISTANT
                                                                                       THE CHIEF           OFFICE OF         DRUG & ALCOHOL     EXECUTIVE
    SECRETARY FOR              CONTRACT                  SECRETARY FOR
                                                                                     INFORMATION         CIVIL RIGHTS           POLICY &       SECRETARIAT
   ADMINISTRATION               APPEALS                   BUDGET AND
                                                                                        OFFICER                                COMPLIANCE
                                                           PROGRAMS




                                                           ASSISTANT                                                         OFFICE OF SMALL
                                                                                      OFFICE OF
                                GENERAL                  SECRETARY FOR                                    OFFICE OF         & DISADVANTAGED
                                                                                    INTELLIGENCE
                                COUNSEL                  GOVERNMENTAL                                   PUBLIC AFFAIRS          BUSINESS
                                                                                    AND SECURITY
                                                            AFFAIRS                                                            UTILIZATION




                                                        FEDERAL MOTOR
   FEDERAL AVIATION       FEDERAL HIGHWAY                                         FEDERAL RAILROAD     FEDERAL TRANSIT         MARITIME
                                                        CARRIER SAFETY
    ADMINISTRATION         ADMINISTRATION                                          ADMINISTRATION      ADMINISTRATION        ADMINISTRATION
                                                        ADMINISTRATION




                                                         PIPELINE AND               RESEARCH AND       SAINT LAWRENCE
  NATIONAL HIGHWAY              OFFICE OF                                                                                       SURFACE
                                                          HAZARDOUS                  INNOVATIVE            SEAWAY
   TRAFFIC SAFETY              INSPECTOR                                                                                     TRANSPORTATION
                                                       MATERIALS SAFETY              TECHNOLOGY         DEVELOPMENT
   ADMINISTRATION               GENERAL                                                                                          BOARD
                                                        ADMINISTRATION             ADMINISTRATION       CORPORATION




   10            U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                   MANAGEMENT’S DISCUSSION AND ANALYSIS




OVERVIEW OF LEGISLATIVE AUTHORITIES

The Secretary of Transportation, under the direction of the President, exercises lead-
ership in transportation matters. Section 101 of Title 49 United States Code describes
the United States Department of Transportation purposes as follows:

“(a)	 The national objectives of general welfare, economic growth and stability, and
      security of the United States require the development of transportation policies
      and programs that contribute to providing fast, safe, efficient, and convenient trans­-
      portation at the lowest cost consistent with those and other national objectives,
      including the efficient use and conservation of the resources of the United States.

(b)	 A Department of Transportation is necessary in the public interest and to—

     (1)	 ensure the coordinated and effective administration of the transportation
          programs of the United States Government;

     (2)	 make easier the development and improvement of coordinated transportation
          service to be provided by private enterprise to the greatest extent feasible;

     (3)	 encourage cooperation of Federal, State, and local governments, carriers,
          labor, and other interested persons to achieve transportation objectives;

     (4)	 stimulate technological advances in transportation, through research and
          development or otherwise;

     (5)	 provide general leadership in identifying and solving transportation problems;
          and

     (6)	 develop and recommend to the President and Congress transportation poli-
          cies and programs to achieve transportation objectives considering the needs
          of the public, users, carriers, industry, labor, and national defense.”


OPERATING ADMINISTRATIONS AND INDEPENDENT
ORGANIZATIONS

OFFICE OF THE SECRETARY (OST)
The Office of the Secretary oversees the formulation of national transportation policy
and promotes intermodal transportation. Other responsibilities include negotiating
and implementing international transportation agreements, assuring the fitness of
U.S. airlines, enforcing airline consumer protection regulations, issuing regulations
to prevent alcohol and illegal drug misuse in transportation systems, and preparing
transportation legislation.


FEDERAL AVIATION ADMINISTRATION (FAA)
The Federal Aviation Administration’s mission is to provide the safest, most efficient
airspace system in the world.


FEDERAL HIGHWAY ADMINISTRATION (FHWA)
The mission of the Federal Highway Administration is to improve mobility on our
Nation’s highways through national leadership, innovation, and program delivery.


                                    AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   11
MANAGEMENT’S DISCUSSION AND ANALYSIS




                                                             FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION (FMCSA)
                                                             The Federal Motor Carrier Safety Administration’s primary mission is to reduce crash-
                                                             es, injuries, and fatalities involving large trucks and buses.


                                                             FEDERAL RAILROAD ADMINISTRATION (FRA)
                                                             The mission of the Federal Railroad Administration is to enable the safe, reliable, and
                                                             efficient transportation of people and goods for a strong America, now and in the future.


                                                             FEDERAL TRANSIT ADMINISTRATION (FTA)
                                                             The Federal Transit Administration’s mission is to improve public transportation for
                                                             passengers and America’s communities.


                                                             MARITIME ADMINISTRATION (MARAD)
                                                             The Maritime Administration’s mission is to improve and strengthen the U.S. marine
                                                             transportation system to meet the economic, environmental, and security needs of the
                                                             Nation.


                                                             NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION (NHTSA)
                                                             The National Highway Traffic Safety Administration’s mission is to save lives, prevent
                                                             injuries, and reduce economic costs due to road traffic crashes, through education,
                                                             research, safety standards, and enforcement activity.


                                                             OFFICE OF INSPECTOR GENERAL (OIG)
                                                             The Inspector General Act of 1978, as amended, established the Office of Inspector
                                                             General as an independent and objective organization within DOT. The OIG is com-
                                                             mitted to fulfilling its statutory responsibilities and supporting members of Congress,
                                                             the Secretary, senior Department officials, and the public in achieving a safe, efficient,
                                                             and effective transportation system.


                                                             PIPELINE AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION
                                                             (PHMSA)
                                                             The mission of the Pipeline and Hazardous Materials Safety Administration is to
                                                             protect people and the environment from the risks inherent in transportation of
                                                             hazardous materials by pipeline and other modes of transportation.


                                                             RESEARCH AND INNOVATIVE TECHNOLOGY ADMINISTRATION (RITA)
                                                             The Research and Innovative Technology Administration works to advance DOT
                                                             priorities for innovation and research in transportation technologies and concepts.


                                                             SAINT LAWRENCE SEAWAY DEVELOPMENT CORPORATION (SLSDC)
                                                             The Saint Lawrence Seaway Development Corporation’s mission is to serve the marine
                                                             transportation industries by providing a safe, secure, reliable, efficient, and competi-
                                                             tive deep-draft international waterway, in cooperation with the Canadian St. Lawrence
                                                             Seaway Management Corporation.



   12         U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                  MANAGEMENT’S DISCUSSION AND ANALYSIS




SURFACE TRANSPORTATION BOARD (STB)
The Surface Transportation Board is charged with promoting substantive and pro-
cedural regulatory reform in the economic regulation of surface transportation, and
with providing an efficient and effective forum for the resolution of disputes and the
facilitation of appropriate business transactions.


PERFORMANCE HIGHLIGHTS

The Department of Transportation will report against “Transportation for a New
Generation,” DOT’s Strategic Plan for Fiscal Years 2012–2016. This is the second year
reporting under this Strategic Plan.

An overview of the Department’s strategic goals is provided below, and a complete
analysis of DOT’s successes and challenges related to FY 2013 performance targets will
be included in the Annual Performance Report. A brief discussion of the Department’s
results by strategic goal follows.


SAFETY
Safety is DOT’s number one priority. The Department tracks the safe movement of
Americans and products on the roadways, in the air, on transit systems, on railroads,
and through pipelines. The Department has either estimated or final 2013 results for
9 of the 13 safety goals that will be included in the Annual Performance Report.

The Department does not anticipate meeting the 2013 target for the Roadway Fatality
Rate. The Department is on track, however, to meet the passenger vehicle occupant
fatality rate target, the motorcyclist rider fatality rate, and the nonoccupant (pedestrian
and bicycle) fatality rate. Fatalities have declined by about 26 percent from 2005 to 2011.
A statistical projection of traffic fatalities for the first half of 2013 shows an estimated
15,740 people died in motor vehicle traffic crashes. This number is a decrease of 2.5
percent compared with the 16,150 fatalities that were projected to have occurred in
the first half of 2012. While it is too soon to speculate in the contributing factors of
this decline, it should be noted that there has been a historic downward trend in traffic
fatalities. Such deaths are at a 60-year low.


STATE OF GOOD REPAIR
Recent reports on the condition of key facilities—highways, bridges, transit systems,
passenger rail, and airport runways—reveal that many fall short of a state of good
repair and thus compromise the safety, capacity, and efficiency of the U.S. transporta-
tion system. DOT helps its State and local government partners achieve a state of good
repair through new resources aimed at improving the condition of our infrastructure.
DOT also encourages its government and industry partners to make optimal use of
existing capacity, minimize life-cycle costs, and apply sound asset management princi-
ples throughout the system. In FY 2013, preliminary results show that the Department
met or exceeded the target for three out of four state-of-good-repair goals for which
data is currently available. The Department will work to finalize results for all state-
of-good-repair performance measures before the release of the Annual Performance
Report.




                                   AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   13
MANAGEMENT’S DISCUSSION AND ANALYSIS




                                                             ECONOMIC COMPETITIVENESS
                                                             DOT has established a goal to support the U.S. economy by fostering smart, strategic
                                                             investments that serve the traveling public and facilitate freight movement. The De-
                                                             partment’s central strategies for achieving maximum economic returns on its policies
                                                             and investments include leading the development of intercity, high-speed passenger
                                                             rail and a competitive air transportation system; increasing travel-time reliability in
                                                             freight-significant highway corridors; improving the performance of freight-rail and
                                                             maritime networks; advancing transportation interests in targeted markets around the
                                                             world; and expanding opportunities in the transportation sector for small businesses.
                                                             In FY 2013, preliminary results show that the Department met or exceeded 16 out of
                                                             the 18 targets for the economic competitiveness goals.


                                                             LIVABLE COMMUNITIES
                                                             Fostering livable communities—places where coordinated transportation, housing,
                                                             and commercial development give people access to affordable and environmentally
                                                             sustainable transportation—is a transformational policy shift for DOT. Through the
                                                             principles established in the livable communities strategic goal, the Department will
                                                             pursue coordinated, place-based policies and investments that increase transportation
                                                             choices and access to public transportation services for all Americans. Based on
                                                             preliminary data, DOT has met or exceeded FY 2013 targets for five of eight livable
                                                             communities goals. The Department is awaiting final data for the two remaining goals
                                                             and will discuss results in the Annual Performance Report released in early 2014.


                                                             ENVIRONMENTAL SUSTAINABILITY
                                                             While the transportation sector is a significant source of greenhouse gas (GHG)
                                                             emissions, the Department is working to address and mitigate this challenge through
                                                             strategies such as fuel economy standards for cars and trucks and more environmen-
                                                             tally sound construction and operational practices and by expanding opportunities
                                                             for shifting freight from less fuel-efficient modes to more fuel-efficient modes. A full
                                                             discussion of the Department’s FY 2013 environmental sustainability goals will be
                                                             included in the Annual Performance Report.




   14         U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                     MANAGEMENT’S DISCUSSION AND ANALYSIS




PERFORMANCE SUMMARY TABLES

SAFETY PERFORMANCE SUMMARY
                                                                                                                  Actual                         2013            2013
                                                                                                                                                           Target Met
 Performance Measure                             2008        2009         2010                2011                  2012        Target         Actual      or Not Met
 Highway Fatality Rate per 100 Million           1.26         1.15        1.11                 1.09                 1.14*          1.03          1.04*       Potentially
   Vehicle-Miles Traveled (VMT).                                                                                                                              Not Met
   (NHTSA, FHWA, FMCSA)                                                                                                                                         (2012)
 Passenger Vehicle Occupant Fatality             0.97         0.89        0.84         0.83–0.89*            0.83–0.89*            0.85           N/A       Potentially
   Rate per 100 Million VMT. (NHTSA,                                                                                                                        Met (2012)
   FHWA, FMCSA)
 Motorcyclist Rider Fatality Rate per           68.52       56.36        54.82              56–58*                56–58*             63           N/A       Potentially
  100,000 Motorcycle Registrations.                                                                                                                         Met (2012)
  (NHTSA, FHWA, FMCSA)
 Non-Occupant (Pedestrian and                    0.18         0.17        0.17         0.16–0.17*            0.16–0.17*            0.16           N/A       Potentially
  Bicycle) Fatality Rate per 100                                                                                                                            Met (2012)
  Million VMT. (NHTSA, FHWA,
  FMCSA)
 Large Truck and Bus Fatality Rate              0.155       0.123        0.131      0.117–0.134*          0.110–0.127*            0.114           N/A       Potentially
   per 100 Million Total VMT. (NHTSA,                                                                                                                       Met (2012)
   FHWA, FMCSA)
 Number of Commercial Air Carrier                  0.4         6.7          0.3                0.0*                   7.6            7.4          1.1*       Potentially
  Fatalities per 100 Million Persons                                                                                                                               Met
  Onboard. (FAA)
 Number of Fatal General Aviation                 N/A         1.16        1.10                1.13*                1.10(r)         1.06          1.08*       Potentially
  Accidents per 100,000 Flight                                                                                                                                Not Met
  Hours. (FAA)
 Category A&B Runway Incursions                 0.427       0.227        0.117               0.138                 0.356          0.395         0.200                Met
  per Million Operations. (FAA)
 Pipeline Incidents Involving Death                 40          39           39                  39                  32(r)           41            27*       Potentially
   or Major Injury. (PHMSA)                                                                                                                                        Met
 Hazardous Materials Incidents                      24          29           19                  33                  33(r)           33            29*       Potentially
  Involving Death or Major Injury.                                                                                                                                 Met
  (PHMSA)
 Transit Fatalities per 100 Million               N/A          N/A       0.533               0.547               0.613(r)         0.543           N/A            Not Met
   Passenger-Miles Traveled. (FTA) (r)                                                                                                                            (2012)
 Rail-Related Accidents and Incidents         16.904       16.874      16.634               15.890                14.351        16.300        14.545*        Potentially
  per Million Train-Miles. (FRA)†                                                                                                                                  Met
 Cumulative Number of States and                  N/A          N/A       214(r)              246(r)                398(r)           270          398*                Met
  Localities That Adopt Roadway
  Designs That Accommodate All
  Road Users (Complete Streets).
  (OST)
Notes: (r) Revised performance measure. * Preliminary estimate. † Actual results might differ from previous reports and are subject to change, due to subsequently
obtained information. FY 2013 actuals are based on 9 months of preliminary data.




                                                                                                      AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3        15
MANAGEMENT’S DISCUSSION AND ANALYSIS




   PERFORMANCE SUMMARY TABLES (continued)

   STATE OF GOOD REPAIR PERFORMANCE SUMMARY
                                                                                                                         Actual                       2013          2013
                                                                                                                                                              Target Met
    Performance Measure                                              2008       2009             2010            2011      2012          Target     Actual    or Not Met
    Percent of Travel on the National Highway                        56%         57%             58%             58%    57.1%(r)         57% (r)     57%*      Potentially
      System (NHS) Roads With Pavement                                                                                                                               Met
      Performance Standards Rated “Good”.
      (FHWA)
    Percent of Deck Area (i.e., the Roadway                       8.2%(r)      8.2%(r)         8.3%(r)       7.8%(r)      7.1%             7.7%       6.7%           Met
      Surface of a Bridge) on NHS Bridges Rated
      Structurally Deficient. (FHWA)
    Backlog of Transit Capital Assets in Need of                      N/A         N/A     $77.7 billion          TBD^     TBD^      $77.6 billion     N/A^             —
     Replacement or Refurbishment (as Defined
     by an Estimated Condition Rating of 2.5 or
     Lower). (FTA)
    Percent of Runway Pavement in Excellent,                       96.6%       97.0%           97.2%         97.4%       97.5%           93.0%      97.5%            Met
      Good, or Fair Condition for Paved Runways
      in the National Plan of Integrated Airport
      Systems. (FAA)
   Notes: (r) Revised. * Preliminary estimate. ^ 2011 and 2012 Actuals available following release of Conditions and Performance Report.




   ECONOMIC COMPETITIVENESS PERFORMANCE SUMMARY
                                                                                                                         Actual                       2013          2013
                                                                                                                                                              Target Met
    Performance Measure                                 2008          2009        2010                2011                 2012        Target       Actual    or Not Met
    Travel Time Reliability in Urban Areas               1.21          1.19        1.21                   1.21            1.20(r)         1.21        1.21*    Potentially
      as Measured by the Travel Time                                                                                                                                 Met
      Index. (FHWA)
    Travel Time Reliability in Freight                   14.4          13.8        13.7                   13.8            13.9(r)           15          15            Met
      Significant Corridors. (FHWA)
    Number of Corridor Programs That                      N/A           N/A        N/A                    N/A                  3              1          1            Met
     Will Achieve Initial Construction.
     (FRA)
    Number of Individual Construction                     N/A           N/A        N/A                    N/A                  8            14          19            Met
     Projects That Will Achieve Initial
     Construction. (FRA)
    Average Daily Airport Arrival and               103,222       101,691      101,668              87,338               88,591        86,835       87,622*    Potentially
      Departure Capacity at Core                                                                                                                                     Met
      Airports. (FAA)
    Percent of Operational Availability             99.82%         99.78%      99.79%              99.72%                 99.8%         99.7%       99.74%            Met
      for the Reportable Facilities That
      Support Core Airports. (FAA)
    Initial Operating Capability on ERAM                  N/A           N/A        N/A                      2                  7            11           8       Not Met
       at Continental U.S. En Route
       Centers. (FAA)
    Percent of Time the U.S. Portion of               98.8%          99.4%       99.8%              99.0%                 99.7%         99.1%                         Met
      the St. Lawrence Seaway System
      and Locks Are Available. (SLSDC)
    Ships Available To Meet DOD’s                           60            59        60                     60                 60            60          60            Met
      Requirements for Commercial
      Sealift Capacity (as Measured by
      the Number of Ships Contractually
      Enrolled in the Maritime Security
      Program). (MARAD)




   16              U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                      MANAGEMENT’S DISCUSSION AND ANALYSIS




PERFORMANCE SUMMARY TABLES (continued)

ECONOMIC COMPETITIVENESS PERFORMANCE SUMMARY (continued)
                                                                                                                   Actual                         2013            2013
                                                                                                                                                            Target Met
 Performance Measure                             2008         2009        2010                 2011                  2012        Target         Actual      or Not Met
 Operating Days in U.S. Foreign                    N/A         N/A      21,436               21,557                21,593        19,200         21,794               Met
  Commerce and Available To Meet
  DOD’s Requirements (as Measured
  by the Number of Ship Operating
  Days That Ships Enrolled in the
  MSP Were Actually Operating in
  U.S. Foreign Commerce). (MARAD)
 Number of Twenty Foot Equivalent                  N/A         N/A          N/A               1,061                 8,221        15,000          9,498            Not Met
  (TEU) Containers Transported
  Across America’s Marine Highway
  Corridors. (MARAD)
 Number of U.S. Merchant Marine                    219         198          198                 205                    219           210           201*       Potentially
  Academy (USMMA) Graduates.                                                                                                                                        Met
  (MARAD)
 Number of State Maritime Academy                  N/A         N/A          575                 545                 592(r)           600           630*       Potentially
  Graduates. (MARAD)                                                                                                                                                Met
 Percent of NAS On-Time Arrivals at           87.29%      88.98%       90.55%               90.41%                 92.5%          88.0%        90.62%                Met
   Core Airports. (FAA)
 Review Air Carriers To Ensure They                N/A           22          20                   26                    27            18         TBD**               Met
  Meet the Requisite Standards for
  Obtaining or Retaining Economic
  Authority To Operate. (OST)
 Reach New or Expanded Bilateral                      4           4            7                   4                       4            3             5      Met (2012)
  and Multilateral Agreements To
  Remove Market-Distorting Barriers
  to Trade in Transportation. (OST)
 Percent of Total Dollar Value of DOT 16.19%              13.36%         14.0%               19.5%               18.5%(r)         15.0%          TBD**       Potentially
   Direct Contracts Awarded to Small,                                                                                                                        Met (2012)
   Disadvantaged Businesses. (OST)
 Percent of Total Dollar Value of DOT          8.12%      10.94%          8.0%               11.1%                8.82%*           6.0%          TBD**       Potentially
   Direct Contracts Awarded to                                                                                                                               Met (2012)
   Women-Owned Businesses. (OST)
Notes: (r) Revised. * Preliminary estimate. ** Results available in Jan. 2014 and reported in Annual Performance Report.




                                                                                                       AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3        17
MANAGEMENT’S DISCUSSION AND ANALYSIS




   PERFORMANCE SUMMARY TABLES (continued)

   LIVABLE COMMUNITIES PERFORMANCE SUMMARY
                                                                                                                      Actual                         2013           2013
                                                                                                                                                              Target Met
    Performance Measure                                      2008             2009        2010           2011           2012        Target        Actual      or Not Met
    States With Policies That Improve                         N/A              N/A           21              24            26            27             28             Met
      Transportation Choices for
      Walking and Bicycling. (FHWA)
    States That Have Developed an                             N/A              N/A          N/A              13            17          18(r)            23             Met
      Americans With Disabilities Act
      (ADA) Transition Plan That Is
      Current and Includes the Public
      Rights-of-Ways. (FHWA)
    Number of Calendar Year Transit                  10.3 billion       9.9 billion   9.9 billion   10.1 billion   10.3 billion 10.1 billion 10.3 billion#      Potentially
     Boardings Reported by Urbanized                                                                                                                                  Met
     Area Transit Providers. (FTA)
    Number of Transit Boardings                      128 million 131 million 138 million            144 million    135 million 144 million          TBD^          Not Met
     Reported by Rural Area Transit                                                                                                                                (2012)
     Providers. (FTA)
    Transit “Market Share” Among                              N/A              N/A             0              1       TBD^(r)             4         TBD^             TBD^
      Commuters to Work in the 50
      Most-Populous Urbanized Areas.
      (FTA)
    Number of Key Rail Stations Verified                      N/A              N/A          N/A            513            522          531           567*       Potentially
     as Accessible and Fully Compliant.                                                                                                                               Met
     (FTA)
    Number of Intercity Rail Passenger-              5.65 billion 6.16 billion 5.90 billion         6.33 billion   6.53 billion 6.60 billion   6.80 billion            Met
     Miles Traveled. (FRA)
    Percent of Intercity Passenger Rail                       N/A              N/A          N/A            N/A          0%(r)           2%             0%         Not Met
      Stations That Comply With the
      Requirements of the ADA. (FRA)
   Notes: (r) Revised. * Preliminary estimate. ** 2011 interim target developed prior to 2012–2016 Strategic Plan release. # Projection from trends. ^ 2013 actual available
   late 2014.




   18              U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                     MANAGEMENT’S DISCUSSION AND ANALYSIS




PERFORMANCE SUMMARY TABLES (continued)

ENVIRONMENTAL SUSTAINABILITY PERFORMANCE SUMMARY
                                                                                                                Actual                          2013            2013
                                                                                                                                                          Target Met
 Performance Measure                                 2008           2009           2010           2011            2012        Target          Actual      or Not Met
 NAS Energy Efficiency (Measured                 (13.52%)      (14.03%)       (15.25%)        (14.50%)        (14.76%)          (16%)       (15.61%)            Not Met
  by Fuel Burned per Miles Flown).
  (FAA)
 U.S. Population Exposed to                      383,465        291,768        317,596         315,293      319,901(r)       371,000         321,000                Met
   Significant Aircraft Noise Around
   Airports. (FAA)
 Hazardous Liquid Pipeline Spills With                 128           111              88              99         123(r)             94           119*        Potentially
  Environmental Consequences.                                                                                                                                 Not Met
  (PHMSA)
 Percent Reduction of Vehicle Fleet                    8%           14%              5%           4.9%          14.5%            14%            TBD**       Met (2012)
   Petroleum Use. (OST)
 Percent Improvement in Water                          2%          3.3%          (1.2%)          (9.7%)           0.9%           10%            TBD**           Not Met
   Efficiency. (OST)                                                                                                                                             (2012)
 Percent Recycling and Waste                           N/A           N/A            N/A                +        11%(r)             8%           TBD**       Met (2012)
   Diversion. (OST)
 Percent of All Applicable Contracts                   N/A           N/A            N/A            95%             95%           95%            TBD**       Met (2012)
   That Meet Sustainability
   Requirements. (OST)
 Percent Reduction in Green-House                      N/A           N/A           7.9%          15.4%             29%             7%           TBD**       Met (2012)
   Gas Emissions From Facilities and
   Fleets. (OST)
 Cumulative Number of Ships (2010-                     N/A           N/A              11              26             36             32              44              Met
  2017) Safely Removed From the
  Suisun Bay Reserve Fleet for
  Disposal. (MARAD)
 Percent of Alternative-Fuel and                      42%           43%             44%           45%*             46%           46%            TBD^        Met (2012)
   Hybrid Vehicles in the Transit
   Revenue Service Fleet. (FTA)
Notes: (r) Revised. * Preliminary estimate. ** Results available in Jan. 2014 and reported in Annual Performance Report. + Data unavailable. ^ 2013 Actual available late
2014.




                                                                                                     AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3          19
MANAGEMENT’S DISCUSSION AND ANALYSIS




                                                             FINANCIAL HIGHLIGHTS
                                                             The financial statements and financial data presented in this report have been prepared
                                                             from the accounting books and records of the U.S. Department of Transportation in
                                                             conformity with generally accepted accounting principles (GAAP). GAAP for Federal
                                                             entities are the standards and other authoritative pronouncements prescribed by the
                                                             Federal Accounting Standards Advisory Board (FASAB). Department management is
                                                             responsible for the integrity and fair presentation of the financial information presented
                                                             in these statements.

                                                             During FY 2013, disaster relief authorizations raised funding levels for specific pur-
                                                             poses as budget reductions from sequestration and expiring American Recovery and
                                                             Reinvestment Act (ARRA) of 2009 monies acted to shrink broader fund availability.
                                                             In January 2013, the Disaster Relief Appropriations Act of 2013 provided Department
                                                             Operating Administrations with $13 billion (subject to a 5.1 percent sequestration
                                                             reduction for nonexempt budgetary accounts) for Hurricane Sandy recovery, relief,
                                                             and future resiliency efforts. The Department disbursed an additional $2.9 billion of
                                                             previously obligated ARRA funding in FY 2013, down from $5.3 billion disbursed in
                                                             FY 2012.

                                                             In FY 2012, the Airport and Airway Trust Fund (AAFT) and the Highway Trust Fund
                                                             (HTF) were granted extensions of authority to collect excise taxes and to make expend­-
                                                             itures. The FAA Modernization and Reform Act of 2012, Public Law (P.L.) 112-95, ex­-
                                                             tended AATF authority through September 30, 2015. Moving Ahead for Progress in the
                                                             21st Century (MAP-21), P.L. 112-141, extended HTF authority through September 30,
                                                             2014. MAP-21 also infused HTF with $6.2 billion (less sequestration reductions of
                                                             $316 million) in appropriations from Treasury’s general fund during FY 2013.


                                                             OVERVIEW OF FINANCIAL POSITION
                                                             Assets
                                                             The Consolidated Balance Sheet reports total assets of $78.6 billion at the end of
                                                             FY 2013 compared with $76.1 billion at the end of FY 2012. The Fund Balance
                                                             with Treasury line item increased by $7.2 billion as a result of new disaster relief
                                                             funding. Investments decreased by $6.5 billion, as an $8 billion decrease in the HTF
                                                             investment balance from falling excise tax collections and higher State highway project
                                                             expenditures was partially offset by a $1.4 billion increase in the AATF investment
                                                             balance from rising excise tax collections and lower expenditures.

                                                             The Department’s assets reflected in the Consolidated Balance Sheet are summarized
                                                             in the following table.

                                                             ASSETS BY TYPE
                                                               Dollars in Thousands                       2013          %               2012        %
                                                              Fund Balance With Treasury            $40,581,338       51.7      $33,356,274       43.8
                                                              Investments                            15,820,956       20.1        22,330,652      29.4
                                                              General Property, Plant & Equipment 14,002,887          17.8        14,030,366      18.4
                                                              Direct Loans and Guarantees, Net        6,877,433        8.8         5,022,807       6.6
                                                              Inventory and Related Property, Net      879,595         1.1           857,891       1.1
                                                              Accounts Receivable                      266,276         0.3           271,457       0.4
                                                              Cash and Other Assets                    142,646         0.2           239,348       0.3
                                                              Total Assets                          $78,571,131      100.0      $76,108,795     100.0



   20         U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                    MANAGEMENT’S DISCUSSION AND ANALYSIS




Liabilities
The Department’s Consolidated Balance Sheet reports total liabilities of $19.6 billion
at the end of FY 2013, as summarized in the table below. This number represents
a $1.6 billion increase from the previous year’s total liabilities of $18 billion. The
largest increase was to the Debt line item as the Department borrowed from Treasury
to disburse $1.7 billion in new loans made through the Transportation Infrastructure
Finance and Innovation Act (TIFIA) program.

LIABILITIES BY TYPE
Dollars in Thousands                             2013              %                  2012         %
Debt                                      $6,958,855            35.4          $5,193,598         28.8
Grant Accrual                              6,593,732            33.6            6,315,689         35
Other Liabilities                          3,403,304            17.3            3,660,118        20.3
Federal Employee Benefits Payable          1,048,503              5.3           1,019,076         5.6
Environmental and Disposal Liabilities       919,195              4.7           1,010,818         5.6
Accounts Payable                             546,295              2.8             643,997         3.6
Loan Guarantees                              176,134              0.9             192,829         1.1
Total Liabilities                        $19,646,018           100.0         $18,036,125        100.0


Net Position
The Department’s Consolidated Balance Sheet and Consolidated Statement of Changes
in Net Position report a Net Position of $58.9 billion at the end of FY 2013, a 1.5 per­-
cent increase from the $58 billion from the previous fiscal year. The slight increase
is mainly attributable to new emergency relief efforts. Net Position is the sum of Un­
expended Appropriations and Cumulative Results of Operations.


RESULTS OF OPERATIONS
Net Costs
The Department’s total net cost of operations for FY 2013 was $77 billion. Surface
and air costs represent 98.5 percent of the Department’s net cost of operations. The
Surface Transportation line item represents the largest investment for the Department
at 77.6 percent of the Department’s net cost of operations. The Air Transportation line
item is the next largest investment for the Department at 20.9 percent of total net cost
of operations.

NET COSTS
Dollars in Thousands                             2013              %                  2012         %
Surface Transportation                   $59,782,379            77.6         $59,762,698         77.6
Air Transportation                        16,084,567            20.9          16,004,333         20.8
Maritime Transportation                      337,691              0.4             493,519         0.6
Cross-Cutting Programs                       393,251              0.5             391,458         0.5
Costs Not Assigned to Programs               436,442              0.6             384,545         0.5
Net Cost of Operations                   $77,034,330           100.0         $77,036,553        100.0



RESOURCES
Budgetary Resources
The Combined Statement of Budgetary Resources provides information on how
budgetary resources were made available to the Department for the year and their


                                     AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3      21
MANAGEMENT’S DISCUSSION AND ANALYSIS




                                                             status at fiscal year end. For the 2013 fiscal year, the Department had Total Budgetary
                                                             Resources of $147.6 billion, which represents a 10 percent increase from FY 2012
                                                             levels of $134.1 billion. Budget Authority of $147.6 billion consisted of $48.5 billion
                                                             in unobligated authority carried over from prior years, $35.6 billion in appropriations,
                                                             $55.7 billion in borrowing and contract authority, and $7.8 billion in spending
                                                             authority from offsetting collections. The Department’s FY 2013 Obligations Incurred
                                                             totaled $90.9 billion compared with FY 2012 Obligations Incurred of $86.6 billion.

                                                             Net Outlays reflect the actual cash disbursed against previously established obliga-
                                                             tions. For FY 2013, the Department had Net Outlays of $78.1 billion compared with
                                                             FY 2012 levels of $76 billion, an increase of 2.8 percent. Disbursements have begun to
                                                             increase as new emergency relief activities are undertaken.

                                                             RESOURCES
                                                               Dollars in Thousands                       2013                2012       % (Decrease)
                                                              Total Budgetary Resources          $147,578,744        $134,107,279                 10.0
                                                              Obligations Incurred                  90,865,064          86,554,746                     5.0
                                                              Net Outlays                           78,122,743          75,973,821                     2.8


                                                             HERITAGE ASSETS AND STEWARDSHIP LAND INFORMATION
                                                             Heritage assets are property, plant, and equipment that are unique for one or more
                                                             of the following reasons: historical or natural significance; cultural, educational, or
                                                             artistic importance; or significant architectural characteristics.

                                                             Stewardship Land is land and land rights owned by the Federal Government but not
                                                             acquired for or in connection with items of general property, plant, and equipment.

                                                             The Department’s Heritage assets consist of artifacts, museum and other collections,
                                                             and buildings and structures. The artifacts, museum, and other collections are those
                                                             of the Maritime Administration. Buildings and structures include Union Station (rail
                                                             station) in Washington, D.C., which is titled to the Federal Railroad Administration.

                                                             The Department holds transportation investments (Stewardship Land) through grant
                                                             programs, such as the Federal aid highways, mass transit capital investment assistance,
                                                             and airport planning and development programs.

                                                             Financial information for Heritage assets and Stewardship Land is presented in the
                                                             Financial Report section of this report in the Notes to the Financial Statements and
                                                             Required Supplementary Information.


                                                             LIMITATIONS OF THE FINANCIAL STATEMENTS
                                                             The principal financial statements have been prepared to report the financial position
                                                             and results of operations of the U.S. Department of Transportation, pursuant to the
                                                             requirements of 31 U.S.C. 3515 (b).

                                                             These statements have been prepared from the books and records of the U.S. Depart-
                                                             ment of Transportation in accordance with GAAP for Federal entities and in formats
                                                             prescribed by OMB. The statements are in addition to the financial reports used to
                                                             monitor and control budgetary resources, which are prepared from the same books
                                                             and records.

                                                             The statements should be read with the realization that they are for a component of
                                                             the U.S. Government.


   22         U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                      MANAGEMENT’S DISCUSSION AND ANALYSIS




FY 2013 FMFIA ASSURANCE LETTER TO THE PRESIDENT




        The President
        The White House
        Washington, DC 20500

        Dear Mr. President:

        I am pleased to report on the effectiveness of the internal controls and financial management
        systems for the U.S. Department of Transportation (DOT) during Fiscal Year (FY) 2013. This
        report is based on our successful implementation of the Federal Managers’ Financial Integrity
        Act of 1982 (FMFIA) and the Office of Management and Budget (OMB) Circular A-123,
        Appendix A, Management’s Responsibility for Internal Control.

        The FMFIA holds Federal managers accountable for establishing and maintaining effective
        internal controls and financial systems. All DOT organizations are subject to Sections 2 and 4 of
        FMFIA, except the Saint Lawrence Seaway Development Corporation, which reports separately
        under the Government Corporations Control Act.

        The DOT is able to provide reasonable assurance that the internal controls and financial
        management systems in effect during the period of October 1, 2012, through September 30,
        2013, met the objectives of both Sections 2 and 4 of the FMFIA, except for one material
        weaknesses related to compliance with the Federal Information Security Management Act
        (FISMA). During FY 2013, DOT conducted its assessment of internal controls and compliance
        with applicable laws and regulations in accordance with OMB Circular A-123.

        FISMA Compliance

        The Departmental Cybersecurity and Information Assurance program was identified as
        improved, but not as effective as it should be in the FY 2012 FISMA assessment performed by
        the Office of Inspector General (OIG). Compliance with FISMA was highlighted as a material
        weakness in DOT’s Statement of Assurance accompanying the FY 2012 Agency Financial
        Report. The OIG issued five recommendations, in addition to the recommendations that
        remained open from previous OIG FISMA reports.




                                                                       AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   23
MANAGEMENT’S DISCUSSION AND ANALYSIS




   FY 2013 FMFIA ASSURANCE LETTER TO THE PRESIDENT (continued)




                                                                                                                    2

               During 2013, DOT continued execution of improvements in cybersecurity, submitting evidence
               for 26 of the 27 recommendations, and successfully closing 13 recommendations. While DOT
               made progress on the Administration’s Cyber Cross Agency Priority (CAP) Goals, increasing
               required usage of PIV cards for network access from zero percent to seven percent of Agency
               personnel, increasing continuous diagnostic and monitoring to 57 percent of Agency computers,
               and increasing compliance with Trusted Internet Connection capabilities from 62 percent to 72
               percent, Information Assurance remains a material weakness.

               The DOT CIO is continuing corrective action and advancement of the Department’s program
               through its established weakness management processes, and tracking progress with its risk
               management system and via regular status updates. In addition to continued implementation of
               Administration CAP goal initiatives, DOT’s plan for further remediation in the coming year will
               address the following key areas and capabilities:

                     •    Deploying strong authentication and data protection for secure remote access;
                     •    Continuing improvements to oversight of component-level program implementations;
                     •    Increasing cybersituational awareness and improving incident response processes;
                     •    Enhancing risk assessment and management guidance and processes; and
                     •    Significant progress in closing remaining open audit recommendations.

               OMB Circular A-123 Appendix A, Management’s Responsibility for Internal Controls
               over Financial Reporting

               During FY 2013, DOT conducted an assessment of the effectiveness of internal controls over
               financial reporting, including safeguarding of assets and compliance with applicable laws and
               regulations in accordance with the requirements of OMB Circular A-123, Appendix A. During
               FY 2013, DOT assessed and tested controls over key business processes, including Cost
               Accounting; Credit Reform and Loans; Environmental Liabilities; Financial Reporting; and
               Revenue and Receivables.

               The major Appendix A activities in FY 2013 included evaluating entity level, process level, and
               testing at the transaction level of internal controls over financial reporting for the five identified
               business processes.

               Based on the results of this Appendix A review, DOT can provide reasonable assurance that its
               internal control over financial reporting was operating effectively.

               OMB A-123 Appendix B, Improving the Management of Government Charge Card
               Programs

               During FY 2013, DOT’s Travel and Purchase Card programs were reviewed by the OIG. The
               DOT has responded to the OIG’s recommendations for the Purchase Card program and will
               respond to OIG’s recommendations for the Travel Card program once the review is complete.

               The Department can provide reasonable assurance that the appropriate policies and controls are
               in place to mitigate the risk of fraud and inappropriate charge card practices.




   24        U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                         MANAGEMENT’S DISCUSSION AND ANALYSIS




FY 2013 FMFIA ASSURANCE LETTER TO THE PRESIDENT (continued)




                                                                                                                    3

          Federal Financial Management Improvement Act (FFMIA)

          The FFMIA states that each Agency shall implement and maintain financial management
          systems that comply substantially with Federal financial management systems requirements,
          applicable Federal accounting standards, and the United States Government Standard General
          Ledger at the transaction level.

          Based on the results of the Financial Statement Audit, FMFIA, and FISMA reviews, the DOT
          can provide reasonable assurance that the Department implemented and maintained financial
          management systems that substantially comply with Federal financial management systems
          requirements, standards promulgated by Federal Accounting Standards Advisory Board, and the
          United States Government Standard General Ledger at the transaction level.

          FMFIA Internal Control Program

          For FY 2013, DOT utilized its standardized and consistent FMFIA Internal Control Program
          approach for managing control and compliance activities. The DOT identified and documented
          meaningful Components and Assessable Units (AU). Inherent risk assessments were conducted
          to classify and prioritize each AU. Management Control Reviews, leveraging the five standards
          of internal controls, as prescribed by the Committee of Sponsoring Organizations of the
          Treadway Commission and the U.S. Government Accountability Office, were conducted to
          identify, assess, document, and communicate key management and programmatic internal
          controls and related risks or weaknesses.

          As a result of our FMFIA reviews in FY 2013, I conclude that the Department has made
          substantial progress in enhancing its internal controls and financial management program.
          Additional enhancements are planned and underway in FY 2014.

                                                             Sincerely,




                                                             Anthony R. Foxx




                                                                          AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   25
MANAGEMENT’S DISCUSSION AND ANALYSIS




                                                             SYSTEM, CONTROLS, AND LEGAL COMPLIANCE

                                                             FEDERAL MANAGERS’ FINANCIAL INTEGRITY ACT (FMFIA)
                                                             The FMFIA requires each agency to conduct an annual evaluation of its internal
                                                             controls and financial management systems and report the results to the President and
                                                             Congress. The agency then prepares an annual Statement of Assurance based on its
                                                             assessment of the effectiveness of its controls.

                                                             The Secretary of Transportation provided the President and Congress a Statement of
                                                             Assurance for the fiscal year ended September 30, 2013, stating the Department of
                                                             Transportation (DOT) is able to provide reasonable assurance its controls and systems
                                                             met the objectives of the FMFIA, except for one material weakness related to compli-
                                                             ance with the Federal Information Security Management Act (FISMA).

                                                             As a subset of the FMFIA Statement of Assurance, DOT is required to:

                                                             1.	 Provide a certification that the appropriate policies and controls are in place or that
                                                                 corrective actions have been taken to mitigate the risk of fraud and inappropriate
                                                                 charge card practices.

                                                             2.	 Report on the effectiveness of internal control over financial reporting, which
                                                                 includes safeguarding assets and complying with applicable laws and regulations, in
                                                                 accordance with the requirements of Appendix A of OMB Circular A-123.

                                                             A separate discussion on Appendix A is included at the end of this section.


                                                             FMFIA ANNUAL ASSURANCE PROCESS
                                                             The FMFIA review is an agency self-assessment of the adequacy of financial controls
                                                             in all areas of the Department’s operations—program, administrative, and financial
                                                             management.

                                                             Objectives of Control Mechanisms
                                                             1.	 Financial and other resources are safeguarded from unauthorized use or disposition;
                                                             2.	 Transactions are executed in accordance with authorizations;
                                                             3.	 Records and reports are reliable;
                                                             4.	 Applicable laws, regulations, and policies are observed;
                                                             5.	 Resources are efficiently and effectively managed; and
                                                             6.	 Financial systems conform to governmentwide standards.

                                                             Managers within DOT, being in the best position to understand the nature of the
                                                             problems they face, establish appropriate control mechanisms to ensure Departmental
                                                             resources are sufficiently protected from fraud, waste, and abuse, and to meet the in-
                                                             tent and requirements of the FMFIA. The head of each Operating Administration (OA)
                                                             and Departmental office submits an annual statement of assurance representing the
                                                             overall adequacy and effectiveness of management controls within the organization to
                                                             the DOT Office of Financial Management. Any identified FMFIA material weaknesses
                                                             and material nonconformances are also reported, as well as milestones established to
                                                             resolve the challenges and/or accomplishments achieved. Specific guidance for com-
                                                             pleting the self-assessment and end-of-fiscal-year assurance statement and reporting
                                                             on deficiencies is issued annually by the DOT Office of Financial Management.


   26         U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                    MANAGEMENT’S DISCUSSION AND ANALYSIS




CRITERIA FOR REPORTING MATERIAL WEAKNESSES AND
NONCONFORMANCES
A material weakness under the FMFIA must fall into one or more of the categories
below plus merit the attention of the Executive Office of the President and/or the
relevant congressional oversight committees.

Criteria for Reporting a Material Weakness
1.	 Significant weakness of the safeguards (controls) against waste, loss, unauthorized
    use, or misappropriation of funds, property, or other assets;

2.	 Violates statutory authority, or results in a conflict of interest;

3.	 Deprives the public of significant services, or seriously affects safety or the environ-
    ment;

4.	 Impairs significantly the fulfillment of the agency’s mission; and

5.	 Would result in significant adverse effects on the credibility of the agency.

A material nonconformance under the FMFIA must fall into one or more of the
categories below plus merit the attention of the Executive Office of the President or
the relevant congressional oversight committees.

Criteria for Reporting a Material Nonconformance
1.	 Prevent the primary accounting system from centrally controlling financial transac-
    tions and resource balances; and

2.	 Prevent compliance of the primary accounting system, subsidiary system, or
    program system under the Office of Management and Budget Circular A-127.


FY 2013 FMFIA MATERIAL WEAKNESSES
Status of Internal Controls (FMFIA Section 2)
DOT is reporting one material weakness in FY 2013 related to compliance with the
FISMA. The FISMA noncompliance material weakness was also reported in FY 2010,
FY 2011, and FY 2012. Senior management and DOT’s Chief Information Officer have
been collaborating and monitoring corrective actions. Although progress was made
in FY 2011, FY 2012 and FY 2013, the same conditions substantially existed during
FY 2013.


APPENDIX A, INTERNAL CONTROLS OVER FINANCIAL REPORTING
Appendix A of OMB Circular A-123 emphasizes management’s responsibility for estab­-
lishing and maintaining effective internal control over financial reporting. Appendix A
requires agencies to maintain documentation of the controls in place and of the assess­
ment process and methodology management used to support its assertion as to the
effectiveness of internal control over financial reporting. Agencies are also required to
test the controls in place as part of the overall FMFIA assessment process. The assur-
ance statement related to the assessment performed under Appendix A acts as a subset
of the Overall Statement of Assurance reported pursuant to Section 2 of the FMFIA
legislation. Management’s assurance statement, as it relates to Appendix A, is based on
the controls in place as of June 30. The assurance statement is located in the following
section of this report.


                                     AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   27
MANAGEMENT’S DISCUSSION AND ANALYSIS




                                                             DOT performed in-depth testing of the controls over five focus area business processes
                                                             for the applicable OAs, including Cost Accounting, Credit Reform and Loans, Environ­-
                                                             mental Liabilities, Financial Reporting, and Revenue and Receivables.


                                                             FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT (FFMIA)
                                                             The Secretary has determined that our financial management systems were in compli-
                                                             ance with the Federal Financial Management Improvement Act of 1996 for FY 2013.
                                                             The FFMIA requires that agencies’ financial management systems routinely provide
                                                             reliable and timely financial information for managing day-to-day operations as well
                                                             as to produce reliable financial statements, maintain effective internal control, and
                                                             comply with legal and regulatory requirements. Under FFMIA, financial management
                                                             systems must substantially comply with three requirements: Federal financial man-
                                                             agement system requirements, applicable Federal accounting standards, and the U.S.
                                                             Government Standard General Ledger (SGL) at the transaction level. In addition, CFO
                                                             Act agencies must determine annually whether their systems meet these requirements.
                                                             This determination is to be made no later than 120 days after the earlier of (a) the date
                                                             of receipt of the agency wide audited financial statement, or (b) the last day of the
                                                             fiscal year following the year covered by such statement.

                                                             Management conducted its assessment of the effectiveness of internal controls over
                                                             financial systems and compliance with applicable laws and regulations in accordance
                                                             with the Federal Managers’ Financial Integrity Act (FMFIA) of 1982 guidance, and
                                                             the requirements of OMB Circular A-123, Management’s Responsibility for Internal
                                                             Control, and Circular A-127, Financial Management Systems.


                                                             FEDERAL INFORMATION SECURITY MANAGEMENT ACT (FISMA)
                                                             The Federal Information Security Management Act requires Federal agencies to
                                                             identify and provide security protection commensurate with the risk and magnitude
                                                             of potential harm resulting from the loss, misuse of, unauthorized access to, disclosure
                                                             of, disruption to, or modification of information collected to be maintained by or on
                                                             behalf of the agency. FISMA also requires that each agency report annually on the
                                                             adequacy and effectiveness of information security policies, procedures, and practices,
                                                             and on FISMA compliance. OMB further requires that agency heads submit a signed
                                                             letter that provides a comprehensive overview of these areas. This report and signed
                                                             letter were delivered to OMB November 22, 2013. In addition, FISMA requires that
                                                             agencies have an independent evaluation performed of agency information security
                                                             programs and practices. At the Department of Transportation (DOT), this annual evalu­-
                                                             ation is performed by the Office of the Inspector General (OIG). This year’s FY 2013
                                                             annual FISMA report was finalized on November 22, 2013, as required by OMB and
                                                             the Department of Homeland Security (DHS).

                                                             DOT has 13 Operating Administrations that for FY 2013 operated a total of 437
                                                             information systems, an increase of 6 systems over the FY 2012 adjusted inventory, of
                                                             which 297 belong to the Federal Aviation Administration (FAA). The FAA’s air traffic
                                                             control system has been designated by the President as part of the critical national in-
                                                             frastructure. Other systems owned by the Department include safety-sensitive surface
                                                             transportation systems and financial systems used to manage and disburse more than
                                                             $78 billion in Federal funds each year.




   28         U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                MANAGEMENT’S DISCUSSION AND ANALYSIS




DOT’s cyber security program continues to have deficiencies in its enterprise and
systems controls. DOT specifically needs to make progress in critical areas, such
as improving specialized security training; improving oversight of configuration
management; improving detection, reporting, and remediation of security incidents;
improving oversight of cloud computing; and continuing to improve the Department’s
weakness management and remediation processes. Also required is continued progress
on remaining open recommendations.

As part of its commitment to improve the agency’s security posture, DOT made
improvements during 2013 through the issuance of new guidance on continuous
monitoring, security authorization, and risk management. DOT also made progress
on Administration cyber security priority goals, including committing to participation
in the DHS Continuous Diagnostics and Monitoring (CDM) program; increasing
continuous monitoring capabilities across 57 percent of agency assets; improving
implementation of Trusted Internet Connection capabilities from 62 to 72 percent;
and increasing required use of Personal Identification Verification cards to securely
access DOT networks from 0 to 7 percent in the span of a single quarter. DOT has
also submitted evidence for and requested closure of 26 of 27 audit recommendations.
The full FY 2013 FISMA report is available at www.oig.dot.gov.


SSAE-16 REVIEW ON DOT SYSTEMS
The Statements on Standards for Attestation Engagements (SSAE) 16 report sum-
marized the results of a review of general, application, and operational controls over
the DOT Enterprise Services Center (ESC). The ESC performs services that include
accounting, financial management, systems and implementation, media solutions, tele-
communications, and data center services for DOT and other Federal organizations.

This is the third year that an SSAE-16 audit has been conducted on DOT’s Delphi
financial system and Consolidated Automation System for Time and Labor Entry
(CASTLE) system. A Statement on Auditing Standards (SAS) 70 audit was completed
for the previous 6 years. Effective for reports dated after June 15, 2011, SAS-70 was
replaced with the new standard SSAE-16.

Delphi and CASTLE are hosted, operated, and maintained by FAA employees at the
Mike Monroney Aeronautical Center in Oklahoma City, OK, under the overall direc-
tion of the DOT Chief Financial Officer.

ESC is one of four Federal Shared Service Providers designated by OMB to provide fi-
nancial management systems and services to other government agencies. ESC supports
other Federal entities, including the National Endowment for the Arts, the Commodity
and Futures Trading Commission, the Institute of Museum and Library Services, the
National Credit Union Association, the Securities and Exchange Commission, the
Consumer Product Safety Commission, and the Government Accountability Office.
OMB requires Shared Service Providers to provide client agencies with an independent
audit report in accordance with the American Institute of Certified Public Accountants
(AICPA) SSAE-16.

This year’s SSAE-16 audit of Delphi and CASTLE was conducted by KPMG LLP.
KPMG concluded that management presented its description of ESC controls fairly in
all material respects and that the controls, as described, were suitably designed and
operating effectively for all stated control objectives.




                                 AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   29
MANAGEMENT’S DISCUSSION AND ANALYSIS




                                                             INSPECTOR GENERAL’S FY 2013 TOP MANAGEMENT
                                                             CHALLENGES

                                                             DEPARTMENT OF TRANSPORTATION OFFICE OF INSPECTOR GENERAL
                                                             APPROACH
                                                             The Office of Inspector General (OIG) issues an annual report on the Department of
                                                             Transportation’s top management challenges to provide a forward-looking assessment
                                                             for the coming fiscal year. The Reports Consolidation Act of 2000 requires the OIG
                                                             to identify and summarize the most significant management challenges facing the
                                                             Department in FY 2013.

                                                             In selecting the challenges for each year’s list, the OIG continually focuses on the
                                                             Department’s key goals to improve transportation safety, capacity, and efficiency.
                                                             In addition to the OIG’s vigilant oversight of DOT programs, budgetary issues, and
                                                             progress milestones, it also draws from several dynamic factors to identify key chal-
                                                             lenges. These challenges include new initiatives, cooperative goals with other Federal
                                                             departments, recent changes in the Nation’s transportation environment and industry,
                                                             and global issues that could have implications for the United States’ traveling public.
                                                             As such, the challenges included on the OIG’s list vary each year to reflect the most
                                                             relevant issues and provide the most useful and effective oversight to DOT agencies.

                                                             For FY 2013, the OIG identified the following nine significant challenges:

                                                             •	     Ensuring the Next Generation Air Transportation System Advances Safety and Air
                                                                    Travel

                                                             •	     Enhancing FAA’s Oversight and Use of Data To Identify and Mitigate Safety Risks

                                                             •	     Overseeing Administration of Key Transportation Assets To Ensure Their Success
                                                                    and Sustainability

                                                             •	     Strengthening Existing Surface Safety Programs and Effectively Implementing New
                                                                    Safety Requirements

                                                             •	     Maximizing Surface Infrastructure Investments With Effective Program Oversight
                                                                    and Execution of New Legislative Requirements

                                                             •	     Adequately Overseeing Administration of High-Speed Intercity Passenger Rail Grant
                                                                    Funds

                                                             •	     Strengthening Financial Management Over Grants To Better Use Funds, Create
                                                                    Jobs, and Improve Infrastructure

                                                             •	     Ensuring Effective Management of DOT’s Acquisitions To Maximize Value and
                                                                    Program Performance

                                                             •	     Managing and Securing Information Systems To Efficiently Modernize Technology
                                                                    Infrastructure and Protect Sensitive Data From Compromise

                                                             The management challenges will be further discussed in the DOT Annual Performance
                                                             Report to be issued in February 2014 and to be located on DOT’s Web site.

                                                             http://www.dot.gov/budget

                                                             The significant challenges identified by the OIG for FY 2014 will be discussed in the
                                                             Other Information of this report.


   30         U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
               MANAGEMENT’S DISCUSSION AND ANALYSIS




AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   31
32   U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
FINANCIAL REPORT

        MESSAGE FROM THE CHIEF FINANCIAL OFFICER &
        ASSISTANT SECRETARY FOR BUDGET AND PROGRAMS


        I am pleased to issue the Department of Transportation’s
        (DOT) Fiscal Year 2013 Agency Financial Report (AFR). In
        addition to this information, DOT is preparing our Annual
        Performance Report, which will be published in 2014. For
        the accompanying AFR, we highlight our efforts during 2013
        in several financial management areas. We had a positive
        year, with progress modernizing our financial systems, a suc-
        cessful financial audit, and continuing success in promoting
        efficient spending.
                                                                                SYLVIA I. GARCIA
        ANNUAL FINANCIAL AUDIT
        During 2013, we continued our emphasis on improved financial management, which con-
        tributed substantially to another unmodified audit opinion – DOT’s twelfth in the last thirteen
        years. During 2013, DOT received over $13 billion in supplemental appropriations to assist in
        Hurricane Sandy relief efforts. DOT conformed with the guidance set forth for rapid deploy-
        ment of these funds, while maintaining appropriate internal controls over this spending.

        A material weakness from the Department’s 2012 audit associated with the oversight and
        proper recording of Undelivered Orders (UDOs) was downgraded in 2013. UDOs are budget
        obligations that have not yet been fully liquidated by making a payment. Since the initial
        finding of UDOs as an issue, DOT has made significant progress in remediating this condition.

        Our annual financial audit in 2013 provided a useful independent review of our system of
        controls. This process annually highlights some issues that need improvement and also keeps
        the Department disciplined in maintaining adequate internal controls over accounting and
        recording processes. Consideration of these annual audit results remains an important compo-
        nent of our efforts to strengthen our safeguards and stewardship of taxpayer dollars.


        FINANCIAL SYSTEMS MODERNIZATION
        In 2013, the Department, the Enterprise Services Center, and DOT’s Operating Administra-
        tions continued critical work needed to modernize our core accounting system. DOT is in the
        final stages of upgrading the current version of the accounting system to Oracle Federal Finan-
        cials Release 12. There are several benefits of Release 12, to include premium product support,
        avoidance of IT risk exposure, improved reconciliations, and the automation of prior year
        recoveries. During 2013, DOT completed retrofitting all its customized business processes and
        reports in the Release 12 format. We also completed three out of four system integration tests
        and anticipate deployment of Release 12 during 2014.



                                                 AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   33
FINANCIAL REPORT




                                          Further, as part of our system modernization efforts, the core accounting system was prepared
                                          to accept a significant change in the way we report trial balances. The Governmentwide Treasury
                                          Account Symbol Adjusted Trial Balance System (GTAS) replaces the functionality of several prior
                                          Treasury systems as the primary means of reporting agency trial balance data. A single data collec-
                                          tion system will pave the way for more consistent and complete financial data and will allow for
                                          better analytical reporting. Our work in 2013 provided the needed basis to accommodate GTAS as
                                          we move to Release 12.


                                          DO NOT PAY INITIATIVE
                                          During 2013, we continued to make progress in implementing our plan for using the Department
                                          of Treasury’s centralized source for validating Federal award eligibility—Do Not Pay—which
                                          complies with the Improper Payments Elimination and Recovery Improvement Act (IPERIA). By
                                          utilizing Treasury’s Do Not Pay solution, we are able to review databases such as the Social Security
                                          Administration’s (SSA) Death Master File (DMF) and the System for Award Management/Excluded
                                          Parties List System (SAM/EPLS). These reviews prevent improper payments by verifying recipient
                                          eligibility before releasing Federal funds.

                                          We have worked diligently with the Treasury to format and test sample batch files that compare
                                          scheduled payments to Do Not Pay sources of data that are flagged for potential improper pay-
                                          ments. In 2013, we initiated a review process for scheduled payments, as well as payments made
                                          by Treasury’s Fiscal Service, to ensure that none of these disbursements have been improperly paid
                                          to excluded parties or deceased individuals. The initial phases of implementing these new protocols
                                          have been successful.


                                          PROMOTING EFFICIENT SPENDING
                                          In 2013, DOT took a number of aggressive measures to strengthen the oversight and internal con-
                                          trols over federal spending on conferences, workshops, and related gatherings. By the time OMB
                                          issued Memorandum M-12-12, “Promoting Efficient Spending to Support Agency Operations,”
                                          DOT was well-positioned to implement the new requirements relating to conference spending.
                                          DOT proactively issued a policy requiring all Operating Administrations to establish internal
                                          controls procedures for using federal funds on conferences. The Policy also required monthly
                                          reporting of conference activity and the approval of all events by the Agency Administrator. All
                                          conferences exceeding $100,000 were further scrutinized and approved by the Deputy Secretary
                                          (as required by OMB Memorandum M-12-12). During 2013, these measures have ensured that top
                                          DOT executives are directly involved in the oversight of conference spending.

                                          This past year included improvements and progress on many fronts in the financial management
                                          area. Looking ahead for 2014, we will continue to manage a sound internal controls program for
                                          the Department that focuses on proactively identifying risks and improving our system of internal
                                          controls to meet these challenges. In the coming year, we expect additional progress in moderniz-
                                          ing our financial systems. We will build on our achievements and manage a strong program that
                                          supports the Department’s critical investments.




                                          								Sylvia I. Garcia




   34        U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
(pages 35-51 intentionally left blank,
     see document pages 1-18)
FINANCIAL REPORT




   PRINCIPAL STATEMENTS


   CONSOLIDATED BALANCE SHEETS                                                                                                   As of September 30

    Dollars in Thousands                                                                                             2013                       2012


    Assets
    Intragovernmental
        Fund Balance With Treasury (Note 2)                                                                  $40,581,338                $33,356,274
        Investments, Net (Note 3)                                                                             15,820,956                 22,330,652
        Accounts Receivable (Note 4)                                                                             118,389                     116,550
        Other (Note 5)                                                                                           121,002                     164,634
    Total Intragovernmental                                                                                   56,641,685                 55,968,110
    Cash                                                                                                                —                           8
    Accounts Receivable, Net (Note 4)                                                                            147,887                     154,907
    Direct Loan and Loan Guarantees, Net (Note 6)                                                              6,877,433                  5,022,807
    Inventory and Related Property, Net (Note 7)                                                                 879,595                     857,891
    General Property, Plant and Equipment, Net (Note 8)                                                       14,002,887                 14,030,366
    Other (Note 5)                                                                                                 21,644                     74,706
    Total Assets                                                                                             $78,571,131                $76,108,795


    Stewardship property, plant and equipment (Note 9)


    Liabilities (Note 10)
    Intragovernmental
        Accounts Payable                                                                                         $12,622                      $9,823
        Debt (Note 11)                                                                                         6,958,855                  5,193,598
        Other (Note 14)                                                                                        2,017,413                  2,287,336
    Total Intragovernmental                                                                                    8,988,890                  7,490,757
    Accounts Payable                                                                                             533,673                     634,174
    Loan Guarantee Liability (Note 6)                                                                            176,134                     192,829
    Federal Employee Benefits Payable                                                                          1,048,503                  1,019,076
    Environmental and Disposal Liabilities (Note 12)                                                             919,195                  1,010,818
    Grant Accrual (Note 13)                                                                                    6,593,732                  6,315,689
    Other (Note 14)                                                                                            1,385,891                  1,372,782
    Total Liabilities                                                                                        $19,646,018                $18,036,125


    Commitments and contingencies (Note 16)


    Net position
    Unexpended Appropriations—Funds From Dedicated Collections (Note 17)                                        $951,055                 $1,108,929
    Unexpended Appropriations—Other Funds                                                                     29,852,703                 21,652,656
    Cumulative Results of Operations—Funds From Dedicated Collections (Note 17)                               17,544,519                 25,768,480
    Cumulative Results of Operations—Other Funds                                                              10,576,836                  9,542,605
    Total Net Position—Funds From Dedicated Collections                                                       18,495,574                 26,877,409
    Total Net Position—Other Funds                                                                            40,429,539                 31,195,261
    Total Net Position                                                                                        58,925,113                 58,072,670
    Total Liabilities and Net Position                                                                       $78,571,131                $76,108,795



                                                                              The accompanying notes are an integral part of these financial statements

   52              U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                          FINANCIAL REPORT




PRINCIPAL STATEMENTS (continued)


CONSOLIDATED STATEMENT OF NET COST                                                                 For the periods ended September 30

 Dollars in Thousands                                                                      2013                                          2012
Program costs (Note 18)


Surface Transportation
Gross Costs                                                                       $60,688,695                                  $60,988,807
Less: Earned Revenue                                                                   906,316                                    1,226,109
Net Program Costs                                                                  59,782,379                                   59,762,698


Air Transportation
Gross Costs                                                                        16,745,291                                   16,632,500
Less: Earned Revenue                                                                   660,724                                         628,167
Net Program Costs                                                                  16,084,567                                   16,004,333


Maritime Transportation
Gross Costs                                                                            726,195                                         886,118
Less: Earned Revenue                                                                   388,504                                         392,599
Net Program Costs                                                                      337,691                                         493,519


Cross-Cutting Programs
Gross Costs                                                                            656,020                                         647,327
Less: Earned Revenue                                                                   262,769                                         255,869
Net Program Costs                                                                      393,251                                         391,458

Costs Not Assigned to Programs                                                         436,796                                         396,058
Less: Earned Revenues Not Attributed to Programs                                            354                                         11,513
Net Cost of Operations                                                            $77,034,330                                  $77,036,553




The accompanying notes are an integral part of these financial statements

                                                                            AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3        53
FINANCIAL REPORT




   PRINCIPAL STATEMENTS (continued)


   CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION	                                                                       For the periods ended September 30

                                                                                                        2013                                                 2012

                                                               Dedicated           All Other                       Dedicated           All Other
    Dollars in Thousands                                      Collections             Funds             Total     Collections             Funds              Total


   Cumulative Results of Operations
   Beginning Balance                                         $25,768,480          $9,542,605    $35,311,085       $30,832,675        $9,748,256      $40,580,931


   Budgetary Financing Sources
     Appropriations Used                                         4,447,910        15,189,102     19,637,012         4,565,650        10,945,160       15,510,810
     Non-Exchange Revenue (Note 19)                            49,587,166            111,738     49,698,904        52,969,165            87,411       53,056,576
     Donations/Forfeitures of Cash/Cash                                  617              —              617             1,224                —             1,224
      Equivalents
     Transfers-in/(out) Without Reimbursement                    5,883,105        (5,884,367)         (1,262)       2,451,721              5,395        2,457,116
     Other                                                                   —           (98)            (98)                —            (2,160)          (2,160)


   Other Financing Sources (Non-Exchange)
     Donations and Forfeitures of Property                                   —        78,599          78,599                 —          158,117           158,117
     Transfers-in/(out) Without Reimbursement                  (2,297,274)         2,404,446         107,172         (924,602)        1,020,788            96,186
     Imputed Financing                                             545,973           147,585         693,558          528,664           113,118           641,782
     Other                                                             9,718        (379,620)      (369,902)            (6,684)        (146,260)        (152,944)
   Total Financing Sources                                     58,177,215         11,667,385     69,844,600        59,585,138        12,181,569       71,766,707
   Net Cost of Operations                                      66,401,176         10,633,154     77,034,330        64,649,333        12,387,220       77,036,553
   Net Change                                                  (8,223,961)         1,034,231     (7,189,730)       (5,064,195)         (205,651)      (5,269,846)
   Cumulative Results of Operations                            17,544,519         10,576,836     28,121,355        25,768,480         9,542,605       35,311,085


   Unexpended Appropriations
   Beginning Balance                                             1,108,929        21,652,656     22,761,585         1,127,600        25,654,071       26,781,671


   Budgetary Financing Sources
     Appropriations Received (Note 1U)                           4,592,701        24,670,226     29,262,927         4,592,701         7,017,825       11,610,526
     Appropriations Transferred-in/(out)                               7,500           2,990          10,490            14,819             5,070           19,889
     Other Adjustments                                            (310,165)       (1,284,067)    (1,594,232)           (60,541)         (79,150)        (139,691)
     Appropriations Used                                       (4,447,910)       (15,189,102)   (19,637,012)       (4,565,650)     (10,945,160)      (15,510,810)
     Total Budgetary Financing Sources                            (157,874)        8,200,047       8,042,173           (18,671)      (4,001,415)      (4,020,086)
   Total Unexpended Appropriations                                 951,055        29,852,703     30,803,758         1,108,929        21,652,656       22,761,585
   Net Position                                              $18,495,574         $40,429,539    $58,925,113       $26,877,409      $31,195,261       $58,072,670




                                                                                           The accompanying notes are an integral part of these financial statements

   54             U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                                       FINANCIAL REPORT




PRINCIPAL STATEMENTS (continued)


COMBINED STATEMENTS OF BUDGETARY RESOURCES                                                                      For the periods ended September 30

                                                                                                     2013                                             2012

                                                                                         Non-Budgetary                                 Non-Budgetary
                                                                                          Credit Reform                                 Credit Reform
                                                                                              Financing                                     Financing
 Dollars in Thousands                                                       Budgetary         Accounts                Budgetary             Accounts


Budgetary Resources (Note 20)
Unobligated Balance, Brought Forward, October 1                         $47,267,503            $285,030             $50,244,231                 $242,978
Recoveries of Prior Year Unpaid Obligations                                  1,038,978              6,960              1,199,749                        17
Other Changes in Unobligated Balance                                         (142,166)                  —               (156,094)                        —
Unobligated Balance From Prior Year Budget Authority,                       48,164,315           291,990             51,287,886                     242,995
 Net
Appropriations (Note 1U)                                                    35,632,671                  —            19,743,813                          —
Borrowing Authority                                                            46,532          2,249,068                        —              1,734,768
Contract Authority                                                          53,366,583                  —            53,108,963                          —
Spending Authority From Offsetting Collections                               7,488,163           339,422               7,754,699                    234,155
Total Budgetary Resources                                             $144,698,264           $2,880,480           $131,895,361               $2,211,918


Status of Budgetary Resources
Obligations Incurred                                                    $88,247,584          $2,617,480             $84,627,858              $1,926,888
Unobligated Balance, End of Year
  Apportioned                                                               38,053,122            24,576             29,066,936                     105,393
  Exempt From Apportionment                                                   327,758                   —                352,571                         —
  Unapportioned                                                             18,069,800           238,424             17,847,996                     179,637
Unobligated Balance, End of Year                                            56,450,680           263,000             47,267,503                     285,030
Total Budgetary Resources                                             $144,698,264           $2,880,480           $131,895,361               $2,211,918




The accompanying notes are an integral part of these financial statements

                                                                                         AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3        55
FINANCIAL REPORT




   PRINCIPAL STATEMENTS (continued)



   COMBINED STATEMENTS OF BUDGETARY RESOURCES (continued) 	                                                         For the periods ended September 30

                                                                                                          2013                                        2012

                                                                                              Non-Budgetary                               Non-Budgetary
                                                                                               Credit Reform                               Credit Reform
                                                                                                   Financing                                   Financing
    Dollars in Thousands                                                       Budgetary           Accounts              Budgetary             Accounts


   Change in Obligated Balances
   Unpaid Obligations
     Unpaid Obligations, Brought Forward, October 1 (Gross)                  $111,942,788           $4,421,232         $114,089,855            $3,815,207
     Obligations Incurred                                                      88,247,584            2,617,480           84,627,858             1,926,888
     Outlays (Gross)                                                          (89,878,926)          (2,302,627)         (85,585,176)           (1,320,846)
     Actual Transfers, Unpaid Obligations                                           9,491                    —                10,000                     —
     Recoveries of Prior Year Unpaid Obligations                               (1,038,978)              (6,960)          (1,199,749)                   (17)
     Unpaid Obligations, End of Year (Gross)                                  109,281,959            4,729,125          111,942,788             4,421,232
   Uncollected Payments
     Uncollected Payments, Federal Sources, Brought Forward,                   (1,249,122)            (222,706)          (1,192,857)             (238,553)
      October 1
     Change in Uncollected Payments, Federal Sources                             (135,939)             (83,392)              (56,265)               15,847
     Uncollected Payments, Federal Sources, End of Year                        (1,385,061)            (306,098)          (1,249,122)             (222,706)


   Obligated Balance, Start of Year (Net)                                     110,693,666            4,198,526          112,896,998             3,576,654
   Obligated Balance, End of Year (Net)                                      $107,896,898           $4,423,027         $110,693,666            $4,198,526


   Budget Authority and Outlays, Net
   Budget Authority, Gross                                                    $96,533,949           $2,588,490          $80,607,475            $1,968,923
   Actual Offsetting Collections                                               (7,377,632)            (460,425)          (7,726,408)             (466,819)
   Change in Uncollected Customer Payments From Federal
    Sources                                                                      (135,939)             (83,392)              (56,265)               15,847
   Budget Authority, Net                                                      $89,020,378           $2,044,673          $72,824,802            $1,517,951


   Outlays, Gross                                                             $89,878,926           $2,302,627          $85,585,176            $1,320,846
   Actual Offsetting Collections                                               (7,377,632)            (460,425)          (7,726,408)             (466,819)
   Outlays, Net                                                                82,501,294            1,842,202           77,858,768               854,027
   Distributed Offsetting Receipts                                             (6,220,753)                   —           (2,738,974)                     —
   Agency Outlays, Net                                                        $76,280,541           $1,842,202          $75,119,794              $854,027




                                                                                    The accompanying notes are an integral part of these financial statements

   56             U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                           FINANCIAL REPORT




NOTES TO THE PRINCIPAL STATEMENTS
NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES


                          A. REPORTING ENTITY
                          The United States (U.S.) Department of Transportation (DOT or Department) serves
                          as the strategic focal point in the Federal Government’s national transportation plan.
                          It partners with cities and States to meet local and national transportation needs by
                          providing financial and technical assistance, ensuring the safety of all transportation
                          modes; protecting the interests of the American traveling public; promoting interna-
                          tional transportation treaties; and conducting planning and research for the future.

                          The Department is comprised of the Office of the Secretary and the DOT Operating
                          Administrations, each having its own management team and organizational structure.
                          Collectively, they provide services and oversight to ensure the best possible transpor-
                          tation system serves the American public. The Department’s consolidated financial
                          statements present the financial data for various trust funds, revolving funds, appro-
                          priations and special funds of the following organizations (referred to as Operating
                          Administrations):

                             •	 Office of The Secretary (OST) [includes OST Working Capital Fund]
                             •	 Federal Aviation Administration (FAA)
                             •	 Federal Highway Administration (FHWA)
                             •	 Federal Motor Carrier Safety Administration (FMCSA)
                             •	 Federal Railroad Administration (FRA)
                             •	 Federal Transit Administration (FTA)
                             •	 Maritime Administration (MARAD)
                             •	 National Highway Traffic Safety Administration (NHTSA)
                             •	 Office of Inspector General (OIG)
                             •	 Pipeline and Hazardous Materials Safety Administration (PHMSA)
                             •	 Research and Innovative Technology Administration (RITA) [includes Volpe
                                National Transportation System Center]
                             •	 Surface Transportation Board (STB)

                          The U.S. Saint Lawrence Seaway Development Corporation (SLSDC) is a wholly-owned
                          government corporation and an Operating Administration of the Department. However,
                          SLSDC’s financial data is not included in the DOT consolidated financial statements
                          as it is subject to separate reporting requirements under the Government Corporation
                          Control Act and the dollar value of its activities is not material to that of the Department
                          taken as a whole. Condensed information about SLSDC’s financial position is presented
                          in the Other Information section.


                          B. BASIS OF PRESENTATION
                          The consolidated financial statements have been prepared to report the Department’s
                          financial position and results of operations as required by the Chief Financial Officers
                          Act of 1990 (CFO Act) and Title IV of the Government Management Reform Act of
                          1994 (GMRA). The statements have been prepared from the DOT books and records
                          in accordance with Office of Management and Budget (OMB) form and content require­-
                          ments for entity financial statements and DOT’s accounting policies and procedures.


                                                             AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   57
FINANCIAL REPORT




   NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (continued)


                                                            Material intra-departmental transactions and balances have been eliminated from the
                                                            principal statements for presentation on a consolidated basis, except for the Statement
                                                            of Budgetary Resources, which is presented on a combined basis in accordance with
                                                            OMB Circular A-136, Financial Reporting Requirements, as revised, and as such, intra-
                                                            entity transactions have not been eliminated. Unless otherwise noted, all dollar amounts
                                                            are presented in thousands.
                                                            The Consolidated Balance Sheets present agency assets, liabilities and net position
                                                            (which equals total assets minus total liabilities) as of the reporting dates. Agency assets
                                                            substantially consist of entity assets (those which are available for use by the agency).
                                                            Non-entity assets (those which are managed by the agency, but not available for use in
                                                            its operations) are immaterial to the consolidated statements taken as a whole. Agency
                                                            liabilities include both those covered by budgetary resources (funded) and those not
                                                            covered by budgetary resources (unfunded).
                                                            The Consolidated Statements of Net Cost present the gross costs of programs less
                                                            earned revenue, to arrive at the net cost of operations for both the programs and the
                                                            agency as a whole for the reporting periods.
                                                            The Consolidated Statements of Changes in Net Position report beginning balances,
                                                            budgetary and other financing sources, and net cost of operations, to arrive at ending
                                                            balances.
                                                            The Combined Statements of Budgetary Resources provide information about how
                                                            budgetary resources were made available, as well as their status at the end of the reporting
                                                            periods. Recognition and measurement of budgetary information reported on these
                                                            statements is based on budget terminology, definitions, and guidance presented in OMB
                                                            Circular A-11, Preparation, Submission, and Execution of the Budget, dated July 2013.
                                                            A Statement of Custodial Activity is not presented since DOT custodial activity is inci­
                                                            dental to Departmental operations and is not considered material to the consolidated
                                                            financial statements taken as a whole.
                                                            On the Consolidated Balance Sheets and certain notes to the financial statements, trans­-
                                                            action balances are classified as either being intragovernmental or with the public.
                                                            Intragovernmental transactions and balances result from exchange transactions made
                                                            between DOT and other Federal Government entities while those classified as “with
                                                            the public” result from exchange transactions between DOT and non-Federal entities.
                                                            For example, if DOT purchases goods or services from the public and sells them to
                                                            another Federal entity, the costs would be classified as “with the public,” but the related
                                                            revenues would be classified as “intragovernmental.” This could occur, for example,
                                                            when DOT provides goods or services to another Federal Government entity on a
                                                            reimbursable basis. The purpose of this classification is to enable the Federal Gov­
                                                            ernment to prepare consolidated financial statements, and not to match public and
                                                            intragovernmental revenue with costs that are incurred to produce public and intra­
                                                            governmental revenue.
                                                            DOT accounts for dedicated collections separately from other funds. Funds from
                                                            dedicated collections are financed by specifically identified revenues, provided to the
                                                            government by non-Federal sources, often supplemented by other financing sources
                                                            which remain available over time. Funds from dedicated collections are required by
                                                            statute to be used for designated activities, benefits or purposes.

   58        U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                 FINANCIAL REPORT




NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (continued)


                                C. BUDGETS AND BUDGETARY ACCOUNTING
                                DOT follows standard Federal budgetary accounting policies and practices in accor­
                                dance with OMB Circular A-11, Preparation, Submission, and Execution of the Budget,
                                dated July 2013. Budgetary accounting facilitates compliance with legal constraints
                                and controls over the use of Federal funds. Each year, the U.S. Congress (Congress)
                                provides budget authority, primarily in the form of appropriations, to the DOT Operat­-
                                ing Administrations to incur obligations in support of agency programs. For fiscal year
                                FY 2013 and FY 2012, the Department was accountable for trust fund appropriations,
                                general fund appropriations, revolving fund activity, borrowing authority, and contract
                                authority. DOT recognizes budgetary resources as assets when cash (funds held by the
                                U.S. Treasury) is made available through warrants and trust fund transfers.

                                Programs are financed from authorizations enacted in authorizing legislation and
                                codified in Title 23 of the United States Code (U.S.C.). DOT receives its budget
                                authority in the form of direct appropriations, borrowing authority, contract authority,
                                and spending authority from offsetting collections. Contract authority permits programs
                                to incur obligations in advance of an appropriation, offsetting collections or receipts.
                                Subsequently, Congress provides an appropriation for the liquidation of the contract
                                authority to allow payments to be made for the obligations incurred. Funds apportioned
                                by statute under Titles 23 and 49 of the U.S.C., Subtitle III by the Secretary of Trans-
                                portation for activities in advance of the liquidation of appropriations are available for
                                a specific time period.

                                D. BASIS OF ACCOUNTING
                                The Department is required to be in substantial compliance with all applicable account­-
                                ing principles and standards developed and issued by the Federal Accounting Standards
                                Advisory Board (FASAB), which is recognized by the American Institute of Certified
                                Public Accountants (AICPA) as the entity to establish generally accepted accounting
                                principles (GAAP) for the Federal Government. The Federal Financial Management
                                Improvement Act (FFMIA) of 1996 requires the Department to comply substantially
                                with (1) Federal financial management systems requirements, (2) applicable Federal
                                accounting standards, and (3) the U.S. Government Standard General Ledger require-
                                ments at the transaction level.

                                Transactions are recorded on an accrual and a budgetary accounting basis. Under the
                                accrual method, revenues are recognized when earned, and expenses are recognized
                                when a liability is incurred without regard to receipt or payment of cash. Budgetary
                                accounting facilitates compliance with legal constraints and controls over the use of
                                Federal funds.

                                E. FUNDS WITH THE U.S. TREASURY AND CASH
                                DOT does not generally maintain cash in commercial bank accounts. Cash receipts
                                and disbursements are processed by the U.S. Treasury. The funds with the U.S. Treas­
                                ury are appropriated, revolving, and trust funds that are available to pay liabilities and
                                finance authorized purchases. Lockboxes have been established with financial institu-
                                tions to collect certain payments, and these funds are transferred directly to the U.S.
                                Treasury on a daily (business day) basis. DOT does not maintain any balances of
                                foreign currencies.

                                                                   AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   59
FINANCIAL REPORT




   NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (continued)


                                                            F. INVESTMENTS IN U.S. GOVERNMENT SECURITIES
                                                            Investments, consisting of U.S. Government Securities, are reported at cost, adjusted
                                                            for amortized cost net of premiums or discounts and are classified as held to maturity.
                                                            Premiums or discounts are amortized into interest income over the term of the invest-
                                                            ment using the interest method. The Department has the intent and the ability to hold
                                                            investments to maturity. Investments, redemptions, and reinvestments are controlled
                                                            and processed by the U.S. Treasury. The market value is calculated by multiplying the
                                                            total number of shares by the market price on the last day of the fiscal year.

                                                            G. RECEIVABLES
                                                            Accounts Receivable
                                                            Accounts receivable consist of amounts owed to the Department by other Federal
                                                            agencies and the public. Federal accounts receivable are generally the result of the
                                                            provision of goods and services to other Federal agencies and, with the exception of
                                                            occasional billing disputes, are considered to be fully collectible. Public accounts re­-
                                                            ceivable are generally the result of the provision of goods and services or the levy of
                                                            fines and penalties from the Department’s regulatory activities. Amounts due from the
                                                            public are presented, net of an allowance for loss on uncollectible accounts, which is
                                                            based on historical collection experience and/or an analysis of the individual receivables.

                                                            Loans Receivable
                                                            Loans are accounted for as receivables after funds have been disbursed. For loans
                                                            obligated prior to October 1, 1991, loan principal, interest, and penalties receivable
                                                            are reduced by an allowance for estimated uncollectible amounts. The allowance is
                                                            estimated based on past experience, present market conditions, and an analysis of
                                                            outstanding balances. Loans obligated after September 30, 1991, are reduced by an
                                                            allowance equal to the present value of the subsidy costs (resulting from the interest
                                                            rate differential between the loans and U.S. Treasury borrowing, the estimated delin­
                                                            quencies and defaults net of recoveries, the offset from fees, and other estimated cash
                                                            flows) associated with these loans.

                                                            H. INVENTORY AND RELATED OPERATING MATERIALS AND SUPPLIES
                                                            Inventory primarily consists of supplies that are for sale or used in the production of
                                                            goods for sale. Operating materials and supplies primarily consist of unissued supplies
                                                            that will be consumed in future operations. Valuation methods for supplies on hand at
                                                            year-end include historical cost, last acquisition price, standard price/specific identifi­-
                                                            cation, standard repair cost, weighted average, and moving weighted average. Expend­
                                                            itures or expenses are recorded when the materials and supplies are consumed or sold.
                                                            Adjustments for the proper valuation of reparable, excess, obsolete, and unserviceable
                                                            items are made to appropriate allowance accounts.

                                                            I. PROPERTY AND EQUIPMENT
                                                            DOT operating administrations have varying methods of determining the value of
                                                            general purpose property and equipment and how it is depreciated. DOT currently
                                                            has a capitalization threshold of $200 thousand for structures and facilities and for
                                                            internal use software, and $25 thousand for other property, plant and equipment.


   60        U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                         FINANCIAL REPORT




NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (continued)


                                Capitalization at lesser amounts is permitted. Construction in progress is valued at
                                direct (actual) costs plus applied overhead and other indirect costs as accumulated
                                by the regional project material system. The system accumulates costs by project
                                number assigned to the equipment or facility being constructed. The straight line
                                method is generally used to depreciate capitalized assets.

                                DOT’s heritage assets, consisting of Union Station in Washington, DC, the Nuclear
                                Ship Savannah, and collections of maritime artifacts, are considered priceless and are
                                not capitalized in the Consolidated Balance Sheet (See Note 9).


                                J. ADVANCES AND PREPAYMENTS
                                Payments in advance of the receipt of goods and services are recorded as prepaid charges
                                at the time of prepayment and recognized as expenses or capitalized, as appropriate,
                                when the related goods and services are received.


                                K. LIABILITIES
                                Liabilities represent amounts expected to be paid as the result of a transaction or event
                                that has already occurred. Liabilities covered by budgetary resources are liabilities
                                incurred, which are covered by realized budgetary resources as of the balance sheet
                                date. Available budgetary resources include new budget authority, spending authority
                                from offsetting collections, recoveries of unexpired budget authority through downward
                                adjustments of prior year obligations, unobligated balances of budgetary resources at
                                the beginning of the year or net transfers of prior year balances during the year, and
                                permanent indefinite appropriations or borrowing authority. Unfunded liabilities are
                                not considered to be covered by such budgetary resources. An example of an unfunded
                                liability is actuarial liabilities for future Federal Employees’ Compensation Act payments.
                                The Government, acting in its sovereign capacity, can abrogate liabilities arising from
                                other than contracts.


                                L. CONTINGENCIES
                                The criteria for recognizing contingencies for claims are (1) a past event or exchange
                                transaction has occurred as of the date of the statements; (2) a future outflow or other
                                sacrifice of resources is probable; and (3) the future outflow or sacrifice of resources
                                is measurable (reasonably estimable). DOT recognizes material contingent liabilities
                                in the form of claims, legal actions, administrative proceedings and environmental
                                suits that have been brought to the attention of legal counsel, some of which will be
                                paid from the Judgment Fund administered by the U.S. Department of the Treasury
                                (Treasury).


                                M. ANNUAL, SICK, AND OTHER LEAVE
                                Annual leave is accrued as it is earned, and the accrual is reduced as leave is taken.
                                The balance in the accrued annual leave account is adjusted to reflect the latest pay
                                rates and unused hours of leave. Liabilities associated with other types of vested
                                leave, including compensatory, credit hours, restored leave, and sick leave in certain
                                circumstances, are accrued based on latest pay rates and unused hours of leave. Sick



                                                                                                                         61
FINANCIAL REPORT




   NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (continued)


                                                            leave is generally nonvested, except for sick leave balances at retirement under the
                                                            terms of certain union agreements, including the National Air Traffic Controllers
                                                            Association (NATCA) agreement, Article 25, Section 13. Funding will be obtained
                                                            from future financing sources to the extent that current or prior year appropriations
                                                            are not available to fund annual and other types of vested leave earned and not taken.
                                                            Nonvested leave is expensed when used.


                                                            N. RETIREMENT PLAN
                                                            For DOT employees who participate in the Civil Service Retirement System (CSRS),
                                                            DOT contributes a matching contribution equal to 7 percent of pay. On January 1, 1987,
                                                            Federal Employee Retirement System (FERS) went into effect pursuant to Public Law
                                                            (P.L.) 99-335. Most employees hired after December 31, 1983, are automatically
                                                            covered by FERS and Social Security. Employees hired prior to January 1, 1984, could
                                                            elect to either join FERS and Social Security or remain in CSRS. A primary feature of
                                                            FERS is that it offers a savings plan to which DOT automatically contributes 1 percent
                                                            of pay and matches any employee contribution up to an additional 4 percent of pay.
                                                            For most employees hired since December 31, 1983, DOT also contributes the em­-
                                                            ployer’s matching share for Social Security.

                                                            Employing agencies are required to recognize pensions and other post retirement
                                                            benefits during the employees’ active years of service. Reporting the assets and liabili­-
                                                            ties associated with such benefit plans is the responsibility of the administering agency,
                                                            the U.S. Office of Personnel Management (OPM). Therefore, DOT does not report
                                                            CSRS or FERS assets, accumulated plan benefits, or unfunded liabilities, if any,
                                                            applicable to employees.


                                                            O. FEDERAL EMPLOYEES HEALTH BENEFIT (FEHB) PROGRAM
                                                            Most Department employees are enrolled in the FEHB Program, which provides cur­-
                                                            rent and post-retirement health benefits. OPM administers these programs and is
                                                            responsible for reporting the related liabilities. OPM contributes the ‘employer’ share
                                                            for retirees via an appropriation and the retirees contribute their portion of the benefit
                                                            directly to OPM. OPM calculates the U.S. Government’s service cost for covered em­-
                                                            ployees each fiscal year. The Department has recognized the employer cost of these
                                                            post-retirement benefits for covered employees as an imputed cost.


                                                            P. FEDERAL EMPLOYEES GROUP LIFE INSURANCE (FEGLI) PROGRAM
                                                            Most Department employees are entitled to participate in the FEGLI Program. Partici­-
                                                            pating employees can obtain basic term life insurance where the employee pays two-
                                                            thirds of the cost and the Department pays one-third of the cost. OPM administers
                                                            this program and is responsible for reporting the related liabilities. OPM calculates
                                                            the U.S. Government’s service cost for the post-retirement portion of the basic life
                                                            coverage each fiscal year. Because OPM fully allocates the Department’s contributions
                                                            for basic life coverage to the pre-retirement portion of coverage, the Department has
                                                            recognized the entire service cost of the post-retirement portion of basic life coverage
                                                            as an imputed cost.




   62        U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                         FINANCIAL REPORT




NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (continued)


                                Q. FEDERAL EMPLOYEE COMPENSATION ACT (FECA) BENEFITS
                                A liability is recorded for actual and estimated future payments to be made for workers’
                                compensation pursuant to the FECA. The actual costs incurred are reflected as a
                                liability because DOT will reimburse the U.S. Department of Labor (DOL) two years
                                after the actual payment of expenses. Future revenues will be used to reimburse
                                DOL. The liability consists of (1) the net present value of estimated future payments
                                calculated by the DOL, and (2) the unreimbursed cost paid by DOL for compensation
                                to recipients under FECA.


                                R. ENVIRONMENTAL AND DISPOSAL LIABILITIES
                                DOT recognizes two types of environmental liabilities: unfunded environmental re­-
                                mediation liability and unfunded asset disposal liability. The liability for environmental
                                remediation is an estimate of costs necessary to bring a known contaminated site
                                into compliance with applicable environmental standards. The asset disposal liability
                                includes both the cost to remove and dismantle an asset when that asset is no longer
                                in service and the estimated cost that will be incurred to remove, contain, and/or
                                dispose of hazardous materials. DOT estimates the environmental remediation and
                                asset disposal costs at the time a DOT-owned asset is placed in service.

                                Estimating the Department’s environmental remediation liability requires making
                                assumptions about future activities and is inherently uncertain. Costs for estimates of
                                environmental and disposal liabilities are not adjusted for inflation and are subject to
                                revision as a result of changes in technology and environmental laws and regulations.


                                S. USE OF ESTIMATES
                                The preparation of the consolidated financial statements in conformity with GAAP
                                requires management to make certain estimates and assumptions that affect the re­-
                                ported amount of assets, liabilities and contingent liability disclosures as of the date
                                of the financial statements and the reported amounts of revenue and expenses during
                                the reporting period. Actual results may differ from these estimates.

                                Significant estimates underlying the accompanying financial statements include the
                                allocation of trust fund receipts by Treasury’s Office of Tax Analysis (OTA), accruals
                                of accounts and grants payable (including American Recovery and Reinvestment Act
                                funds), accrued workers’ compensation, and accrued legal, contingent, environmental
                                and disposal liabilities. Additionally, the Federal Credit Reform Act of 1990 (FCRA)
                                requires the Department to use estimates in determining the reported amount of direct
                                loan and loan guarantees, the loan guarantee liability and the loan subsidy costs asso­-
                                ciated with future loan performance.


                                T. ALLOCATION TRANSFERS
                                DOT is a party to allocation transfers with other Federal agencies as both a transferring
                                (parent) entity and a recipient (child) entity. Allocation transfers are legal delegations
                                by one Federal agency of its authority to obligate budget authority and outlay funds
                                to another Federal agency. A separate fund account (allocation account) is created in
                                the U.S. Treasury as a subset of the parent fund account for tracking and reporting
                                purposes. All allocation transfers of balances are credited to this account and

                                                                                                                        63
FINANCIAL REPORT




   NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (continued)


                                                            subsequent obligations and outlays incurred by the receiving entity (child) are charged
                                                            to this allocation account as the delegated activity is executed on the parent entity’s
                                                            behalf. Generally, all financial activity related to these allocation transfers (e.g. budget
                                                            authority, obligations, outlays) is reported in the financial statements of the parent
                                                            entity, from which the underlying legislative authority, appropriations and budget
                                                            apportionments are derived.

                                                            DOT allocates funds, as the parent agency, to the following non-DOT Federal agencies
                                                            in accordance with applicable public laws and statutes: U.S. Bureau of Indian Affairs,
                                                            U.S. Bureau of Reclamation, U.S. Forest Service, U.S. National Park Service, U.S.
                                                            Bureau of Land Management, U.S. Fish and Wildlife Service, U.S. Department of the
                                                            Army, Appalachian Regional Commission, Tennessee Valley Authority, U.S. Army
                                                            Corps of Engineers, Internal Revenue Service, U.S. Department of Housing and Urban
                                                            Development, Denali Commission, U.S. Department of Navy, and the U.S. Depart-
                                                            ment of Energy.

                                                            DOT receives allocations of funds, as the child agency, from the following non-DOT
                                                            Federal agencies in accordance with applicable laws and statutes: U.S. Department
                                                            of Agriculture, U.S. Department of the Interior, U.S. Department of the Navy, U.S.
                                                            Department of the Army, U.S. Department of the Air Force, and the U.S. Department
                                                            of Defense.


                                                            U. REVENUES AND OTHER FINANCING SOURCES
                                                            Funds From Dedicated Collections Excise Tax Revenues (Nonexchange)
                                                            DOT receives funding (non exchange) needed to support its programs through funds
                                                            from dedicated collections which are excise tax revenues related to the Highway Trust
                                                            Fund (HTF) and the Airport and Airway Trust Fund (AATF).

                                                            Excise taxes collected are initially deposited to the general fund of the U.S. Treasury.
                                                            The Internal Revenue Service (IRS) does not receive sufficient information at the time
                                                            the taxes are collected to determine how these payments should be distributed to
                                                            specific funds from dedicated collections. Therefore, the U.S. Treasury makes initial
                                                            semi-monthly distributions to dedicated collection funds based on estimates prepared
                                                            by Treasury OTA. These estimates are based on historical excise tax data applied to
                                                            current excise tax receipts. When actual tax receipt amounts are certified by the IRS,
                                                            generally four months after each quarter-end, adjustments are made to the estimated
                                                            receipt/revenue amounts previously provided by OTA, at which time the difference is
                                                            transferred by the U.S. Treasury to the HTF and AATF accounts.

                                                            The DOT September 30, 2013 financial statements reflect excise taxes certified by the
                                                            IRS through June 30, 2013 and excise taxes estimated by OTA for the period July 1,
                                                            2013 to September 30, 2013 as specified by FASAB Statement of Federal Financial
                                                            Accounting Standard (SFFAS) Number 7, Accounting for Revenue and Other Financing
                                                            Sources. Actual tax collections data for the quarter ended September 30, 2013 will not
                                                            be available from the IRS until January 2014.

                                                            Appropriations (Financing Source)
                                                            DOT receives annual, multi-year and no-year appropriations. Appropriations are re­c­
                                                            ognized as revenues when related program and administrative expenses are incurred.


   64        U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                         FINANCIAL REPORT




NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (continued)


                                Additional amounts are obtained from offsetting collections and user fees (e.g., over­-
                                flight fees and registry certification fees) and through reimbursable agreements for
                                services performed for domestic and foreign governmental entities. Additional revenue
                                is received from gifts of donors, sales of goods and services to other agencies and the
                                public, the collection of fees and fines, interest/dividends on invested funds, loans and
                                cash disbursements to banks. Interest income is recognized as revenue on the accrual
                                basis rather than when received.
                                Effective February 18, 2012, the FAA Modernization and Reform Act of 2012, P.L.
                                112-95, extended AATF authority to collect excise taxes and make expenditures
                                through September 30, 2015.
                                On July 6, 2012, the President signed into P.L. 112-141, Moving Ahead for Progress
                                in the 21st Century (MAP-21) which extended the preceding law, the Safe, Account­
                                able, Flexible, Efficient Transportation Equity Act: A Legacy for Users, through
                                September 30, 2012 and provided new authorization for surface transportation from
                                October 1, 2012 through September 30, 2014. The new and existing programs in
                                MAP-21 create a streamlined, performance-based, and multimodal program to address
                                the many challenges facing the U.S. transportation system. The law infused $2.4
                                billion into the HTF from the Leaking Underground Storage Tank (LUST) trust fund
                                in FY 2012, and provided another $6.2 billion (less $316 million that was rescinded
                                due to the sequestration mentioned below) in FY 2013 and $12.6 billion in FY 2014
                                from the general fund.
                                In October 2012, Hurricane Sandy significantly impacted certain areas within the north­-
                                eastern United States. On January 6, 2013, Congress enacted Public Law 113–2 that
                                appropriated $13 billion (which was subject to a 5.1% sequestration reduction due
                                to the Balanced Budget and Emergency Deficit Control Act, as amended [BBEDCA])
                                to several DOT operating administrations for the recovery and relief efforts of transit
                                systems most affected by Hurricane Sandy. FTA Emergency Relief Program received
                                $11 billion for recovery and rebuilding projects, resiliency projects and community
                                development block grants and the FHWA Emergency Relief Program received $2 billion
                                for immediate use in rebuilding roads, bridges, seawalls and tunnels. As the remainder
                                of the anticipated construction projects related to the destruction caused by Hurricane
                                Sandy include certain complex improvements to the transit systems and are long-term,
                                by design, DOT had obligated only $1.3 billion and expended $399 million of these
                                monies as of September 30, 2013.
                                The Budget Control Act of 2011 (BCA), P.L. 112–25, required that if Congress failed
                                to produce a FY 2013 deficit reduction bill it would trigger across-the-board cuts
                                (sequestration), as of January 2, 2013. These cuts would apply to mandatory and
                                discretionary spending in the years 2013 to 2021.
                                Pursuant to BCA, on March 1, 2013, the President issued a sequestration order in
                                accordance with section 251A of the BBEDCA, 2 U.S.C. 901a. The order requires that
                                budgetary resources in each non-exempt budget account be reduced by the amount
                                calculated by the Office of Management and Budget (OMB) in its report to Congress
                                of March 1, 2013, entitled OMB Report to the Congress on the Joint Committee Sequestration
                                for Fiscal Year 2013. The impact to DOT was an average sequestration rate of 5.1% on
                                nonexempt budgetary accounts.



                                                                                                                        65
FINANCIAL REPORT




   NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (continued)


                                                            Due to a lapse in government appropriations from October 1 to October 16, 2013, DOT
                                                            experienced limited furloughs for its employees. On October 17, 2013, the President
                                                            signed the Continuing Appropriations Resolution, 2014, P.L. 113-46, to continue gov­
                                                            ernment operations through January 15, 2014, predominantly, at FY 2013 spending levels.

                                                            American Recovery and Reinvestment Act
                                                            On February 17, 2009, the President signed into law the American Recovery and
                                                            Reinvestment Act (ARRA), which designated over $48 billion to the DOT operating
                                                            administrations. The funding was provided to FHWA, FAA, FTA, FRA, OST and MARAD.
                                                            These funds were designated to invest in transportation infrastructure, including transit
                                                            capital assistance, high speed rail, pavement improvements and bridge repair, as well
                                                            as to preserve and create jobs, and promote economic recovery that will provide long
                                                            term economic benefits. In the final stages of the program as of September 30, 2013,
                                                            the Department had obligated $47.6 billion and disbursed $39.8 billion.


                                                            V. FIDUCIARY ACTIVITIES
                                                            Fiduciary assets and liabilities are not assets and liabilities of the Department and, as
                                                            such are not recognized on the balance sheet. In accordance with the provisions of
                                                            FASAB SFFAS Number 31, Accounting for Fiduciary Activities, this activity is reported
                                                            separately in a note disclosure. The Maritime Administration Title XI Escrow Fund
                                                            contains fiduciary activity as detailed in Note 22 to the Consolidated Financial
                                                            Statements.


                                                            W. RELATED PARTIES
                                                            The Secretary of Transportation has possession of two long term notes with the National
                                                            Railroad Passenger Service Corporation (more commonly referred to as Amtrak). The
                                                            first note is for $4 billion and matures in 2975 and; the second note is for $1.1 billion
                                                            and matures in 2082 with renewable 99 year terms. Interest is not accruing on these
                                                            notes as long as the current financial structure of Amtrak remains unchanged. If the
                                                            financial structure of Amtrak changes, both principal and accrued interest are due and
                                                            payable. The Department does not record the notes in its financial statements since the
                                                            present value of the notes, discounted according to rates published in OMB M-13-4
                                                            Appendix C, Discount Rates for Cost-Effectiveness, Lease Purchase, and Related Analyses,
                                                            with maturity dates of 2975 and 2082, was immaterial to the consolidated financial
                                                            statements taken as a whole at September 30, 2013.
                                                            In addition, the Secretary of Transportation has possession of all the preferred stock
                                                            shares (109,396,994) of Amtrak. Congress, through the Department, has continued
                                                            to fund Amtrak since approximately 1972; originally through grants, then, beginning
                                                            in 1981, through the purchase of preferred stock, and then, through grants again after
                                                            1997. The Amtrak Reform and Accountability Act of 1997 changed the structure of
                                                            the preferred stock by rescinding the voting rights with respect to the election of the
                                                            Board of Directors and by eliminating the preferred stock’s liquidation preference over
                                                            the common stock. The Act also eliminated further issuance of preferred stock to the
                                                            Department. The Department does not record the Amtrak preferred stock in its financial
                                                            statements because, under the Corporation’s current financial structure, the preferred
                                                            shares do not have a liquidation preference over the common shares, the preferred
                                                            shares do not have any voting rights, and dividends are neither declared nor in arrears.

   66        U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                       FINANCIAL REPORT




NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES (continued)


                                Amtrak is not a department, agency or instrumentality of the United States Government
                                or the Department. The nine members of Amtrak’s Board of Directors are appointed
                                by the President of the United States and are subject to confirmation by the United
                                States Senate. Once appointed, Board Members, as a whole, act independently without
                                the consent of the United States Government or any of its officers to set Amtrak policy,
                                determine its budget and decide operational issues. The Secretary of Transportation is
                                statutorily appointed to the nine member Board. Traditionally, the Secretary of Trans­-
                                portation has designated the FRA Administrator to represent the Secretary at Board
                                meetings (See Note 16).


                                X. RECLASSIFICATIONS
                                Certain prior year amounts have been reclassified to conform with the current year
                                presentation.




                                                                                                                     67
FINANCIAL REPORT




   NOTE 2. FUND BALANCE WITH TREASURY
                                                                               Fund Balances With Treasury as of September 30 consist of the following:
                                                                                                                             2013                2012


                                                            Fund Balances
                                                            Trust Funds                                                $5,765,787         $6,243,944
                                                            Revolving Funds                                             1,121,275           1,116,895
                                                            General Funds                                              33,383,181         25,635,140
                                                            Other Fund Types                                              311,095            360,295
                                                            Total                                                     $40,581,338        $33,356,274


                                                            Status of Fund Balance With Treasury
                                                            Unobligated Balance
                                                               Available                                              $25,455,513        $14,384,053
                                                               Unavailable                                              3,005,765           2,750,400
                                                            Obligated Balance Not Yet Disbursed                        11,059,764         15,608,159
                                                            Non-Budgetary Fund Balance With Treasury                    1,060,296            613,662
                                                            Total                                                     $40,581,338        $33,356,274



                                                            Fund Balances with Treasury are the aggregate amounts of the Department’s accounts
                                                            with Treasury for which the Department is authorized to make expenditures and pay
                                                            liabilities. Other Fund Types include uncleared suspense accounts, which temporarily
                                                            hold collections pending clearance to the applicable account, and deposit funds, which
                                                            are established to record amounts held temporarily until ownership is determined.

                                                            The U.S. Treasury processes cash receipts and disbursements. DOT receives appro-
                                                            priations as budget authority, which permits it to incur obligations and make outlays
                                                            (payments). In addition, DOT also receives contract authority to permit the incurrence
                                                            of obligations in advance of an appropriation. The contract authority is subsequently
                                                            replaced with the appropriation or the spending authority from offsetting collections
                                                            to first cover and then liquidate the obligations. As a result, DOT does not have typical
                                                            Fund Balance with Treasury amounts as funds remain invested in securities until
                                                            needed to make payments. These investments and contract authority amounts offset
                                                            the Obligated balance not yet disbursed, therefore the unobligated and obligated
                                                            balances presented above may not equal related amounts reported on the Combined
                                                            Statements of Budgetary Resources.




   68        U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                             FINANCIAL REPORT




NOTE 3. INVESTMENTS


                                                                           Amortized         Investments              Market
                                                             Cost           Discount                (Net)              Value


Intragovernmental Securities                                    Investments as of September 30, 2013 consist of the following:
Marketable                                                 $42,895              $(236)            $42,659             $42,697
Non-Marketable Par Value                                13,764,511                  —          13,764,511         13,764,511
Non-Marketable Market-Based                              1,936,922             20,697           1,957,619           1,962,650
Subtotal                                                15,744,328             20,461          15,764,789         15,769,858
Accrued Interest Receivable                                 56,167                  —              56,167
Total Intragovernmental Securities                    $15,800,495             $20,461        $15,820,956         $15,769,858


Intragovernmental Securities                                    Investments as of September 30, 2012 consist of the following:
Marketable                                                 $28,735               $179             $28,914             $28,950
Non-Marketable Par Value                                20,395,163                  —          20,395,163         20,395,163
Non-Marketable Market-Based                              1,818,209             28,377           1,846,586           1,860,331
Subtotal                                                22,242,107             28,556          22,270,663         22,284,444
Accrued Interest Receivable                                 59,989                  —              59,989
Total Intragovernmental Securities                    $22,302,096             $28,556        $22,330,652         $22,284,444



                                     Investments include non-marketable par value and market-based Treasury securities
                                     and marketable securities issued by the Treasury. Non-marketable par value Treasury
                                     securities are issued by the Bureau of Public Debt to Federal accounts and are pur-
                                     chased and redeemed at par exclusively through Treasury’s Federal Investment Branch.
                                     Non-marketable market-based Treasury securities are also issued by the Bureau of
                                     Public Debt to Federal accounts. They are not traded on any securities exchange, but
                                     mirror the prices of particular Treasury securities trading in the Government securities
                                     market. Marketable Federal securities can be bought and sold on the open market.
                                     The premiums and discounts are amortized over the life of the non-marketable
                                     market-based and marketable securities using the interest method.

                                     The Federal Government does not set aside assets to pay future benefits or other
                                     expenditures associated with dedicated collections. The cash receipts collected from
                                     the public that meet the definition of dedicated collections are deposited in the U.S.
                                     Treasury, which uses the cash for Government purposes. Non-Marketable par value
                                     Treasury securities are issued to DOT as evidence of these receipts. These securities
                                     provide DOT with authority to draw upon the U.S. Treasury to make future expendi-
                                     tures. When DOT requires redemption of these securities to make expenditures, the
                                     Government finances those expenditures out of accumulated cash balances by raising
                                     taxes or other receipts, by borrowing from the public or repaying less debt, or by
                                     curtailing other expenditures. This is the same way that the Government finances all
                                     other expenditures.

                                     Treasury securities are an asset of DOT and a liability of the U.S. Treasury. Because
                                     DOT and the U.S. Treasury are both a part of the Government, these assets and
                                     liabilities offset each other from the standpoint of the Government as a whole. For
                                     this reason, they do not represent an asset or liability in the U.S. Government-wide
                                     financial statements.


                                                                                                                             69
FINANCIAL REPORT




   NOTE 4. ACCOUNTS RECEIVABLE


                                                                                                            Gross          Allowance for             Net
                                                                                                           Amount          Uncollectible          Amount
                                                                                                             Due                Amounts             Due


                                                                                                            Accounts Receivable as of September 30, 2013
                                                              Intragovernmental                                                   consist of the following:
                                                                 Accounts Receivable                      $118,384                    $—         $118,384
                                                                 Accrued Interest                                5                       —               5
                                                              Total Intragovernmental                      118,389                       —         118,389


                                                              Public
                                                                 Accounts Receivable                       161,136                (15,782)         145,354
                                                                 Accrued Interest                            2,610                    (77)           2,533
                                                              Total Public                                 163,746                (15,859)         147,887
                                                              Total Accounts Receivable                   $282,135              $(15,859)        $266,276


                                                                                                            Accounts Receivable as of September 30, 2012
                                                              Intragovernmental                                                   consist of the following:
                                                                 Accounts Receivable                      $116,545                    $—         $116,545
                                                                 Accrued Interest                                5                       —               5
                                                              Total Intragovernmental                      116,550                       —         116,550


                                                              Public
                                                                 Accounts Receivable                       174,794                (22,205)         152,589
                                                                 Accrued Interest                            2,395                    (77)           2,318
                                                              Total Public                                 177,189                (22,282)         154,907
                                                              Total Accounts Receivable                   $293,739              $(22,282)        $271,457




   NOTE 5. OTHER ASSETS
                                                                                                    Other Assets consist of the following as of September 30
   Intragovernmental Other Assets are                                                                                             2013                2012
   comprised of advance payments to other
   Federal Government entities for agency                     Intragovernmental
   expenses not yet incurred and for goods
                                                              Advances and Prepayments                                        $121,002           $164,634
   and services not yet received. Public
                                                              Total Intragovernmental Other Assets                            $121,002           $164,634
   Other Assets are comprised of advances
   to States, employees and contractors.                      Public
                                                              Advances to States for Right of Way                               $2,982             $19,363
                                                              Other Advances and Prepayments                                    18,097              54,784
                                                              Other                                                                565                 559
                                                              Total Public Other Assets                                        $21,644             $74,706




   70          U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                     FINANCIAL REPORT




NOTE 6. DIRECT LOANS AND LOAN GUARANTEES, NON-FEDERAL BORROWERS

                          The Federal Credit Reform Act of 1990 divides direct loans and loan guarantees into
                          two groups:

                          (1)	 Pre-1992—Direct loan obligations or loan guarantee commitments made prior to
                               FY 1992 and the resulting direct loans or loan guarantees; and

                          (2)	 Post-1991—Direct loan obligations or loan guarantee commitments made after
                               FY 1991 and the resulting direct loans or loan guarantees.

                          The Act, as amended, governs direct loan obligations and loan guarantee commitments
                          made after FY 1991, and the resulting direct loans and loan guarantees. Consistent with
                          the Act, SFFAS number 2, Accounting for Direct Loans and Loan Guarantees, requires
                          Federal agencies to recognize the present value of the subsidy costs (which arises from
                          interest rate differentials, interest supplements, defaults [net of recoveries], fee offsets,
                          and other cash flows) as a cost in the year the direct or guaranteed loan is disbursed.
                          Direct loans are reported net of an allowance for subsidy at present value, and loan
                          guarantee liabilities are reported at present value. Foreclosed property is valued at the
                          net realizable value. The value of assets for direct loans and defaulted guaranteed loans
                          is not the same as the proceeds that would be expected from the sale of the loans. DOT
                          has calculated the allowance for pre-1992 loans using the allowance for loss method.

                          Interest on the loans is accrued based on the terms of the loan agreement. DOT does
                          not accrue interest on non-performing loans that have filed for bankruptcy protection.
                          DOT management considers administrative costs to be insignificant.

                          DOT administers the following direct loan and/or loan guarantee programs:

                          (1)	 The Railroad Rehabilitation Improvement Program is used to acquire, improve, or
                               rehabilitate intermodal or rail equipment or facilities, including track, components
                               of tract, bridges, yards, buildings, and shops; refinance outstanding debt incurred;
                               and develop or establish new intermodal or railroad facilities.

                          (2)	 The Transportation Infrastructure Finance and Innovation Act (TIFIA) Loan Pro­
                               gram provides Federal credit assistance for major transportation investments of
                               critical national importance such as highway, transit, passenger rail, certain freight
                               facilities, and certain port projects with regional and national benefits. The TIFIA
                               credit program is designed to fill market gaps and leverages substantial private
                               co-investment by providing supplemental and subordinate capital.

                          (3)	 The Federal Ship Financing Fund (Title XI) offers loan guarantees to qualified
                               ship owners and shipyards. Approved applicants are provided the benefit of long
                               term financing at stable interest rates.

                          (4)	 The OST Minority Business Resource Center Guaranteed Loan Program helps small
                               businesses gain access to the financing needed to participate in transportation-­
                               related contracts.

                          An analysis of loans receivable, allowance for subsidy costs, liability for loan guarantees,
                          foreclosed property, modifications and reestimates associated with direct loans and
                          loan guarantees is provided in the following sections:




                                                                                                                    71
FINANCIAL REPORT




   NOTE 6. DIRECT LOANS AND LOAN GUARANTEES, NON-FEDERAL BORROWERS (continued)


   DIRECT LOANS


   Obligated Prior to FY 1992 (Allowance for Loss Method)
                                                                                                                               Value of
                                                                                  2013                                           Assets
                                                                                 Loans                      Allowance        Related to
                                                                            Receivable,      Interest         for Loan    Direct Loans,
   Direct Loan Programs                                                          Gross    Receivable            Losses              Net
   (1) Railroad Rehabilitation Improvement Program                                 $77           $—                $—              $77


                                                                                                                               Value of
                                                                                  2012                                           Assets
                                                                                 Loans                      Allowance        Related to
                                                                            Receivable,      Interest         for Loan    Direct Loans,
                                                                                 Gross    Receivable            Losses              Net
   (1) Railroad Rehabilitation Improvement Program                                $151           $—                $—             $151



   Obligated After FY 1991
                                                                                                                               Value of
                                                                                  2013                                           Assets
                                                                                 Loans                   Allowance for       Related to
                                                                            Receivable,      Interest     Subsidy Cost    Direct Loans,
   Direct Loan Programs                                                          Gross    Receivable    (Present Value)             Net
   (1) Railroad Rehabilitation Improvement Program                            $847,827          $624          $(38,221)       $810,230
   (2) TIFIA Loans                                                            6,426,427        3,250          (373,757)      6,055,920
   Total                                                                     $7,274,254       $3,874         $(411,978)     $6,866,150


                                                                                                                               Value of
                                                                                  2012                                           Assets
                                                                                 Loans                   Allowance for       Related to
                                                                            Receivable,      Interest     Subsidy Cost    Direct Loans,
   Direct Loan Programs                                                          Gross    Receivable    (Present Value)             Net
   (1) Railroad Rehabilitation Improvement Program                            $710,932        $1,512          $(47,219)       $665,225
   (2) TIFIA Loans                                                            4,696,784           —           (350,654)      4,346,130
   Total                                                                     $5,407,716       $1,512         $(397,873)     $5,011,355




   Total Amount of Direct Loans Disbursed (Post-1991)
   Direct Loan Programs                                                                         2013                              2012

   (1) Railroad Rehabilitation Improvement Program                                          $158,255                          $285,694
   (2) TIFIA Loans                                                                         1,664,979                           643,609
   Total                                                                                  $1,823,234                          $929,303




   72            U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                   FINANCIAL REPORT




NOTE 6. DIRECT LOANS AND LOAN GUARANTEES, NON-FEDERAL BORROWERS (continued)


DIRECT LOANS (continued)

Subsidy Expense for Direct Loans by Program and Component

Subsidy Expense for New Direct Loans Disbursed
                                                           2013                      Fees and             Other
                                                        Interest                         Other          Subsidy
Direct Loan Programs                                Differential       Defaults     Collections           Costs            Total
(1) Railroad Rehabilitation Improvement Program             $—          $13,784        $(13,784)            $—              $—
(2) TIFIA Loans                                               —          98,381              —               —           98,381
Total                                                       $—         $112,165        $(13,784)            $—          $98,381

                                                           2012                      Fees and             Other
                                                        Interest                         Other          Subsidy
Direct Loan Programs                                Differential       Defaults     Collections           Costs            Total
(1) Railroad Rehabilitation Improvement Program             $—          $13,969        $(13,969)            $—              $—
(2) TIFIA Loans                                               —          68,491              —               —           68,491
Total                                                       $—          $82,460        $(13,969)            $—          $68,491


Modifications and Re-estimates
                                                          2013
                                                          Total    Interest Rate      Technical            Total
Direct Loan Programs                              Modifications    Re-estimates    Re-estimates    Re-estimates
(1) Railroad Rehabilitation Improvement Program             $—         $(34,592)        $22,639        $(11,953)
(2) TIFIA Loans                                               —              —          (77,363)        (77,363)
Total                                                       $—         $(34,592)       $(54,724)       $(89,316)

                                                          2012
                                                          Total    Interest Rate      Technical            Total
Direct Loan Programs                              Modifications    Re-estimates    Re-estimates    Re-estimates
(1) Railroad Rehabilitation Improvement Program             $—          $27,177         $(6,198)        $20,979
(2) TIFIA Loans                                               —              —          (36,886)        (36,886)
Total                                                       $—          $27,177        $(43,084)       $(15,907)


Total Direct Loan Subsidy Expense
Direct Loan Programs                                        2013           2012
(1) Railroad Rehabilitation Improvement Program       $(11,953)         $20,979
(2) TIFIA Loans                                         21,018           31,605
Total                                                   $9,065          $52,584




                                                                                                                              73
FINANCIAL REPORT




   NOTE 6. DIRECT LOANS AND LOAN GUARANTEES, NON-FEDERAL BORROWERS (continued)


   DIRECT LOANS (continued)

   Budget Subsidy Rates for Direct Loans for the Current Year Cohort
                                                                                    2013                     Fees and
                                                                                 Interest                        Other
   Direct Loan Programs                                                      Differential      Defaults     Collections            Other            Total
   (1) Railroad Rehabilitation Improvement Program                                0.00%          2.52%           (1.95%)          (0.57%)          0.00%
   (2) TIFIA Loans
        Risk Category 1                                                           0.00%          9.66%            0.00%            0.00%           9.66%
        Risk Category 2                                                           0.00%          8.37%           (0.09%)           0.00%           8.28%


                                                                 The subsidy rates disclosed pertain only to the current year’s cohorts. These rates
                                                                 cannot be applied to the direct loans disbursed during the current reporting year to
                                                                 yield the subsidy expense. The subsidy expense for new loans reported in the current
                                                                 year could result from disbursements of loans from both current year cohorts and
                                                                 prior year(s) cohorts. The subsidy expense reported in the current year also includes
                                                                 modifications and re-estimates.


   Schedule for Reconciling Subsidy Cost Allowance Balances (Post-1991 Direct Loans)
   Beginning Balance, Changes, and Ending Balance                                                                                2013                2012
   Beginning Balance of the Subsidy Cost Allowance                                                                           $397,873           $322,357

   Add: Subsidy Expense for Direct Loans Disbursed During the Reporting Years by Component
     Default Costs (Net of Recoveries)                                                                                        112,165              82,460
     Fees and Other Collections                                                                                               (13,784)            (13,969)
   Total of the Above Subsidy Expense Components                                                                               98,381              68,491

   Adjustments
     Subsidy Allowance Amortization                                                                                            (8,744)              8,963
     Other                                                                                                                     13,784              13,969
   Ending Balance of the Subsidy Cost Allowance Before Reestimates                                                            501,294             413,780

   Add or Subtract Subsidy Re-estimates by Component
     Interest Rate Re-estimate                                                                                                (34,592)             27,177
     Technical/Default Re-estimate                                                                                            (54,724)            (43,084)
   Total of the Above Re-estimate Components                                                                                  (89,316)            (15,907)
   Ending Balance of the Subsidy Cost Allowance                                                                              $411,978           $397,873


                                                                 The economic assumptions of the TIFIA upward and downward re-estimates were the
                                                                 result of a reassessment of risk levels as well as estimated changes in future cash flows
                                                                 on loans.

                                                                 The Railroad Rehabilitation Improvement Program upward reestimate resulted from
                                                                 an update of the discount rate used at the time of loan obligation to loan disbursement
                                                                 and from changes in technical assumptions and projected cash flows.




   74             U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                              FINANCIAL REPORT




NOTE 6. DIRECT LOANS AND LOAN GUARANTEES, NON-FEDERAL BORROWERS (continued)


GUARANTEED LOANS

Defaulted Guaranteed Loans From Post-1991 Guarantees
                                                   2013                                                               Assets
                                              Defaulted                                                           Related to
                                             Guaranteed                                                              Default
                                                  Loans                                                          Guaranteed
                                             Receivable,      Interest   Foreclosed           Allowance                Loans
Loan Guarantee Programs                           Gross    Receivable      Property          for Subsidy      Receivable, Net

(3) Federal Ship Financing Fund (Title XI)       $97,418       $2,061         $5,800              $(94,073)          $11,206

                                                   2012                                                               Assets
                                              Defaulted                                                           Related to
                                             Guaranteed                                                              Default
                                                  Loans                                                          Guaranteed
                                             Receivable,      Interest   Foreclosed           Allowance                Loans
Loan Guarantee Programs                           Gross    Receivable      Property          for Subsidy      Receivable, Net

(3) Federal Ship Financing Fund (Title XI)       $97,312       $2,061         $6,500              $(94,572)          $11,301



Guaranteed Loans Outstanding
                                                                                         2013                     Amount of
                                                                         Outstanding Principal                   Outstanding
                                                                         of Guaranteed Loans,                       Principal
Loan Guarantee Programs                                                            Face Value                    Guaranteed
(3) Federal Ship Financing Fund (Title XI)                                         $1,730,840                      $1,730,840
(4) OST Minority Business Resource Center                                                 3,655                         2,741
Total                                                                              $1,734,495                      $1,733,581

New Guaranteed Loans Disbursed

                                                                                         2013                     Amount of
                                                                         Outstanding Principal                   Outstanding
                                                                         of Guaranteed Loans,                       Principal
Loan Guarantee Programs                                                            Face Value                    Guaranteed
(3) Federal Ship Financing Fund (Title XI)                                                 $—                            $—
(4) OST Minority Business Resource Center                                                  395                           296
Total                                                                                     $395                          $296


                                                                                         2012                     Amount of
                                                                         Outstanding Principal                   Outstanding
                                                                         of Guaranteed Loans,                       Principal
Loan Guarantee Programs                                                            Face Value                    Guaranteed
(3) Federal Ship Financing Fund (Title XI)                                             $593,976                     $593,976
(4) OST Minority Business Resource Center                                                 3,449                         2,586
Total                                                                                  $597,425                     $596,562




                                                                                                                           75
FINANCIAL REPORT




   NOTE 6. DIRECT LOANS AND LOAN GUARANTEES, NON-FEDERAL BORROWERS (continued)


   GUARANTEED LOANS (continued)

   Liability for Loan Guarantees (Present Value Method Post-1991 Guarantees)
                                                                                                                                                  2013
                                                                                                                 Liabilities for Post-1991 Guarantees,
   Loan Guarantee Programs                                                                                                               Present Value
   (3) Federal Ship Financing Fund (Title XI)                                                                                                $175,572
   (4) OST Minority Business Resource Center                                                                                                      562
   Total                                                                                                                                     $176,134



   Subsidy Expense for Loan Guarantees by Program and Component
                                                                          2013                         Fees and
                                                                       Interest                            Other
   Loan Guarantee Programs                                        Supplements            Defaults     Collections            Other               Total
   (3) Federal Ship Financing Fund (Title XI)                                 $—              $—              $—               $—                 $—
   (4) OST Minority Business Resource Center                                   —               26              —                 —                 26
   Total                                                                      $—              $26             $—               $—                 $26

                                                                          2012                         Fees and
                                                                       Interest                            Other
   Loan Guarantee Programs                                        Supplements            Defaults     Collections            Other               Total
   (3) Federal Ship Financing Fund (Title XI)                                 $—          $48,520        $(34,732)             $—             $13,788
   (4) OST Minority Business Resource Center                                   —               77              —                 —                 77
   Total                                                                      $—          $48,597        $(34,732)             $—             $13,865

   Modifications and Re-estimates

                                                                          2013
                                                                          Total      Interest Rate      Technical             Total
   Loan Guarantee Programs                                        Modifications      Re-estimates    Re-estimates     Re-estimates
   (3) Federal Ship Financing Fund (Title XI)                                 $—              $—         $(26,239)        $(26,239)
   (4) OST Minority Business Resource Center                                   —               —              114               114
   Total                                                                      $—              $—         $(26,125)        $(26,125)

                                                                          2012
                                                                          Total      Interest Rate      Technical             Total
   Loan Guarantee Programs                                        Modifications      Re-estimates    Re-estimates     Re-estimates
   (3) Federal Ship Financing Fund (Title XI)                                 $—              $—         $(38,769)        $(38,769)
   (4) OST Minority Business Resource Center                                   —               —              278               278
   Total                                                                      $—              $—         $(38,491)        $(38,491)

   Total Direct Loan Subsidy Expense

   Loan Guarantee Programs                                                   2013            2012
   (3) Federal Ship Financing Fund (Title XI)                            $(26,239)       $(24,981)
   (4) OST Minority Business Resource Center                                  140             355
   Total                                                                 $(26,099)       $(24,626)




   76             U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                             FINANCIAL REPORT




NOTE 6. DIRECT LOANS AND LOAN GUARANTEES, NON-FEDERAL BORROWERS (continued)


GUARANTEED LOANS (continued)

Budget Subsidy Rates for Loan Guarantees for the Current Year Cohort
                                                             2013                            Fees and
                                                          Interest                               Other
Loan Guarantee Programs                              Supplements             Defaults       Collections             Other               Total
(3) Federal Ship Financing Fund (Title XI)
  Risk Category 3                                            0.00%            11.78%             (4.88%)            0.00%              6.90%
  Risk Category 4                                            0.00%            14.02%             (4.88%)            0.00%              9.14%
  Risk Category 5                                            0.00%            17.49%             (4.88%)            0.00%            12.61%
(4) OST Minority Business Resource Center                    0.00%             1.73%              0.00%             0.00%              1.73%


                                                     The subsidy rates disclosed pertain only to the current year’s cohorts. These rates can-
                                                     not be applied to the guarantees of loans disbursed during the current reporting year
                                                     to yield the subsidy expense. The subsidy expense for new loan guarantees reported
                                                     in the current year could result from disbursements of loans from both current year
                                                     cohorts and prior year(s) cohorts. The subsidy expense reported in the current year
                                                     also includes modifications and re-estimates.

Schedule for Reconciling Loan Guarantee Liability Balances (Post-1991 Loan Guarantees)
Beginning Balance, Changes, and Ending Balance                                                       2013                               2012
Beginning Balance of the Loan Guarantee Liability                                                $192,829                           $158,425
Add: Subsidy Expense for Guaranteed Loans Disbursed During
 the Reporting Years by Component
    Default Costs (Net of Recoveries)                                                                  26                             48,597
    Fees and Other Collections                                                                          —                            (34,732)
Total of the Above Subsidy Expense Components                                                          26                             13,865
Adjustments
    Fees Received                                                                                    (445)                            53,418
    Foreclosed Property and Loans Acquired                                                            605                                 —
    Claim Payments to Lenders                                                                         (25)                            39,456
    Interest Accumulation on the Liability Balance                                                  9,000                             (6,756)
    Other                                                                                             269                            (27,088)
Ending Balance of the Loan Guarantee Liability Before Re-estimates                                202,259                            231,320
Add or Subtract Subsidy Re-estimates by Component
    Technical/Default Re-estimate                                                                 (26,125)                           (38,491)
Total of the Above Re-estimate Components                                                         (26,125)                           (38,491)
Ending Balance of the Loan Guarantee Liability                                                   $176,134                           $192,829


                                                     MARAD retains one vessel in its foreclosed property inventory.

                                                     The sufficiency of DOT’s loan and loan guarantee portfolio reserves at September 30,
                                                     2013 is subject to future economic and market conditions. DOT continues to evaluate
                                                     market risks in light of evolving economic conditions. The impact of such risks on
                                                     DOT’s portfolio reserves, if any, cannot be fully known at this time and could cause
                                                     results to differ from estimates. Under the Federal Credit Reform Act, reserve reesti-
                                                     mates are automatically covered by permanent indefinite budget authority, thereby,
                                                     providing DOT with sufficient resources to cover losses incurred without further
                                                     Congressional action.

                                                                                                                                           77
FINANCIAL REPORT




   NOTE 7. INVENTORY AND RELATED PROPERTY
                                                                              Inventory and Related Property as of September 30, 2013 consists of the following:
                                                                                                                          Allowance
                                                                                                      Cost                  for Loss                       Net


   Inventory
        Inventory Held for Current Sale                                                            $90,738                      $—                    $90,738
        Excess, Obsolete and Unserviceable Inventory                                                13,945                   (13,945)                       —
        Inventory Held for Repair                                                                  613,198                 (140,456)                  472,742
        Other                                                                                       49,976                   (10,590)                   39,386
   Total Inventory                                                                                 767,857                 (164,991)                 $602,866


   Operating Materials and Supplies
        Items Held for Use                                                                         235,023                    (1,173)                 233,850
        Items Held in Reserve for Future Use                                                        28,099                        —                     28,099
        Excess, Obsolete and Unserviceable Items                                                     1,358                      (811)                      547
        Items Held for Repair                                                                       27,000                   (12,767)                   14,233
   Total Operating Materials & Supplies                                                            291,480                  (14,751)                  276,729
   Total Inventory and Related Property                                                                                                              $879,595


                                                                              Inventory and Related Property as of September 30, 2012 consists of the following:
                                                                                                                          Allowance
                                                                                                      Cost                  for Loss                       Net


   Inventory
        Inventory Held for Current Sale                                                            $93,855                      $—                    $93,855
        Excess, Obsolete and Unserviceable Inventory                                                 8,956                    (8,956)                       —
        Inventory Held for Repair                                                                  582,567                 (135,234)                  447,333
        Other                                                                                       51,030                   (10,591)                   40,439
   Total Inventory                                                                                 736,408                 (154,781)                  581,627


   Operating Materials and Supplies
        Items Held for Use                                                                         233,293                    (1,075)                 232,218
        Items Held in Reserve for Future Use                                                        29,664                        —                     29,664
        Excess, Obsolete and Unserviceable Items                                                     1,888                    (1,043)                      845
        Items Held for Repair                                                                       25,730                   (12,193)                   13,537
   Total Operating Materials & Supplies                                                            290,575                  (14,311)                  276,264
   Total Inventory and Related Property                                                                                                              $857,891



                                                                  Inventory consists of supplies and materials used to support FAA National Airspace
                                                                  System (NAS) located at the Mike Monroney Aeronautical Center in Oklahoma City.

                                                                  Primarily, operating supplies and material consist of unissued materials and supplies
                                                                  that will be used in repair and maintenance of various activities within FAA and to
                                                                  support the training vessels and day to day operations at the U.S. Merchant Marine
                                                                  Academy.




   78              U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                       FINANCIAL REPORT




NOTE 8. GENERAL PROPERTY, PLANT AND EQUIPMENT, NET
                                 General Property, Plant and Equipment as of September 30, 2013 consist of the following:
                                                                                  Accumulated
                                         Service             Acquisition          Depreciation
 Major Classes                              Life                  Value           Amortization              Book Value
Land and Improvements                      10-40               $103,807                 $(2,484)              $101,323
Buildings and Structures                   20-40               6,371,549             (3,570,462)              2,801,087
Furniture and Fixtures                      7-10                     439                   (248)                    191
Equipment                                   5-15              18,793,151            (11,368,015)              7,425,136
ADP Software                                3-10               1,410,891               (723,900)                686,991
Assets Under Capital Lease                  6-10                 115,095                (43,198)                 71,897
Leasehold Improvements                          3                162,633                (99,385)                 63,248
Aircraft                                      20                 501,410               (348,814)                152,596
Ships and Vessels                          15-25               1,936,590             (1,781,384)                155,206
Small Boats                                10-18                  29,931                (25,159)                  4,772
Construction-in-Progress                     N/A               2,540,440                      —               2,540,440
Total                                                       $31,965,936            $(17,963,049)           $14,002,887



                                 General Property, Plant and Equipment as of September 30, 2012 consist of the following:

                                                                                  Accumulated
                                         Service             Acquisition          Depreciation
 Major Classes                              Life                  Value           Amortization              Book Value
Land and Improvements                      10-40               $102,717                 $(2,251)              $100,466
Buildings and Structures                   20-40               6,213,974             (3,418,667)              2,795,307
Furniture and Fixtures                      7-10                   3,199                 (1,619)                  1,580
Equipment                                   5-15              17,460,914            (10,712,215)              6,748,699
ADP Software                                3-10                 722,683               (539,726)                182,957
Assets Under Capital Lease                  6-10                 127,661                (49,902)                 77,759
Leasehold Improvements                          3                147,821                (84,400)                 63,421
Aircraft                                      20                 407,579               (327,059)                 80,520
Ships and Vessels                          15-25               1,945,001             (1,753,241)                191,760
Small Boats                                10-18                  27,701                (22,131)                  5,570
Construction-in-Progress                     N/A               3,780,846                      —               3,780,846
Other Miscellaneous Property                 N/A                   7,202                 (5,721)                  1,481
Total                                                       $30,947,298            $(16,916,932)           $14,030,366



                               The FAA is currently testing and implementing the En Route Automation Moderniza-
                               tion (ERAM) system to upgrade air traffic management of the en route airspace and to
                               enable certain NextGen system capabilities. When fully deployed, the ERAM system
                               will operate at 20 air route traffic control centers across the nation. FAA has fully
                               deployed ERAM at 11 air route traffic control centers as of September 30, 2013 and
                               expects to deploy the nine remaining sites by the end of FY 2015. As of September 30,
                               2013, construction in progress includes $1.1 billion related to the ERAM system.

                               The ERAM system will replace four legacy air traffic systems currently being depreci-
                               ated over their reamining service lives. The net acquisition cost of the four air traffic
                               legacy systems in use was $1.9 billion at September 30, 2013, down from $2.1 billion
                               at September 30, 2012, and had a net book value of $441 million and $634 million,


                                                                                                                      79
FINANCIAL REPORT




   NOTE 8. GENERAL PROPERTY, PLANT AND EQUIPMENT, NET (continued)


                                                               respectively. Depreciation on these air traffic legacy systems was $171 million and
                                                               $111 million in FY 2013 and 2012, respectively. For the legacy assets not already
                                                               retired or placed in Not in Use status, FAA adjusted the useful life to end one year
                                                               from ERAM’s site specific Operational Readiness Decision date.



   NOTE 9. STEWARDSHIP PROPERTY, PLANT AND EQUIPMENT


                                                                PERSONAL PROPERTY HERITAGE ASSETS
                                                                Implied within the MARAD’s mission is the promotion of the nation’s rich maritime
                                                                heritage. One aspect of this entails the collection, maintenance and distribution
                                                                of maritime artifacts removed from agency-owned ships prior to their disposal. As
                                                                ships are assigned to a non-retention status, artifact items are collected, inventoried,
                                                                photographed and relocated to secure shore-side storage facilities. This resulting
                                                                inventory is made available on a long-term loan basis to qualified organizations for
                                                                public display purposes.

                                                                MARAD artifacts and other collections are generally on loan to single purpose memori-
                                                                alization and remembrance groups, such as AMVets National Service Foundation and
                                                                preservation societies. MARAD maintains a web-based inventory system that manages
                                                                the artifact loan process. The program also supports required National Historical
                                                                Preservation Act processing prior to vessel disposal. Funding for the maintenance of
                                                                heritage items is typically the responsibility of the organization requesting the loan of
                                                                a heritage asset. The artifacts and other collections are composed of ships’ operating
                                                                equipment obtained from obsolete ships. The ships are inoperative and in need of
                                                                preservation and restoration. As all items are durable and restorable, disposal is not a
                                                                consideration. The artifacts and other collections are removed from inventory when
                                                                destroyed while on loan. The table below shows the number of physical units added
                                                                and withdrawn as of September 30, 2013.

                                                                            Units as of                                                       Units as of
                                                                             9/30/2012          Additions           Withdrawals                  9/30/13


   Heritage Assets
   Personal Property
     Artifacts                                                                     700                   8                     (1)                    707
     Other Collections                                                           6,840                 97                     (24)                  6,913
   Total Personal Property Heritage Assets                                       7,540                105                     (25)                  7,620




   80            U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                         FINANCIAL REPORT




NOTE 9. STEWARDSHIP PROPERTY, PLANT AND EQUIPMENT (continued)


                                REAL PROPERTY HERITAGE ASSETS
                                Washington’s Union Station supports DOT’s mobility mission, facilitating the
                                movement of intercity and commuter rail passengers through the Washington DC
                                metropolitan area. The FRA has an oversight role in the management of Washington’s
                                Union Station. FRA received title through legislation, and sublets the property to
                                Union Station Venture Limited which manages the property.

                                Union Station is an elegant and unique turn-of-the-century rail station in which a
                                wide variety of elaborate, artistic workmanship characteristic of the period is found.
                                Union Station is listed on the National Register of Historic Places. The station consists
                                of the renovated original building and a parking garage, which was added by the
                                National Park Service.

                                The Nuclear Ship Savannah is the world’s first nuclear-powered merchant ship. It was
                                constructed as a joint project of the MARAD and the Atomic Energy Commission
                                (AEC) as a signature element of President Eisenhower’s “Atoms for Peace” program.
                                In 1965, the AEC issued a commercial operating license and ended its participation
                                in the joint program. The ship remains licensed and regulated by the U.S. Nuclear
                                Regulatory Commission (NRC) (successor to the AEC). The Nuclear Ship Savannah is
                                listed on the National Register of Historic Places. The ship is a boldly-styled passenger/
                                cargo vessel powered by a nuclear reactor.

                                Actions taken by the MARAD since FY 2006 have stabilized the ship and rehabilitated
                                portions of its interior for work-day occupancy by staff and crew. The ship is currently
                                located in Baltimore, MD, where it is being prepared for continued “SAFSTOR” (The
                                Nuclear Regulatory Commission [NRC] method of preparing nuclear facilities for
                                storage and decontamination) retention under the provisions of its NRC license.

                                The MARAD also has twelve buildings that encircle the central quadrangle of the U.S.
                                Merchant Marine Academy and the William S. Barstow house, which are eligible for
                                listing on the National Register of Historic Places.




                                                                                                                       81
FINANCIAL REPORT




   NOTE 10. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

   Liabilities Not Covered by Budgetary                                                  Liabilities Not Covered by Budgetary Resources as of September 30
   Resources are those liabilities that Congres­-                                                                                  2013                2012
   sional action is needed before budgetary
   resources can be provided. Intragovern-                      Intragovernmental
   mental Liabilities are those liabilities that                Other Liabilities                                              $685,228            $628,524
   are with other governmental entities.                        Total Intragovernmental                                         685,228             628,524


                                                                Federal Employee Benefits Payable                             1,048,503           1,019,076
                                                                Environmental and Disposal Liabilities (Note 12)                919,195           1,010,818
                                                                Other Liabilities                                               713,669             752,946
                                                                Total Liabilities Not Covered by Budgetary Resources          3,366,595           3,411,364
                                                                Total Liabilities Covered by Budgetary Resources             16,279,423          14,624,761
                                                                Total Liabilities                                           $19,646,018         $18,036,125




   NOTE 11. DEBT

                                                                                                     Debt activities during the fiscal year ended September 30

                                                                     2012                2012                  2012               2013                 2013
                                                                Beginning                 Net                Ending                Net               Ending
                                                                 Balance            Borrowing               Balance          Borrowing              Balance


   Intragovernmental Debt
   Debt to the Treasury                                         $4,341,629            $851,033             5,192,662         $1,765,579          $6,958,241
   Debt to the Federal Financing Bank                                  1,237               (301)                   936             (322)                 614
   Total Intragovernmental Debt                                 $4,342,866            $850,732            $5,193,598         $1,765,257          $6,958,855



                                                                As part of its credit reform program, DOT borrows from the U.S. Treasury when
                                                                cash is needed in its financing accounts. Borrowings are needed to transfer the credit
                                                                subsidy related to downward reestimates from the financing account to the receipt
                                                                account or when available cash is less than claim payments.

                                                                During FY 2013, DOT’s U.S. Treasury borrowings carried interest rates ranging from
                                                                0.46% to 7.19%. The maturity dates for these borrowings occur from September 2016
                                                                to September 2051. Loans may be repaid in whole or in part without penalty at any
                                                                time. The borrowing from the Federal Financing Bank has an interest rate of 6.4% and
                                                                matures in May 2015. Borrowings from the U.S. Treasury and the Federal Financing
                                                                Bank are considered covered by budgetary resources as no congressional action is
                                                                necessary to pay the debt.




   82            U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                     FINANCIAL REPORT




NOTE 12. ENVIRONMENTAL AND DISPOSAL LIABILITIES

                                                                           Environmental and Disposal Liabilities as of
                                                                                September 30 consist of the following:

                                                                                      2013                      2012


                           Public
                           Environmental Remediation                              $550,538                  $613,448
                           Asset Disposal                                          368,657                   397,370
                           Total Public                                           $919,195                $1,010,818



                           ENVIRONMENTAL REMEDIATION
                           Environmental remediation generally occurs under the Resource Conservation and
                           Recovery Act of 1976 (RCRA), the Comprehensive Environmental Response, Com-
                           pensation and Liability Act of 1980 (CERCLA or Superfund), or the Toxic Substances
                           Control Act (TSCA). Environmental remediation includes the fuel storage tank program,
                           fuels, solvents, industrial, and chemicals, and other environmental cleanup activities
                           associated with normal operations or the result of an accident. Estimating the Depart­-
                           ment’s cost estimates for environmental cleanup and asset disposal liabilities requires
                           making assumptions about future activities and is inherently uncertain. These liabilities
                           are not adjusted for inflation and are subject to revision as a result of changes in tech­-
                           nology and environmental laws and regulations.

                           As of September 30, 2013 and 2012, DOT’s environmental remediation liability
                           primarily includes the removal of contaminants on the Nuclear Ship Savannah and
                           remediation at various sites managed by the FAA and MARAD. In addition to the
                           amount recorded and disclosed, there is a foreseeable environmental liability related
                           to a site with MARAD and numerous other external parties, where the loss is probable
                           and the estimate cannot be determined. There were no amounts recorded related to
                           the MARAD site.


                           ASSET DISPOSAL
                           The National Maritime Heritage Act requires that MARAD dispose of certain merchant
                           vessels owned by the U.S. Government, including non-retention ships in the Fleet.
                           Residual fuel, asbestos, and solid polychlorinated biphenyls (PCB) sometimes exist
                           onboard MARAD’s non-retention ships. Non-retention ships are those MARAD vessels
                           that no longer have a useful application and are pending disposition. The asset dis-
                           posal liability as of September 30, 2013 includes the estimated cost of disposing 109
                           ships. In addition, FAA records an asset disposal liability upon the decommissioning
                           of an asset to cover preparatory costs required to meet regulatory standards allowing
                           for the safe disposition of the asset.




                                                                                                                    83
FINANCIAL REPORT




   NOTE 13. GRANT ACCRUAL

                                                                                                      Grant Accruals by DOT Operating Administrations as of
   The grant accrual consists of an estimate                                                                                September 30 were as follows:
   of grantee expenses incurred, but not yet
                                                                                                                              2013                      2012
   paid by DOT. Grantees primarily include
   State and local governments and transit                     Federal Highway Administration                          $4,083,423                 $4,193,169
   authorities.                                                Federal Transit Administration                           1,411,143                  1,297,590
                                                               Federal Aviation Administration                            772,822                    640,646
                                                               Other                                                      326,344                    184,284
                                                               Total Grant Accrual                                     $6,593,732                 $6,315,689




   NOTE 14. OTHER LIABILITIES

                                                                                           Other Liabilities as of September 30, 2013 consist of the following:

                                                                                                               Non-Current            Current           Total


                                                               Intragovernmental
                                                               Advances and Prepayments                            $266,349          $974,786     $1,241,135
                                                               Accrued Pay and Benefits                                   —            91,209         91,209
                                                               FECA Billings                                        122,814            93,682        216,496
                                                               Other Accrued Liabilities                             25,000           443,573        468,573
                                                               Total Intragovernmental                             $414,163      $1,603,250       $2,017,413


                                                               Public
                                                               Other Accrued Unbilled Payments                          $—            $40,958        $40,958
                                                               Advances and Prepayments                                   —           144,829        144,829
                                                               Accrued Pay and Benefits                              73,820           970,037      1,043,857
                                                               Deferred Credits                                           —            48,230         48,230
                                                               Legal Claims (Note16)                                      —             3,988           3,988
                                                               Capital Leases (Note 15)                              69,324             9,125         78,449
                                                               Other Custodial Liability                                  —              254             254
                                                               Other Accrued Liabilities                                  —            25,326         25,326
                                                               Total Public                                        $143,144      $1,242,747       $1,385,891




   84           U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                  FINANCIAL REPORT




NOTE 14. OTHER LIABILITIES (continued)


                                                                Other Liabilities as of September 30, 2012 consist of the following:

                                                                                    Non-Current          Current             Total


                                    Intragovernmental
                                    Advances and Prepayments                            $256,725      $1,296,796       $1,553,521
                                    Accrued Pay and Benefits                                   —         135,401          135,401
                                    FECA Billings                                        123,890           97,951         221,841
                                    Uncleared Disbursements and Collections                    —            2,868            2,868
                                    Other Accrued Liabilities                             24,410         349,295          373,705
                                    Total Intragovernmental                             $405,025      $1,882,311       $2,287,336


                                    Public
                                    Other Accrued Unbilled Payments                          $—          $27,815          $27,815
                                    Advances and Prepayments                                   —         138,837          138,837
                                    Accrued Pay and Benefits                              65,264         951,914        1,017,178
                                    Deferred Credits                                           —           47,821          47,821
                                    Legal Claims (Note 16)                                     —           34,634          34,634
                                    Capital Leases (Note 15)                              73,452            9,490          82,942
                                    Other Custodial Liability                                  —            1,179            1,179
                                    Other Accrued Liabilities                                  —           22,376          22,376
                                    Total Public                                        $138,716      $1,234,066       $1,372,782



                                    FTA received $2.75 billion from Federal Emergency Management Agency (FEMA) in
                                    FY 2003 to rebuild parts of the transit system that was destroyed during the World
                                    Trade Center attacks on September 11, 2001. The $266 million of Non-Current Intra­-
                                    governmental Governmental Advances and Prepayments is the remaining portion of
                                    those funds and is expected to be paid out as the project progresses. The current portion
                                    of the advances and prepayments for this same project is approximately $602 million.




                                                                                                                                 85
FINANCIAL REPORT




   NOTE 15. LEASES

                                                                                                                     Capital Leases as of September 30
                                                            ENTITY AS LESSEE                                           were comprised of the following:
                                                                                                                       2013                       2012


                                                            Summary of Assets Under Capital Lease by Category
                                                            Land, Buildings & Machinery                            $114,063                  $126,629
                                                            Software                                                   1,032                     1,032
                                                            Accumulated Amortization                                (43,198)                   (49,902)
                                                            Net Assets Under Capital Lease                          $71,897                   $77,759


                                                              Fiscal Year


                                                            Future Payments Due
                                                            2014                                                                                $8,925
                                                            2015                                                                                 8,892
                                                            2016                                                                                 8,639
                                                            2017                                                                                 8,639
                                                            2018                                                                                 8,640
                                                            2019+                                                                               62,013
                                                            Total Future Lease Payments                                                        105,748
                                                            Less: Imputed Interest                                                              27,299
                                                            Net Capital Lease Liability                                                        $78,449


                                                            The capital lease payments disclosed above primarily relate to FAA and are authorized
                                                            to be funded annually as codified in the United States Code - Title 49 - Section 40110(c)(1)
                                                            which addresses general procurement authority. The remaining principal payments are
                                                            recorded as unfunded lease liabilities. The imputed interest is funded and expensed
                                                            annually.


                                                            OPERATING LEASES
                                                              Fiscal Year                                        Land, Buildings, Machinery & Other


                                                            Future Payments Due
                                                            2014                                                                             $295,235
                                                            2015                                                                               276,616
                                                            2016                                                                               243,875
                                                            2017                                                                               212,003
                                                            2018                                                                               158,275
                                                            2019+                                                                              460,659
                                                            Total Future Lease Payments                                                     $1,646,663


                                                            Operating lease expenses incurred were $326 million and $325 million for the years
                                                            ended September 30, 2013 and 2012, respectively, including General Services Admin­
                                                            istration (GSA) leases that have a short termination privilege; however, DOT intends to
                                                            remain in the leases. Estimates of the lease termination dates are subjective, and any
                                                            projection of future lease payments would be arbitrary.


   86        U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                   FINANCIAL REPORT




NOTE 16. COMMITMENTS AND CONTINGENCIES


                         LEGAL CLAIMS
                         As of September 30, 2013 and 2012, DOT’s contingent liabilities, in excess of amounts
                         accrued (Note 14), for asserted and pending legal claims reasonably possible of loss
                         were estimated at $88.7 million and $117.7 million, respectively. DOT does not have
                         material amounts of known unasserted claims. As of September 30, 2013 and 2012,
                         DOT’s contingent liabilities for asserted and pending legal claims with a probable loss
                         were estimated at $4 million and $35 million, respectively.


                         GRANT PROGRAMS
                         FHWA pre-authorizes States to establish construction budgets without having received
                         appropriations from Congress for such projects. FHWA has authority to approve projects
                         using advance construction under 23 U.S.C. 115(a). FHWA does not guarantee the ulti-
                         mate funding to the States for these “Advance Construction” projects and, accordingly,
                         does not obligate any funds for these projects. When funding becomes available to
                         FHWA, the States can then apply for reimbursement of costs that they have incurred
                         on such projects, at which time FHWA can accept or reject such requests. For the periods
                         ended September 30, 2013 and 2012, FHWA has pre-authorized $45.9 billion and
                         $44.3 billion each under these arrangements. These commitments have not been recog­-
                         nized in the DOT consolidated financial statements at September 30, 2013 and 2012.

                         FTA executes Full Funding Grant Agreements (FFGAs) under its Capital Investment
                         Program (New Starts) authorizing transit authorities to establish project budgets and
                         incur costs with their own funds in advance of Congress appropriating New Starts
                         funds to the project. As of September 30, 2013 and September 30, 2012, FTA had
                         approximately $1.86 billion and $1.96 billion respectively, in funding commitments
                         under FFGAs, which Congress had not yet appropriated. Congress must first provide
                         the budget authority (appropriations) to allow FTA to incur obligations for these pro­-
                         grams. Until Congress appropriates funds, FTA is not liable to grantees for any costs
                         incurred. There is no liability related to these commitments reflected in the DOT consoli­-
                         dated financial statements at September 30, 2013 and 2012.

                         FAA’s Airport Improvement Program provides grants for the planning and develop-
                         ment of public-use airports that are included in the National Plan of Integrated Airport
                         Systems. Eligible projects generally include improvements related to enhancing airport
                         safety, capacity, security and environmental concerns. FAA’s share of eligible costs for
                         large and medium primary hub airports is 75 percent with the exception of noise pro­
                         gram implementation, which is 80 percent of the eligible costs. For remaining airports
                         (small primary, reliever, and general aviation airports), FAA’s share is 95 percent of the
                         eligible costs.

                         FAA has authority under 49 U.S.C. 47110(e) to issue letters of intent to enter into
                         a series of annual Airport Improvement Program grant agreements. FAA records an
                         obligation when a grant is awarded. As of September 30, 2013, FAA had letters of
                         intent extending through FY 2028 totaling $7.4 billion. As of September 30, 2013,
                         FAA had obligated $6.0 billion of this total amount leaving $1.4 billion unobligated.
                         As of September 30, 2012, FAA had letters of intent extending through FY 2028 total­-
                         ing $7.4 billion. As of September 30, 2012, FAA had obligated $5.8 billion of this total
                         amount, leaving $1.6 billion unobligated.


                                                                                                                  87
FINANCIAL REPORT




   NOTE 16. COMMITMENTS AND CONTINGENCIES (continued)


                                                            AVIATION INSURANCE PROGRAM
                                                            FAA is authorized to issue hull and liability insurance under the Aviation Insurance
                                                            Program for air carrier operations for which commercial insurance is not available
                                                            on reasonable terms and when continuation of U.S. flag commercial air service is
                                                            necessary in the interest of air commerce, national security, and the foreign policy of
                                                            the United States. FAA may issue non-premium insurance and premium insurance for
                                                            which a risk-based premium is charged to the air carrier, to the extent practical.

                                                            During FY 2013, FAA provided premium war-risk insurance to 49 airlines. For these
                                                            airlines, combined hull and liability per occurrence coverage limits range from $100
                                                            million to $4 billion. FAA also provided non-premium war-risk insurance to 37 carriers
                                                            with 2,068 aircraft for Department of Defense charter operations for Central Command.

                                                            As of September 30, 2013, there are pending aviation insurance claims in the amount
                                                            of $3 million. There is approximately $2.0 billion available in the Aviation Insurance
                                                            Revolving Fund to pay claims to carriers covered by premium insurance. If premium
                                                            insurance claims should exceed that amount, additional funding could be appropri-
                                                            ated from the General Fund. The Department of Defense and State Department have
                                                            agreed to pay claims to the carriers covered by non-premium insurance.


                                                            MARINE WAR RISK INSURANCE PROGRAM
                                                            MARAD is authorized to issue hull and liability insurance under the Marine War Risk
                                                            Insurance Program for vessel operations for which commercial insurance is not avail­-
                                                            able on reasonable terms and conditions, when the vessel is considered to be in the
                                                            interest of national defense or national economy of the United States. MARAD may
                                                            issue (1) premium based insurance for which a risk based premium is charged and
                                                            (2) non-premium insurance for vessels under charter operations for the Military Sealift
                                                            Command.

                                                            During FY 2013, MARAD wrote non-premium war risk insurance with a total coverage
                                                            of $463.7 million for six companies on six vessels and the coverage ranges from $64
                                                            million to $83 million to cover hull liability and vessel’s crew. During FY 2012, MARAD
                                                            wrote non-premium war risk insurance with a total coverage of $448.5 million for six
                                                            companies on six vessels and the coverage ranges from $64 million to $83 million to
                                                            cover hull liability and vessel’s crew. The Department of Defense has fully indemnified
                                                            MARAD for any losses arising out of the non-premium insurance. There have been no
                                                            losses and no claims are outstanding for this non-premium insurance. There is approx­-
                                                            imately $47 million in the Marine War Risk Insurance fund to reimburse operators
                                                            that may be covered by premium insurance in future periods. MARAD has not issued
                                                            premium War Risk Insurance in approximately 20 years. MARAD would have to
                                                            request Presidential authority to write any premium insurance and no such request
                                                            is pending at this time.




   88        U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                       FINANCIAL REPORT




NOTE 16. COMMITMENTS AND CONTINGENCIES (continued)


                               ENVIRONMENTAL LIABILITIES
                               As of September 30, 2013, FAA has estimated contingent liabilities, categorized as
                               reasonably possible of $165.2 million related to environmental remediation. Contin-
                               gency costs are defined for environmental liabilities as those costs that may result from
                               incomplete design, unforeseen and unpredictable conditions or uncertainties within a
                               defined project scope.


                               NATIONAL RAILROAD PASSENGER SERVICE CORPORATION (AMTRAK)
                               The United States and the Department are not at risk if Amtrak fails and they do not
                               guarantee the indebtedness of Amtrak, whose debt is secured primarily by assets of the
                               corporation. Amtrak has been operating with an accumulated deficit and is dependent
                               upon appropriations from Congress to continue operations. Amtrak has been receiving
                               Federal funds from Congress through the Department since approximately 1972. For
                               FY 2013 and 2012, the Department issued grants to Amtrak for $1.6 billion and $1.7
                               billion, respectively. These grants were for both operating and capital improvements.
                               Refer to Note 1W (Significant Accounting Policies) for additional information.

                               The Passenger Rail Investment and Improvement Act of 2008 (PRIIA) stipulated that
                               the United States Department of Treasury (“Treasury”) in consultation with DOT and
                               Amtrak, may make agreements to restructure (including repay) Amtrak’s indebtedness,
                               including leases, outstanding as of the date of enactment of PRIIA. Under this provision,
                               Treasury and DOT entered into a Memorandum of Understanding (MOU) consulted
                               and acknowledged by Amtrak, to restructure and enable Amtrak to exercise certain
                               early buyout options on selected Amtrak leases.


                               LAPSE IN GOVERNMENT APPROPRIATIONS
                               Due to a lapse in government appropriations from October 1 to October 16, 2013,
                               DOT experienced limited furloughs for its employees. The ESC, FHWA, FMCSA and
                               the WCF were not impacted by the furlough and continued to work. Due to the work
                               stoppage, certain contracts may need modification to extend the period of performance
                               and possibly increase the value of the contracts. DOT is still assessing the monetary
                               impact of these contracts.

                               Additional commitments are discussed in Note 6-Direct Loans and Loan Guarantees,
                               Non-Federal Borrowers-and Note 15-Leases.




                                                                                                                      89
FINANCIAL REPORT




   NOTE 17. FUNDS FROM DEDICATED COLLECTIONS

                                                            DOT administers certain dedicated collections, which are specifically identified
                                                            revenues, often supplemented by other financing sources, that remain available over
                                                            time. Descriptions of the significant dedicated collections are as follows:


                                                            HIGHWAY TRUST FUND
                                                            The Highway Trust Fund (HTF) is comprised of the Highway Corpus Trust Fund and
                                                            certain accounts of the FHWA, FMCSA, FTA, FRA and NHTSA. The HTF was created
                                                            in 1956 by the Highway Revenue Act of 1956 with the main objective of funding the
                                                            construction of the Dwight D. Eisenhower System of Interstate and Defense Highways.
                                                            Over the years, the use of the fund has been expanded to include mass transit and
                                                            other surface transportation programs such as highway safety and motor carrier safety
                                                            programs. Overall, there are 76 separate treasury symbols in the HTF.

                                                            HTF’s programs and activities are primarily financed from excise taxes collected on
                                                            specific motor fuels, truck taxes, and fines and penalties. The Highway Revenue Act
                                                            of 1982 established two accounts within the HTF, the Highway Account and the Mass
                                                            Transit Account.


                                                            MASS TRANSIT ACCOUNT
                                                            In FY 2005 and prior, FTA’s formula and bus grant programs were funded 80 percent
                                                            by certain excise tax revenues and 20 percent from the Treasury general receipts
                                                            account. These funds are considered dedicated collections but not reported as part of
                                                            the HTF.

                                                            Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users
                                                            (SAFETEA-LU) legislation (PL 109-59) changed the way FTA programs are funded.
                                                            Beginning in FY 2006, the FTA formula and bus grant programs are funded 100
                                                            percent by the HTF. On July 6, 2012, the President signed PL112-141 Moving Ahead
                                                            for the Programs in the 21st Century (MAP-21) which provides current SAFETEA-LU
                                                            programs and funding through September 30, 2013.


                                                            AIRPORT AND AIRWAY TRUST FUND
                                                            The Airport and Airway Trust Fund (AATF) was authorized by the Airport and Airway
                                                            Revenue Act of 1970 to provide funding for the Federal commitment to the nation’s
                                                            aviation system.

                                                            Funding currently comes from several aviation related excise tax collections from
                                                            passenger tickets, passenger flight segments, international arrivals/departures, cargo
                                                            waybills and aviation fuels.




   90        U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                      FINANCIAL REPORT




NOTE 17. FUNDS FROM DEDICATED COLLECTIONS (continued)


                                The following is a list of other funds from dedicated collections for which DOT has
                                program management responsibility:


                                OTHER DEDICATED COLLECTIONS
                                   •	   Aviation Insurance Revolving Fund
                                   •	   Pipeline Safety
                                   •	   Emergency Preparedness Grant
                                   •	   Aviation User Fees
                                   •	   Aviation Operations
                                   •	   Grants-in-Aid for Airports
                                   •	   Aviation Facilities and Equipment
                                   •	   Aviation Research, Engineering and Development
                                   •	   Essential Air Service and Rural Airport Improvement Fund
                                   •	   University Transportation Centers
                                   •	   Contributions for Highway Research Program
                                   •	   Cooperative Work, Forest Highways
                                   •	   Safety of Cross-Border Trucking Between the United States and Mexico
                                   •	   Payment to Air Carriers
                                   •	   Right of Way Revolving Fund Program Account
                                   •	   Alaska Pipeline Task Force, Oil Spill Liability Trust Fund
                                   •	   Right-of-Way Revolving Fund Trust Fund
                                   •	   Technical Assistance, United States Dollars Advanced from Foreign Governments
                                   •	   Gifts and Bequests, Maritime Administration
                                   •	   Special Studies, Services and Projects
                                   •	   Gifts and Bequests, DOT Office of the Secretary
                                   •	   Equipment, Supplies, etc., for Cooperating Countries

                                For the periods ended September 30, 2013 and 2012, respectively, funds from ded-
                                icated collections are summarized in the following charts. Intra-agency transactions
                                have not been eliminated in the amounts presented.




                                                                                                                       91
FINANCIAL REPORT




   NOTE 17. FUNDS FROM DEDICATED COLLECTIONS (continued)


                                                                                                                           Other           Total
                                                                                              Airport &               Funds from     Funds from
                                                                               Highway          Airway      Mass       Dedicated      Dedicated
                                                                             Trust Fund     Trust Fund     Transit    Collections    Collections


   Balance Sheet                                                                                                         as of September 30, 2013
   Assets
     Fund Balance With Treasury                                               $4,305,483      $964,255    $376,918     $2,340,818     $7,987,474
     Investments, Net                                                          1,956,740     11,855,481         —       2,008,735     15,820,956
     Accounts Receivable, Net                                                     19,351             —         809      4,565,171      4,585,331
     Property, Plant & Equipment                                                160,950              —          —       2,668,415      2,829,365
     Other                                                                      187,150              —         733        258,503        446,386
   Total Assets                                                               $6,629,674    $12,819,736   $378,460    $11,841,642    $31,669,512

   Liabilities and Net Position
     Accounts Payable                                                           $46,071      $4,444,060       $—        $376,243      $4,866,374
     FECA Liabilities                                                             27,771             —          —       1,174,294      1,202,065
     Grant Accrual                                                             5,022,883             —      14,320        772,822      5,810,025
     Other Liabilities                                                          200,186              —       1,445      1,093,843      1,295,474
     Unexpended Appropriations                                                        —              —      11,656        939,399        951,055
     Cumulative Results of Operations                                          1,332,763      8,375,676    351,039      7,485,041     17,544,519
   Total Liabilities and Net Position                                         $6,629,674    $12,819,736   $378,460    $11,841,642    $31,669,512


   Statement of Net Cost                                                                                   for the period ended September 30, 2013
   Program Costs                                                             $51,316,262           $—     $151,209    $15,487,742    $66,955,213
   Less Earned Revenue                                                          165,853              —       1,652        629,290        796,795
   Net Program Costs                                                          51,150,409             —     149,557     14,858,452     66,158,418
   Costs Not Attributable to Programs                                                 —              —          —         242,758        242,758
   Net Cost of Operations                                                    $51,150,409           $—     $149,557    $15,101,210    $66,401,176


   Statement of Changes in Net Position                                                                    for the period ended September 30, 2013
   Beginning Net Position                                                    $10,069,034     $6,384,206   $526,960     $9,897,209    $26,877,409
   Budgetary Financing Sources                                                42,351,313      1,991,470    (14,708)    15,432,849     59,760,924
   Other Financing Sources                                                        62,825             —          —      (1,804,408)    (1,741,583)
   Net Cost of Operations                                                     51,150,409             —     149,557     15,101,210     66,401,176
   Change in Net Position                                                     (8,736,271)     1,991,470   (164,265)    (1,472,769)    (8,381,835)
   Net Position End of Period                                                 $1,332,763     $8,375,676   $362,695     $8,424,440    $18,495,574




   92             U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                              FINANCIAL REPORT




NOTE 17. FUNDS FROM DEDICATED COLLECTIONS (continued)


                                                                                        Other           Total
                                                           Airport &               Funds from     Funds from
                                             Highway         Airway      Mass       Dedicated      Dedicated
                                           Trust Fund    Trust Fund     Transit    Collections    Collections


Balance Sheet                                                                         as of September 30, 2012

Assets
  Fund Balance With Treasury               $4,954,662      $442,965    $546,897     $2,596,036     $8,540,560
  Investments, Net                          9,970,201     10,473,786         —       1,886,665     22,330,652
  Accounts Receivable, Net                     17,391             —         809      4,660,338      4,678,538
  Property, Plant & Equipment                162,686              —          —       3,721,693      3,884,379
  Other                                      271,608              —         766        285,616        557,990
Total Assets                              $15,376,548    $10,916,751   $548,472    $13,150,348    $39,992,119

Liabilities and Net Position
  AATF Amounts Due to FAA                    $88,441      $4,532,545       $—        $416,722       5,037,708
  FECA Liabilities                             27,943             —          —       1,152,896      1,180,839
  Grant Accrual                             4,976,013             —      20,067        640,646      5,636,726
  Other Liabilities                          215,117              —       1,445      1,042,875      1,259,437
  Unexpended Appropriations                        —              —      38,446      1,070,483      1,108,929
  Cumulative Results of Operations         10,069,034      6,384,206    488,514      8,826,726     25,768,480
Total Liabilities and Net Position        $15,376,548    $10,916,751   $548,472    $13,150,348    $39,992,119


Statement of Net Cost                                                   for the period ended September 30, 2012
Program Costs                             $49,731,576           $—     $164,208    $15,327,141    $65,222,925
Less Earned Revenue                          131,146              —          —         638,791        769,937
Net Program Costs                          49,600,430             —     164,208     14,688,350     64,452,988
Costs Not Attributable to Programs                 —              —          —         196,345        196,345
Net Cost of Operations                    $49,600,430           $—     $164,208    $14,884,695    $64,649,333


Statement of Changes in Net Position                                    for the period ended September 30, 2012
Beginning Net Position                    $16,964,550     $5,092,201   $690,431     $9,213,093    $31,960,275
Budgetary Financing Sources                42,646,717      1,292,005        737     16,029,630     59,969,089
Other Financing Sources                        58,197             —          —        (460,819)      (402,622)
Net Cost of Operations                     49,600,430             —     164,208     14,884,695     64,649,333
Change in Net Position                     (6,895,516)     1,292,005   (163,471)       684,116     (5,082,866)
Net Position End of Period                $10,069,034     $6,384,206   $526,960     $9,897,209    $26,877,409




                                                                                                            93
FINANCIAL REPORT




   NOTE 18. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUES


                                                                              Intragovernmental Costs and Exchange Revenues for the fiscal year ended
                                                                                                          September 30, 2013 consist of the following:

                                                                                                                Intra-      With the
                                                                                                         governmental        Public            Total


                                                            Surface Transportation

                                                            Federal-Aid Highway Program
                                                                Gross Costs                                  $191,911    $41,597,928    $41,789,839
                                                                Less Earned Revenue                            23,860         39,298          63,158
                                                            Net Program Costs                                 168,051     41,558,630      41,726,681

                                                            Mass Transit Program
                                                                Gross Costs                                    39,005     11,719,276      11,758,281
                                                                Less Earned Revenue                           305,107            939         306,046
                                                            Net Program Costs                                (266,102)    11,718,337      11,452,235

                                                            Other Surface Transportation Programs
                                                                Gross Costs                                   505,716      6,634,859       7,140,575
                                                                Less Earned Revenue                           152,198        384,914         537,112
                                                            Net Program Costs                                 353,518      6,249,945       6,603,463
                                                            Total Surface Transportation Program Costs        255,467     59,526,912      59,782,379


                                                            Air Transportation
                                                                Gross Costs                                  2,621,816    14,123,475      16,745,291
                                                                Less Earned Revenue                           257,142        403,582         660,724
                                                            Net Program Costs                                2,364,674    13,719,893      16,084,567


                                                            Maritime Transportation
                                                                Gross Costs                                    42,514        683,681         726,195
                                                                Less Earned Revenue                           351,565         36,939         388,504
                                                            Net Program Costs                                (309,051)       646,742         337,691


                                                            Cross-Cutting Programs
                                                                Gross Costs                                    67,983        588,037         656,020
                                                                Less Earned Revenue                           259,218          3,551         262,769
                                                            Net Program Costs                                (191,235)       584,486         393,251

                                                            Costs Not Assigned to Programs                     51,430        385,366         436,796
                                                            Less: Earned Revenues Not Attributed                  500           (146)            354
                                                              to Programs
                                                            Net Cost of Operations                          $2,170,785   $74,863,545    $77,034,330




   94        U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                       FINANCIAL REPORT




NOTE 18. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUES (continued)


                                                Intragovernmental Costs and Exchange Revenues for the fiscal year ended
                                                                            September 30, 2012 consist of the following:

                                                                                   Intra-      With the
                                                                            governmental        Public           Total


                               Surface Transportation

                               Federal-Aid Highway Program
                                 Gross Costs                                    $159,178    $39,992,665    $40,151,843
                                 Less Earned Revenue                              35,555        50,769          86,324
                               Net Program Costs                                 123,623     39,941,896     40,065,519

                               Mass Transit Program
                                 Gross Costs                                      37,034     12,032,237     12,069,271
                                 Less Earned Revenue                             366,209            640        366,849
                               Net Program Costs                                (329,175)    12,031,597     11,702,422

                               Other Surface Transportation Programs
                                 Gross Costs                                     402,540      8,365,153      8,767,693
                                 Less Earned Revenue                             376,458       396,478         772,936
                               Net Program Costs                                  26,082      7,968,675      7,994,757

                               Total Surface Transportation Program Costs       (179,470)    59,942,168     59,762,698


                               Air Transportation
                                 Gross Costs                                    2,605,520    14,026,980     16,632,500
                                 Less Earned Revenue                             258,871       369,296         628,167
                               Net Program Costs                                2,346,649    13,657,684     16,004,333


                               Maritime Transportation
                                 Gross Costs                                     174,211       711,907         886,118
                                 Less Earned Revenue                             352,093        40,506         392,599
                               Net Program Costs                                (177,882)      671,401         493,519


                               Cross-Cutting Programs
                                 Gross Costs                                      56,674       590,653         647,327
                                 Less Earned Revenue                             251,386          4,483        255,869
                               Net Program Costs                                (194,712)      586,170         391,458

                               Cost Not Assigned to a Program                     49,566       346,492         396,058
                               Less: Earned Revenues Not Attributed               15,755         (4,242)        11,513
                                 to Programs
                               Net Cost of Operations                          $1,828,396   $75,208,157    $77,036,553




                                                                                                                     95
FINANCIAL REPORT




   NOTE 19. EXCISE TAXES AND OTHER NON-EXCHANGE REVENUE

                                                            The Internal Revenue Service (IRS) collects various excise taxes that are deposited
                                                            into the Highway Trust Fund (HTF) and the Airport and Airway Trust Fund (AATF).
                                                            OTA estimates the amount collected/revenue recognized monthly, and adjusts the
                                                            estimates to reflect actual collections quarterly. The IRS submits certificates of actual
                                                            tax collections to DOT three months after the quarter-end and, accordingly, the DOT
                                                            financial statements include actual excise tax revenue certified through June 30, 2013
                                                            and excise tax revenue estimates for the quarter ended September 30, 2013. As a
                                                            result, total taxes recognized in the DOT fiscal year 2013 financial statements include
                                                            the OTA estimate of $12.0 billion for the quarter ended September 30, 2013 and the
                                                            actual amounts certified through June 30, 2013 of $37.4 billion. The total taxes recog-
                                                            nized for the fiscal years ended September 30, 2012 and 2011 include OTA estimates
                                                            which are certified by the IRS in January of the subsequent fiscal years, as follows:

                                                                                                       September 30, 2012      September 30, 2011
                                                            Actual                                               13,630,316              12,923,016
                                                            Estimate                                             13,914,153              11,618,526
                                                            Under (Over) Accrual                                  (283,837)               1,304,490


                                                            For the fiscal years ended September 30, 2013 and 2012, respectively, Excise Taxes
                                                            and associated nonexchange revenue, which are reported on the Statement of Changes
                                                            in Net Position, were as follows:

                                                            NON-EXCHANGE REVENUE
                                                                                                       September 30, 2013       September 30, 2012


                                                            Highway Trust Fund

                                                            Excise Taxes and Other Non-Exchange
                                                              Revenue
                                                               Gasoline                                        $23,462,805              $25,529,900
                                                               Diesel and Special Motor Fuels                     9,468,623               9,796,891
                                                               Trucks                                             4,647,322               5,994,309
                                                               Investment Income                                      6,366                   7,228
                                                               Fines and Penalties                                   15,454                  22,103
                                                            Total Taxes                                          37,600,570              41,350,431
                                                            Less: Transfers                                      (1,130,945)             (1,174,706)
                                                            Net Highway Trust Fund Excise Taxes                  36,469,625              40,175,725

                                                               Other Non-Exchange Revenue                                59                      97
                                                            Net Highway Trust Fund Excise Taxes &                36,469,684              40,175,822
                                                             Other Non-Exchange Revenue




   96        U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                FINANCIAL REPORT




NOTE 19. EXCISE TAXES AND OTHER NON-EXCHANGE REVENUE (continued)


                                NON-EXCHANGE REVENUE (continued)
                                                                       September 30, 2013    September 30, 2012


                                Federal Aviation Administration

                                Excise Taxes and Other Non-Exchange
                                  Revenue
                                 Passenger Ticket                               8,769,362             8,711,445
                                 International Departure                        2,911,287             2,728,594
                                 Fuel (Air)                                      572,289               622,794
                                 Waybill                                         618,896               491,845
                                 Investment Income                               233,555               244,912
                                 Tax Refunds and Credits                          (18,274)              (22,464)
                                 Other                                             34,475                24,460
                                Net Federal Aviation Administration            13,121,590            12,801,586
                                 Excise Taxes & Other Non-Exchange
                                 Revenue
                                Other Miscellaneous Net Non-Exchange
                                  Revenue                                        107,630                 79,168
                                Total Non-Exchange Revenue                    $49,698,904           $53,056,576




                                                                                                              97
FINANCIAL REPORT




   NOTE 20. COMBINED STATEMENT OF BUDGETARY RESOURCES

                                                               The amount of direct and reimbursable obligations incurred against amounts appor-
                                                               tioned under Category A, B and Exempt from apportionment, as defined in OMB
                                                               Circular A-11, Part 4, Instructions on Budget Execution, are as follows:

                                                                                                    2013                                                           2012

                                                       Direct        Reimbursable                   Total              Direct      Reimbursable                    Total
   Category A                                    $6,201,872                 $506,291         $6,708,163           $6,706,233             $800,786           $7,507,019
   Category B                                    82,388,519                 1,435,568        83,824,087           76,800,423            1,923,743           78,724,166
   Exempt From Apportionment                           42,607                290,207            332,814                48,735              274,826              323,561
   Total                                       $88,632,998                 $2,232,066      $90,865,064          $83,555,391            $2,999,355          $86,554,746



                                                                                                                                            2013                   2012
                                                               Available Contract Authority at Year-End                            $22,065,228             $23,391,628
                                                               Available Borrowing Authority at Year-End                             $2,295,600             $1,734,768
                                                               Undelivered Orders at Year-End(1)                                  $106,220,153           $108,814,519
                                                                 The amounts reported for undelivered orders only include balances for goods and services not delivered
                                                               (1)

                                                               and does not include prepayments.




                                                               TERMS OF BORROWING AUTHORITY USED
                                                               Under the provisions of the Federal Credit Reform Act of 1990, DOT’s direct loan and
                                                               loan guarantee programs are authorized to borrow funds from Treasury to support its
                                                               credit programs. All loan draw downs are dated October 1 of the applicable fiscal year.
                                                               Interest is payable at the end of each fiscal year based on activity for that fiscal year.
                                                               Principal can be repaid at any time funds become available. Repayment is effectuated
                                                               by a combination of loan recoveries and upward re-estimates.


                                                               EXISTENCE, PURPOSE, AND AVAILABILITY OF PERMANENT
                                                               INDEFINITE APPROPRIATIONS
                                                               DOT has permanent indefinite budgetary authority for use in their credit programs,
                                                               that is provided from and more details are available in the Federal Credit Reform Act
                                                               of 1990. This funding is available for reestimates and interest on reestimates. DOT’s
                                                               credit programs are explained in detail in Note 6.


                                                               UNOBLIGATED BUDGETARY RESOURCES
                                                               Unobligated balances of budgetary resources for unexpired accounts are available
                                                               in subsequent years until expiration, upon receipt of an apportionment from OMB.
                                                               Unobligated balances of expired accounts are not available. Unobligated balances of
                                                               budgetary resources that are unapportioned primarily represent contract authority
                                                               which has no limitation and are not available for obligation.




   98           U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                   FINANCIAL REPORT




NOTE 20. COMBINED STATEMENT OF BUDGETARY RESOURCES (continued)


                                            STATEMENT OF BUDGETARY RESOURCES VS. BUDGET OF THE UNITED
                                            STATES GOVERNMENT
                                            The reconciliation for the year ended September 30, 2012 is presented below. The
                                            reconciliation for the fiscal year ended September 30, 2013 is not presented, because
                                            the submission of the Budget of the United States (Budget) for FY 2015, which presents
                                            the execution of the FY 2013 budget, occurs after publication of these financial state­-
                                            ments. The U.S. Department of Transportation Budget Appendix can be found on
                                            the OMB website (http://www.gpoaccess.gov/usbudget) and will be available in early
                                            February 2014.

                                                                                                     Distributed
                                                              Budgetary          Obligations          Offsetting
Dollars in Millions                                           Resources            Incurred            Receipts        Net Outlays
Combined Statement of Budgetary Resources                       $134,107             $86,555            $(2,739)           $75,974

Funds Not Reported in the Budget
 Expired Funds                                                       (639)                (5)                 —                  —
 Undelivered Orders Adjustment                                     (1,400)            (1,400)
 Distributed Offsetting Receipts                                       —                  —               2,739               2,739

Other                                                                 (64)               (37)                 —                   1
Budget of the United States Government                          $132,004             $85,113                $—             $78,714



                                            Other differences represent financial statement adjustments, timing differences and
                                            other immaterial differences between amounts reported in the Department’s Statement
                                            of Budgetary Resources and the Budget of the United States Government.

                                            The Undelivered Orders Adjustment of $1.4 billion is caused by a reversal of an adjust­-
                                            ment recorded at the end of FY 2011.




                                                                                                                                  99
FINANCIAL REPORT




   NOTE 21. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

                                                                The objective of this information is to provide an explanation of the differences
                                                                between budgetary and financial (proprietary) accounting. This is accomplished
                                                                by means of a reconciliation of budgetary obligations and non-budgetary resources
                                                                available to the reporting entity with its net cost of operations.

                                                                                                                                 2013           2012


   Resources Used To Finance Activities
   Budgetary Resources Obligated
     Obligations Incurred                                                                                                 $90,865,064    $86,554,746
     Less: Spending Authority From Offsetting Collections, Recoveries and Other Changes to Obligated Balances               8,884,243      9,200,514
     Obligations Net of Offsetting Collections and Recoveries                                                              81,980,821     77,354,232
     Less: Distributed Offsetting Receipts                                                                                 (6,220,753)    (2,738,974)
   Net Obligations                                                                                                         75,760,068     74,615,258
   Other Resources
     Donations and Forfeitures of Property                                                                                     78,599       158,117
     Transfers in/out Without Reimbursement                                                                                   107,172         96,186
     Imputed Financing From Costs Absorbed by Others                                                                          693,558       641,782
     Other                                                                                                                   (369,902)     (152,944)
   Net Other Resources Used To Finance Activities                                                                             509,427       743,141
   Total Resources Used To Finance Activities                                                                              76,269,495     75,358,399


   Resources Used To Finance Items Not Part of the Net Cost of Operations
     Change in Budgetary Resources Obligated for Goods, Services and Benefits Ordered but not yet Provided                 (2,710,345)     (735,543)
     Resources That Fund Expenses Recognized in Prior Periods                                                                 275,741       263,392
     Credit Program Collections That Increase Liabilities for Loan Guarantees or Allowances for Subsidy                      (459,718)     (466,944)
     Other/Change in Unfilled Customer Orders                                                                                 142,518       508,098
     Special Transfers From the U.S. Treasury                                                                              (5,883,800)    (2,471,408)
     Resources That Finance the Acquisition of Assets                                                                       3,592,394      3,059,374
     Other Resources or Adjustments to Net Obligated Resources That Do Not Affect Net Cost of Operations                    6,051,271      (168,516)
   Total Resources Used To Finance Items Not Part of the Net Cost of Operations                                             1,008,061       (11,547)
   Total Resources Used To Finance the Net Cost of Operations                                                              75,261,434     75,369,946




  100            U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                    FINANCIAL REPORT




NOTE 21. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET (continued)


                                                                                                                 2013          2012


Components of the Net Cost of Operations That Will Not Require or Generate Resources in the Current Period

Components Requiring or Generating Resources in Future Periods
 Increase in Annual Leave Liability                                                                              $829       $99,959
 Increase in Environment and Disposal Liability                                                                    —         53,010
 Upward/Downward Reestimates of Credit Subsidy Expense                                                       (119,992)         6,257
 Change in Exchange Revenue Receivable From the Public                                                         (3,726)        (1,005)
 Change in Other Liabilities                                                                                  230,473       160,217
Total Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods          107,584       318,438

Components Not Requiring or Generating Resources
  Depreciation and Amortization                                                                              1,341,059     1,217,178
  Revaluation of Assets or Liabilities                                                                        (39,884)         7,907
  Other Expenses and Adjustments Not Otherwise Classified Above                                               364,137       123,085
Total Components of Net Cost of Operations That Will Not Require or Generate Resources                       1,665,312     1,348,170
Total Components of Net Cost of Operations That Will Not Require or Generate Resources in the
  Current Period                                                                                             1,772,896     1,666,608
Net Cost of Operations                                                                                   $77,034,330     $77,036,553




                                                                                                                                  101
FINANCIAL REPORT




   NOTE 22. FIDUCIARY ACTIVITIES

                                                            The Title XI Escrow Fund was authorized pursuant to the Merchant Marine Act of
                                                            1936, as amended. The fund was originally established to hold guaranteed loan
                                                            proceeds pending construction of MARAD approved and financed vessels.

                                                            The Act was recently amended to allow the deposit of additional cash security items
                                                            such as reserve funds or debt reserve funds. Individual shipowners provide funds
                                                            to serve as security on MARAD guaranteed loans. Funds deposited and invested
                                                            by MARAD remain the property of individual shipowners. In the event of default,
                                                            MARAD will use the escrow funds to offset the shipowners’ debt to the Government.

                                                            Fund investments are limited to U.S. Government securities purchased by MARAD
                                                            through the Treasury.

                                                            SCHEDULE OF FIDUCIARY ACTIVITY                        For the year ended September 30
                                                                                                                         2013                2012
                                                            Fiduciary Net Assets, Beginning of Year                  $354,106             $18,845
                                                            Contributions                                                 305             593,976
                                                            Investment Earnings                                            91                 242
                                                            Disbursements to and on Behalf of Beneficiaries          (224,319)           (258,957)

                                                            Increases/(Decreases) in Fiduciary Net Assets            (223,923)            335,261

                                                            Fiduciary Net Assets, End of Year                        $130,183            $354,106



                                                            FIDUCIARY NET ASSETS                                                 As of September 30
                                                                                                                         2013                2012
                                                            Fiduciary Fund Balance With Treasury                         $291                $291
                                                            Investments in Treasury Securities                        129,892             353,815
                                                            Total Fiduciary Net Assets                               $130,183            $354,106




  102        U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                                    FINANCIAL REPORT




REQUIRED SUPPLEMENTARY INFORMATION (RSI)


DEFERRED MAINTENANCE (Unaudited)                                                                               For the Periods Ended September 30
                                                                                                                  2013 Cost To         2012 Cost To
                                                                                                                     Return to            Return to
 DOT                                                                                               Asset           Acceptable           Acceptable
 Entity       Major Class of Asset                Method of Measurement                        Condition*          Condition**          Condition**
FAA           Buildings                           Condition Assessment Survey                         4&5               $89,183                 $56,166
              Other Structures and Facilities     Condition Assessment Survey                         4&5               413,297                 243,295
MARAD         Vessels, Ready Reserve Force        Condition Assessment Survey                              2               3,936                 12,521
              (Various Locations)
              Real Property, Structure U.S.       Condition Assessment Survey                              1                   10                    —
              Merchant Marine Academy, NY
              Real Property, Structure U.S.       Condition Assessment Survey                         2&3                 24,640                 16,110
              Merchant Marine Academy, NY
              Real Property, Structure U.S.       Condition Assessment Survey                         4&5                 48,100                 64,750
              Merchant Marine Academy, NY
              Other (Fleet Craft)                 Condition Assessment Survey                              2              26,902                     —
              Other (Fleet Craft)                 Condition Assessment Survey                              3                   —                 11,350
Total                                                                                                                  $606,068             $404,192




*Asset Condition Rating Scale                   **Acceptable Condition Is

1—Excellent                                     FAA Buildings                              3—Fair
2—Good
                                                FAA Other Structures and Facilities        3—Fair
3—Fair
4—Poor                                          MARAD Vessels, Ready Reserve Force         1—Excellent	 Ships are seaworthy and ready for
5—Very Poor                                                                                             mission assignments within prescribed
                                                                                                        time limits.
                                                MARAD Real Property, Buildings             3—Fair	          Buildings are safe and habitable.
                                                MARAD Real Property, Structures            3—Fair	          Adequate water depth, shore power,
                                                                                                            and mooring capabilities.

                                                                                           4—Poor	          Structure needs major repairs. The
                                                                                                            majority of the components are
                                                                                                            marginally functional or jeopardized.

                                                                                           5—Very Poor	 Age and/or condition is such that the
                                                                                                        item should be replaced or undergo
                                                                                                        major renovation. Structure is not safe
                                                                                                        and is inhabitable.


                                                Deferred Maintenance is maintenance that was not performed when it should have
                                                been or was scheduled to be performed and delayed until a future period. Mainte-
                                                nance is the act of keeping fixed assets in acceptable condition, and includes preven-
                                                tative maintenance, normal repairs, replacement of parts and structural components,
                                                and other activities needed to preserve assets in a condition to provide acceptable
                                                service and to achieve expected useful lives.




                                                                                      AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 201 3        103
FINANCIAL REPORT




   REQUIRED SUPPLEMENTARY INFORMATION (RSI) (continued)

                                                                                                                                          For the period ended
   COMBINING STATEMENTS OF BUDGETARY RESOURCES BY MAJOR ACCOUNT (Unaudited)                                                               September 30, 2013

    Dollars in Thousands                                                      Federal-Aid         FAA           FTA      MARAD        All Other         Total


   Budgetary Resources
   Unobligated Balance, Brought Forward, October 1                            $30,017,656   $3,519,678 $10,055,116      $586,682     $3,373,401   $47,552,533
   Recoveries of Prior Year Unpaid Obligations                                         —       373,663       91,161       45,265       535,849      1,045,938
   Other Changes in Unobligated Balance                                            21,012      (85,116)     (47,331)       (2,854)     (27,877)      (142,166)
   Unobligated Balance From Prior Year Budget                                  30,038,668    3,808,225    10,098,946     629,093      3,881,373    48,456,305
    Authority, Net
   Appropriations                                                                      —    11,924,500    12,307,834     339,064     11,061,273    35,632,671
   Borrowing Authority                                                                 —            —             —       46,532      2,249,068     2,295,600
   Contract Authority                                                          38,776,167    3,343,300     9,890,360     (10,746)     1,367,502    53,366,583
   Spending Authority From Offsetting Collections                                379,904     5,910,887       23,852      415,565      1,097,377     7,827,585
   Total Budgetary Resources                                                  $69,194,739 $24,986,912 $32,320,992      $1,419,508    19,656,593   147,578,744


   Status of Budgetary Resources
   Obligations Incurred                                                       $41,335,932 $21,380,109 $11,679,505       $860,178 $15,609,340      $90,865,064
   Unobligated Balance, End of Year
     Apportioned                                                               12,870,704    1,388,704    20,591,066     255,638      2,971,586    38,077,698
     Exempt From Apportionment                                                         —            —             —         3,605      324,153        327,758
     Unapportioned                                                             14,988,103    2,218,099       50,421      300,087       751,514     18,308,224
   Unobligated Balance, End of Year                                            27,858,807    3,606,803    20,641,487     559,330      4,047,253    56,713,680
   Total Budgetary Resources                                                  $69,194,739 $24,986,912 $32,320,992      $1,419,508 $19,656,593 $147,578,744


   Change in Obligated Balances

   Unpaid Obligations
     Unpaid Obligations, Brought Forward, October 1                           $67,461,777   $9,268,750 $19,230,337      $378,340 $20,024,816 $116,364,020
     Obligations Incurred                                                      41,335,932   21,380,109    11,679,505     860,178     15,609,340    90,865,064
     Outlays (Gross)                                                          (41,866,334) (21,481,413) (11,676,795)    (892,030) (16,264,981)    (92,181,553)
     Actual Transfers, Unpaid Obligations (Net) (+ or -)                               —            —             —            —          9,491         9,491
     Recoveries of Prior Year Unpaid Obligations                                       —      (373,663)     (91,161)     (45,265)     (535,849)    (1,045,938)
   Unpaid Obligations, End of Year (Gross)                                     66,931,375    8,793,783    19,141,886     301,223     18,842,817   114,011,084

   Uncollected Payments
     Uncollected Payments, Federal Sources, Brought                             (521,159)     (330,705)     (58,163)    (123,682)     (438,119)    (1,471,828)
      Forward, October 1
     Change in Uncollected Payments, Federal Sources                            (255,743)       54,842         (889)      23,277       (40,818)      (219,331)
   Uncollected Payments, Federal Sources, End of Year                           (776,902)    (275,863)      (59,052)    (100,405)     (478,937)    (1,691,159)

   Obligated Balance, Start of Year (Net)                                      66,940,618    8,938,045    19,172,174     254,658     19,586,697   114,892,192
   Obligated Balance, End of Year (Net)                                       $66,154,473   $8,517,920 $19,082,834      $200,818 $18,363,880 $112,319,925




  104              U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                                 FINANCIAL REPORT




REQUIRED SUPPLEMENTARY INFORMATION (RSI) (continued)

                                                                                                                             For the period ended
COMBINING STATEMENTS OF BUDGETARY RESOURCES BY MAJOR ACCOUNT (Unaudited) (continued)                                         September 30, 2013

 Dollars in Thousands                                  Federal-Aid         FAA               FTA        MARAD           All Other               Total


Budget Authority and Outlays, Net
Budget Authority, Gross                                $39,156,071 $21,178,687 $22,222,046             $790,415 $15,775,220           $99,122,439
Actual Offsetting Collections                            (124,161)   (5,969,567)        (22,962)       (441,340)      (1,280,027)       (7,838,057)
Change in Uncollected Customer Payments From Federal
 Sources                                                 (255,743)       54,842             (889)         23,277         (40,818)         (219,331)
Budget Authority, Net                                  $38,776,167 $15,263,962 $22,198,195             $372,352 $14,454,375           $91,065,051


Outlays, Gross                                         $41,866,334 $21,481,413 $11,676,795             $892,030 $16,264,981           $92,181,553
Actual Offsetting Collections                            (124,161)   (5,969,567)        (22,962)       (441,340)      (1,280,027)       (7,838,057)
Outlays, Net                                            41,742,173   15,511,846     11,653,833           450,690     14,984,954         84,343,496
Distributed Offsetting Receipts                                 —        (2,801)          (1,156)        (41,623)     (6,175,173)       (6,220,753)
Agency Outlays, Net                                    $41,742,173 $15,509,045 $11,652,677             $409,067      $8,809,781       $78,122,743




                                                                                                                             For the period ended
COMBINING STATEMENTS OF BUDGETARY RESOURCES BY MAJOR ACCOUNT (Unaudited)                                                     September 30, 2012

 Dollars in Thousands                                  Federal-Aid         FAA               FTA        MARAD           All Other               Total


Budgetary Resources
Unobligated Balance Brought Forward, October 1         $30,728,090   $3,556,211 $10,777,895            $640,840      $4,784,173       $50,487,209
Recoveries of Prior Year Unpaid Obligations                     —      413,890          205,555           57,652         522,669         1,199,766
Other Changes in Unobligated Balance                            —     (116,841)           (7,127)         (1,427)        (30,699)         (156,094)
Unobligated Balance From Prior Year Budget              30,728,090    3,853,260     10,976,323           697,065       5,276,143        51,530,881
 Authority, Net
Appropriations                                               7,382   12,552,370       2,179,126          362,520       4,642,415        19,743,813
Borrowing Authority                                             —            —                 —          18,000       1,716,768         1,734,768
Contract Authority                                      38,657,065    3,350,000       9,889,067                 —      1,212,831        53,108,963
Spending Authority From Offsetting Collections            192,112     5,969,879          21,118          493,685       1,312,060         7,988,854
Total Budgetary Resources                              $69,584,649 $25,725,509 $23,065,634           $1,571,270 $14,160,217 $134,107,279


Status of Budgetary Resources
Obligations Incurred                                   $39,566,993 $22,205,831 $13,010,518             $984,588 $10,786,816           $86,554,746
Unobligated Balance, End of Year
  Apportioned                                           14,877,106    1,430,914     10,011,591           304,785       2,547,933        29,172,329
  Exempt From Apportionment                                     —            —                 —            3,812        348,759              352,571
  Unapportioned                                         15,140,550    2,088,764          43,525          278,085         476,709        18,027,633
Total Unobligated Balance, End of Year                  30,017,656    3,519,678     10,055,116           586,682       3,373,401        47,552,533
Total Budgetary Resources                              $69,584,649 $25,725,509 $23,065,634           $1,571,270 $14,160,217 $134,107,279




                                                                                   AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3        105
FINANCIAL REPORT




   REQUIRED SUPPLEMENTARY INFORMATION (RSI) (continued)

                                                                                                                                         For the period ended
   COMBINING STATEMENTS OF BUDGETARY RESOURCES BY MAJOR ACCOUNT (Unaudited) (continued)                                                  September 30, 2012

    Dollars in Thousands                                                     Federal-Aid          FAA           FTA    MARAD        All Other          Total


   Change in Obligated Balances

   Unpaid Obligations
     Unpaid Obligations, Brought Forward, October 1                          $68,014,555    $9,243,110 $18,716,473     $383,813 $21,547,111 $117,905,062
     Obligations Incurred                                                     39,566,993    22,205,831    13,010,518    984,588    10,786,816     86,554,746
     Outlays (Gross)                                                         (40,119,771) (21,766,301) (12,291,099)    (932,409) (11,796,442)    (86,906,022)
     Actual Transfers, Unpaid Obligations                                             —             —             —          —         10,000         10,000
     Recoveries of Prior Year Unpaid Obligations                                      —      (413,890)     (205,555)    (57,652)    (522,669)     (1,199,766)
   Unpaid Obligations, End of Year (Gross)                                    67,461,777     9,268,750    19,230,337    378,340    20,024,816    116,364,020

   Uncollected Payments
     Uncollected Payments, Federal Sources, Brought                            (430,928)     (288,053)      (58,900)   (155,567)    (497,962)     (1,431,410)
      Forward, October 1
     Change in Uncollected Payments, Federal Sources                             (90,231)      (42,652)         737      31,885        59,843        (40,418)
   Uncollected Payments, Federal Sources, End of Year                          (521,159)     (330,705)      (58,163)   (123,682)    (438,119)     (1,471,828)

   Obligated Balance, Start of Year (Net)                                     67,583,627     8,955,057    18,657,573    228,246    21,049,149    116,473,652
   Obligated Balance, End of Year (Net)                                      $66,940,618    $8,938,045 $19,172,174     $254,658 $19,586,697 $114,892,192


   Budget and Authority and Outlays, Net
   Budget Authority, Gross                                                   $38,856,559 $21,872,249 $12,089,311       $874,205    $8,884,074    $82,576,398
   Actual Offsetting Collections                                               (101,881)    (5,927,228)     (21,854)   (610,572)   (1,531,692)    (8,193,227)
   Change in Uncollected Customer Payments From
    Federal Sources                                                              (90,231)      (42,652)         737      31,885        59,843        (40,418)
   Budget Authority, Net                                                     $38,664,447 $15,902,369 $12,068,194       $295,518    $7,412,225    $74,342,753


   Outlays, Gross                                                            $40,119,771 $21,766,301 $12,291,099       $932,409 $11,796,442      $86,906,022
   Actual Offsetting Collections                                               (101,881)    (5,927,228)     (21,854)   (610,572)   (1,531,692)    (8,193,227)
   Outlays, Net                                                               40,017,890    15,839,073    12,269,245    321,837    10,264,750     78,712,795
   Distributed Offsetting Receipts                                                    —        (11,559)        (773)    (54,533)   (2,672,109)    (2,738,974)
   Agency Outlays, Net                                                       $40,017,890 $15,827,514 $12,268,472       $267,304    $7,592,641    $75,973,821




  106             U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                              FINANCIAL REPORT




REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION (RSSI)


NON-FEDERAL PHYSICAL PROPERTY ANNUAL STEWARDSHIP INFORMATION                                                         For the fiscal years ended
TRANSPORTATION INVESTMENTS (Unaudited)                                                                                           September 30
 Dollars in Thousands                                              2009           2010               2011                2012                2013


Surface Transportation
Federal Highway Administration
  Federal Aid Highways (HTF)                               $37,860,105     $29,649,943       $34,556,573        $39,048,865        $40,380,481
  Other Highway Trust Fund Programs                             216,263        155,061            148,271              99,127              134,204
  General Fund Programs                                       3,228,009     11,616,036         7,906,180           3,203,055          1,282,624
  Appalachian Development System                                321,480          90,091           243,853            288,473               280,380
  Federal Motor Carrier                                             837              —                   —           (15,998)                   —
Total Federal Highway Administration                         41,626,694     41,511,131        42,854,877         42,623,522          42,077,689

Federal Transit Administration
  Discretionary Grants                                          $16,424        $17,171            $25,068            $12,682                $6,672
  Formula Grants                                                743,604        428,696            220,047            171,134               133,830
  Capital Investment Grants                                   2,175,758       1,930,185        1,924,741           2,439,812          2,111,680
  Washington Metro Area Transit Authority                            33              —            110,321              91,153              148,469
  Interstate Transfer Grants                                        316              —                   —                  —                   —
  Formula and Bus Grants                                      7,264,278       7,345,804        7,182,145           8,197,321          8,091,511
Total Federal Transit Administration                         10,200,413       9,721,856        9,462,322         10,912,102          10,492,162
Total Surface Transportation Non-Federal Physical          $51,827,107     $51,232,987       $52,317,199        $53,535,624        $52,569,851
  Property Investments


Air Transportation:
Federal Aviation Administration
  Airport Improvement Program                                $4,034,970     $4,015,463        $3,388,712         $3,139,685          $3,603,209
Total Air Transportation Non-Federal Physical Property       $4,034,970     $4,015,463        $3,388,712         $3,139,685          $3,603,209
  Investments
Total Non-Federal Physical Property Investments            $55,862,077     $55,248,450       $55,705,911        $56,675,309        $56,173,060




                                              The Federal Highway Administration reimburses States for construction costs on
                                              projects related to the Federal Highway System of roads. The main programs in which
                                              the States participate are the National Highway System, Interstate Systems, Surface
                                              Transportation, and Congestion Mitigation/Air Quality Improvement programs. The
                                              States’ contribution is ten percent for the Interstate System and twenty percent for
                                              most other programs.

                                              The Federal Transit Administration provides grants to State and local transit authorities
                                              and agencies.

                                              Formula grants provide capital assistance to urban and nonurban areas and may be
                                              used for a wide variety of mass transit purposes, including planning, construction
                                              of facilities, and purchases of buses and railcars. Funding also includes providing
                                              transportation to meet the special needs of elderly individuals and individuals with
                                              disabilities.




                                                                                AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3        107
FINANCIAL REPORT




   REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION (RSSI) (continued)


                                                                      Capital investment grants, which replaced discretionary grants in FY 1999, provide
                                                                      capital assistance to finance acquisition, construction, reconstruction, and improve-
                                                                      ment of facilities and equipment. Capital investment grants fund the categories of new
                                                                      starts, fixed guideway modernization, and bus and bus-related facilities.

                                                                      The Washington Metropolitan Area Transit Authority provides funding to support the
                                                                      construction of the Washington Metrorail System.

                                                                      Interstate Transfer Grants provided Federal financing from FY 1976 through FY 1995
                                                                      to allow States and localities to fund transit capital projects substituted for previously
                                                                      withdrawn segments of the Interstate Highway System.

                                                                      The Federal Aviation Administration (FAA) makes project grants for airport planning
                                                                      and development under the Airport Improvement Program (AIP) to maintain a safe
                                                                      and efficient nationwide system of public-use airports that meet both present and
                                                                      future needs of civil aeronautics. FAA works to improve the infrastructure of the
                                                                      nation’s airports, in cooperation with airport authorities, local and State governments,
                                                                      and metropolitan planning authorities.

                                                                                                                                              For the fiscal years
   HUMAN CAPITAL INVESTMENT EXPENSES ANNUAL STEWARDSHIP INFORMATION (Unaudited)                                                             ended September 30
     Dollars in Thousands                                                                  2009            2010            2011            2012              2013


   Surface Transportation

   Federal Highway Administration
         National Highway Institute Training                                               $375            $109            $133            $508            $1,184

   Federal Motor Carrier Safety Administration
         Safety Grants                                                                     1,230             845             636           1,342            2,669
         Idaho Video                                                                         399               9              —               —                  —

   Federal Transit Administration
         National Transit Institute Training                                               3,440           3,886           3,246           3,550            2,926

   National Highway Safety Administration
         Section 403 Highway Safety Programs                                            143,639         138,221         123,340         118,169           127,644
         Highway Traffic Safety Grants                                                  566,790         565,787         576,063         514,816           517,788

   Pipeline and Hazardous Materials Safety Administration
         Hazardous Materials (Hazmat) Training                                           13,263          13,153          16,974          17,808            18,127

   Total Surface Transportation Human Capital Investments                               729,136         722,010         720,392         656,193           670,338


   Maritime Transportation
   Maritime Administration
         State Maritime Academies Training(1)                                            11,041          10,810          11,459          13,746            11,208
         Additional Maritime Training                                                      1,751           2,365           2,146              —             2,400

   Total Maritime Transportation Human Capital Investments                               12,792          13,175          13,605          13,746            13,608

   Total Human Capital Investments                                                     $741,928        $735,185        $733,997        $669,939         $683,946

    Does not include funding for the Student Incentive Payment (SIP) program which produces graduates who are obligated to serve in a reserve component of the
   (1)

   United States armed forces. Does not include funding for maintenance and repair (M&R).



  108                  U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                              FINANCIAL REPORT




REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION (RSSI) (continued)


                               The National Highway Institute develops and conducts various training courses for all
                               aspects of Federal Highway Administration. Students are typically from the State and
                               local police, State highway departments, public safety and motor vehicle employees,
                               and U.S. citizens and foreign nationals engaged in highway work of interest to the
                               Federal Government. Types of courses given and developed are modern developments,
                               technique, management, planning, environmental factors, engineering, safety,
                               construction, and maintenance.

                               The Idaho Video Program develops video training material utilized by the FMCSA
                               National Training Center for the purpose of training State and local law enforcement
                               personnel.

                               The National Transit Institute of the Federal Transit Administration develops and offers
                               training courses to improve transit planning and operations. Technology courses cover
                               such topics as alternative fuels, turnkey project delivery systems, communications-
                               based train controls, and integration of advanced technologies.

                               The National Highway Traffic Safety Administration’s (NHTSA) programs authorized
                               under the Highway Trust Fund provide resources to State and local governments,
                               private partners, and the public, to effect changes in driving behavior on the nation’s
                               highways to increase safety belt usage and reduce impaired driving. NHTSA provides
                               technical assistance to all States on the full range of components of the impaired
                               driving system as well as conducting demonstrations, training and public information/
                               education on safety belt usage.

                               The Pipeline and Hazardous Materials Safety Administration administers Hazardous
                               Material Training (Hazmat). The purpose of Hazmat Training is to train State and
                               local emergency personnel on the handling of hazardous materials in the event of a
                               hazardous material spill or storage problem.




                                                                AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   109
FINANCIAL REPORT




   REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION (RSSI) (continued)


   RESEARCH AND DEVELOPMENT INVESTMENTS ANNUAL STEWARDSHIP INFORMATION                                                          For the fiscal years ended
   (Unaudited)                                                                                                                              September 30
    Dollars in Thousands                                                                     2009         2010          2011          2012          2013


   Surface Transportation

   Federal Highway Administration
     Intelligent Transportation Systems                                                  $111,219     $129,993       $98,694      $100,467     $103,510
     Other Applied Research and Development                                                28,259       159,389      244,156        12,042         9,977

   Federal Railroad Administration
     Railroad Research and Development Program                                              3,349         5,647         6,027       13,742         5,301

   Federal Transit Administration
   Applied Research and Development
     Transit Planning and Research                                                          6,914         7,228       13,751        21,700        22,518

   Pipeline and Hazardous Materials Safety Administration
   Applied Research and Development
     Development Research and Development Pipeline Safety
     Applied Research and Development Pipeline Safety                                       9,198         7,362         2,365        8,073         7,862
     Applied Research and Development Hazardous Materials                                   1,593         1,622         2,855        1,636         1,666

   Research and Innovative Technology Administration
   Applied Research and Development
     Research and Technology                                                                1,936         6,137         6,134        5,792         5,755

   Total Surface Transportation Research and Development                                  162,468       317,378      373,982       163,452       156,589
     Investments


   Air Transportation

   Federal Aviation Administration
     Research and Development Plant                                                         3,381         5,590         5,848       18,974        26,086
     Applied Research                                                                      95,764       103,042      129,954       133,932       119,952
     Development                                                                            1,102         2,008         2,238        1,311           312
     Administration                                                                        35,055        36,723       35,875        37,482        35,929

   Total Air Transportation Research and Development Investments                          135,302       147,363      173,915       191,699       182,279

   Total Research and Development Investments                                            $297,770     $464,741      $547,897      $355,151     $338,868



                                                                The Federal Highway Administration’s research and development programs are
                                                                earmarks in the appropriations bills for the fiscal year. Typically, these programs are
                                                                related to safety, pavements, structures, and environment. Intelligent Transportation
                                                                Systems were created to promote automated highways and vehicles to enhance the
                                                                national highway system. The output is in accordance with the specifications within
                                                                the appropriations act.




  110            U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                FINANCIAL REPORT




REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION (RSSI) (continued)


                               The Federal Transit Administration supports research and development in the
                               following program areas:

                               Research and development in Transit Planning and Research supports two major areas:
                               the National Research Program and the Transit Cooperative Research Program. The
                               National Research Program funds the research and development of innovative transit
                               technologies such as safety-enhancing commuter rail control systems, hybrid electric
                               buses, and fuel cell and battery-powered propulsion systems. The Transit Cooperative
                               Research Program focuses on issues significant to the transit industry with emphasis
                               on local problem-solving research.

                               Transit University Transportation Centers, combined with funds from the Highway
                               Trust Fund, provide continued support for research, education, and technology transfer.

                               Capital investment grants, which replaced discretionary grants in FY 1999, provide
                               capital assistance to finance acquisition, construction, reconstruction, and improve-
                               ment of facilities and equipment. Capital investment grants fund the categories of new
                               starts, fixed guideway modernization, and bus and bus-related activities.

                               The Federal Railroad Administration (FRA) research and development projects con­-
                               tribute vital inputs to its safely regulatory processes, to railroad suppliers, to railroads
                               involved in transportation of freight, intercity passengers, commuters, and to railroad
                               employees and their labor organizations. FRA-owned facilities provide the infrastructure
                               necessary to conduct experiments and test theories, concepts, and new technologies in
                               support of the R&D program.

                               The Pipeline and Hazardous Materials Safety Administration funds research and devel­-
                               opment activities for the following organizations and activities.

                               The Office of Pipeline Safety is involved in research and development in information
                               systems, risk assessment, mapping, and non-destructive evaluation.

                               The Office of Hazardous Materials is involved in research, development, and analysis
                               in regulation compliance, safety, and information systems.

                               The Research and Innovative Technology Administration’s key mandate is to coordi-
                               nate research across DOT to maximize and leverage the taxpayers’ $1.2 billion annual
                               investment in research, development and technology (RD&T) activities.

                               The Federal Aviation Administration (FAA) conducts research and provides the essential
                               air traffic control infrastructure to meet increasing demands for higher levels of system
                               safety, security, capacity, and efficiency. Research priorities include aircraft structures
                               and materials; fire and cabin safety; crash injury-protection; explosive detection systems;
                               improved ground and in-flight de-icing operations; better tools to predict and warn of
                               weather hazards, turbulence and wake vortices; aviation medicine, and human factors.




                                                                  AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   111
112   U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
OTHER INFORMATION

          SCHEDULE OF SPENDING

          The Schedule of Spending (SOS) presented below is an overview of the FY 2013
          resources of DOT. The schedule shows the available funds (money) and how they were
          spent. The schedule is presented to help the public better understand the amount
          of money that was provided to DOT, how DOT spent the money, and to whom the
          money was paid. The SOS presents total budgetary resources and fiscal year-to-date
          total obligations for the reporting entity. The data used to populate this schedule is
          the same underlying data to populate the Statement of Budgetary Resources (SBR).




                                           AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   113
OTHER INFORMATION




                                                           SCHEDULE OF SPENDING (Unaudited)                   For the period ended September 30
                                                                                                                                         2013

                                                                                                                               Non-Budgetary
                                                                                                                                Credit Reform
                                                                                                                                    Financing
                                                             Dollars in Thousands                                Budgetary          Accounts


                                                           What Money Is Available To Spend?
                                                           Total Resources                                    $144,698,264         $2,880,480
                                                           Less Amount Available but Not Agreed To Be Spent      38,380,880            24,576
                                                           Less Amount Not Available To Be Spent                 18,069,800           238,424
                                                           Total Amounts Agreed To Be Spent                    $88,247,584         $2,617,480


                                                           How Was the Money Spent/Issued?
                                                           Surface Transportation
                                                              1. Personnel Compensation and Benefits              $909,433                $—
                                                              2. Contractual Services and Supplies                2,291,347                —
                                                              3. Acquisition of Assets                             312,484          2,542,186
                                                              4. Grants and Fixed Charges                        54,633,821            35,559
                                                              5. Other                                            5,885,052                 0
                                                           Air Transportation
                                                              1. Personnel Compensation and Benefits              7,499,646                —
                                                              2. Contractual Services and Supplies                5,338,487                —
                                                              3. Acquisition of Assets                             350,852                 —
                                                              4. Grants and Fixed Charges                         3,124,754                —
                                                              5. Other                                            5,066,370                —
                                                           Maritime Transportation
                                                              1. Personnel Compensation and Benefits                 99,787                —
                                                              2. Contractual Services and Supplies                 496,146                 92
                                                              3. Acquisition of Assets                               26,634                —
                                                              4. Grants and Fixed Charges                          190,919             39,581
                                                              5. Other                                                6,982                37
                                                           Cross-Cut Transportation
                                                              1. Personnel Compensation and Benefits               155,370                 —
                                                              2. Contractual Services and Supplies                 569,236                 —
                                                              3. Acquisition of Assets                               13,618                —
                                                              4. Grants and Fixed Charges                                 5                —
                                                              5. Other                                              (52,022)               —
                                                           Not Assigned
                                                              1. Personnel Compensation and Benefits               134,252                 —
                                                              2. Contractual Services and Supplies                   82,492                —
                                                              3. Acquisition of Assets                                9,072                —
                                                              4. Grants and Fixed Charges                          255,749                 25
                                                              5. Other                                             847,098                 —

                                                           Total Amounts Agreed to be Spent                    $88,247,584         $2,617,480




  114       U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                                OTHER INFORMATION




SCHEDULE OF NET COST BY STRATEGIC GOAL


                                                   The Schedule of Net Cost by Strategic Goal reports the DOT operational net cost to
                                                   reflect the net cost of operations by each of the Department’s six goals in its FY 2013
                                                   Budget submission (which was a continuation of the FY 2012 budget submission due
                                                   to effects of the continuing resolutions) to provide the linkage between cost and per­-
                                                   formance as related to each goal. DOT programs are generally complex and incorporate
                                                   significant projects within multiple Operating Administrations (OA) and organizations
                                                   within the OAs. These projects are linked to multiple organizational and department­
                                                   wide strategic goals. This complexity makes it difficult to track the costs related to
                                                   the departmentwide strategic goals. Additionally, in order to determine the costs by
                                                   strategic goals, OAs would need to analyze each project and determine allocation of
                                                   costs to appropriate strategic goals.

SCHEDULE OF NET COST BY STRATEGIC GOAL (Unaudited)                                                    For the period ended September 30, 2013
                                                                                                                             Strategic Goal Areas

                                                        State                                        Economic
                                                     of Good     Livable        Environmental      Competitive- Organization
 Dollars in Thousands                    Safety       Repair Communities         Sustainability          ness    Excellence                       Total


Surface Transportation
Federal Highway Administration      $12,366,991 $17,005,889       $4,271,893        $5,557,347          4,997,139            $15,924 $44,215,183
Federal Transit Administration         119,631      5,504,032      1,981,110            66,984          3,735,349             68,734      11,475,840
Federal Railroad Administration        352,569        365,788        519,879           455,476            772,630            110,002       2,576,344
Federal Motor Carrier Safety
  Administration                       559,529             —               —                 —               3,300            16,419            579,248
National Highway Safety
 Administration                        681,589             —               —            59,269                   —              6,500           747,358
Pipeline and Hazardous
  Materials Safety Administration       84,834             —               —                 —                   —                  —            84,834
Research and Innovative
 Technology Administration              16,520            788            689             3,532                  638             5,846            28,013
Surface Transportation Board                 —             —               —                 —                   —            75,559             75,559
Subtotal                             14,181,663    22,876,497      6,773,571         6,142,608          9,509,056            298,984      59,782,379


Air Transportation
Federal Aviation Administration       7,852,048     1,589,135              —           554,757          4,462,013         1,626,614       16,084,567
Subtotal                              7,852,048     1,589,135              —           554,757          4,462,013         1,626,614       16,084,567


Maritime Transportation
Maritime Administration                      —             —               —            20,205            288,866             28,620            337,691
Subtotal                                     —             —               —            20,205            288,866             28,620            337,691


Other Programs
Office of the Secretary                132,234        131,386        190,510           132,818            138,318             43,130            768,396
Volpe National Transportation
  System Center                          (1,418)          (68)           (60)             (303)                 (55)             (502)           (2,406)
Office of Inspector General                  —             —               —                 —                   —            63,703             63,703
Subtotal                               130,816        131,318        190,450           132,515            138,263            106,331            829,693
Total Net Cost                      $22,164,527 $24,596,950       $6,964,021        $6,850,085         14,398,198        $2,060,549 $77,034,330




                                                                                     AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3        115
OTHER INFORMATION




   AFFILIATED ACTIVITIES


                                                           SAINT LAWRENCE SEAWAY DEVELOPMENT CORPORATION
                                                           The U.S. Saint Lawrence Seaway Development Corporation (SLSDC), a wholly owned
                                                           Government corporation and operating administration of the Department, is responsi-
                                                           ble for the operation and maintenance of the U.S. portion of the St. Lawrence Seaway.
                                                           This responsibility includes maintaining and operating two U.S. locks, controlling
                                                           vessel traffic and promoting trade development activities on the seaway.

                                                             Dollars in Thousands                                       2013               2012


                                                           Condensed Information
                                                           Cash and Short-Term Time Deposits                         $30,569           $37,410
                                                           Long-Term Time Deposits                                     1,293              2,036
                                                           Accounts Receivable                                           111                172
                                                           Inventories                                                   284                277
                                                           Other Current Assets                                           28                 11
                                                           Property, Plant and Equipment                             111,961             90,734
                                                           Deferred Charges                                            4,815              4,588
                                                           Other Assets                                                  690                727

                                                           Total Assets                                             $149,751          $135,955

                                                           Current Liabilities                                        $5,109             $4,628
                                                           Actuarial Liabilities                                       4,815              4,588
                                                           Total Liabilities                                           9,924              9,216

                                                           Invested Capital                                          127,106           105,879
                                                           Cumulative Results of Operations                           12,721             20,860

                                                           Total Net Position                                        139,827           126,739

                                                           Total Liabilities and Net Position                       $149,751          $135,955

                                                           Operating Revenues                                         $8,161           $25,249
                                                           Operating Expenses                                         19,318             21,552
                                                           Operating Income (Loss)                                   (11,157)             3,697

                                                           Other Financing Sources                                     3,018              2,931

                                                           Operating Revenues and Other Financing Sources             (8,139)             6,628
                                                            Over (Under) Operating Expenses
                                                           Beginning Cumulative Results of Operations (Deficit)       20,860             14,232

                                                           Ending Cumulative Results of Operations (Deficit)         $12,721           $20,860




  116       U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                               OTHER INFORMATION




SUMMARY OF FINANCIAL STATEMENT AUDIT AND MANAGEMENT ASSURANCES


TABLE 1. SUMMARY OF FINANCIAL STATEMENT AUDIT
 Audit Opinion                                            Unmodified
 Restatement                                                        No
                                                           Beginning                                                                            Ending
 Material Weaknesses                                        Balance         New Resolved           Consolidated         Reassessed             Balance
Lack of Sufficient Controls Over Undelivered Orders                  1                         1                                                    0
Total                                                                1          0              1                  0                   0             0



TABLE 2. SUMMARY OF MANAGEMENT ASSURANCES

Effectiveness of Internal Control Over Financial Reporting (FMFIA, Section 2)
Statement of Assurance                                Unqualified

                                                      Beginning                                                                                 Ending
 Material Weaknesses                                   Balance           New        Resolved        Consolidated         Reassessed            Balance
Lack of Sufficient Controls Over Undelivered Orders            1                             1                                                      0
Total Material Weaknesses                                      1            0                1                     0                   0            0


Effectiveness of Internal Control over Operations (FMFIA, Section 2)
Statement of Assurance                                  Qualified

                                                      Beginning                                                                                 Ending
 Material Weaknesses                                   Balance           New        Resolved        Consolidated         Reassessed            Balance
FISMA Noncompliance                                            1                                                                                    1
Total Material Weaknesses                                      1            0                0                     0                   0            1


Conformance with Financial Management System Requirements (FMFIA, Section 4)
Statement of Assurance                                Unqualified

                                                      Beginning                                                                                 Ending
 Non-Conformances                                      Balance           New        Resolved        Consolidated         Reassessed            Balance
Lack of Sufficient Controls Over Undelivered Orders            1            0                1                     0                   0            0


Conformance with Federal Financial Management Improvement Act (FFMIA)
                                                                                     Agency                                                    Auditor
1. System Requirements                                              No noncompliance noted                               No noncompliance noted
2. Accounting Standards                                             No noncompliance noted                               No noncompliance noted
3. USSGL at Transaction Level                                       No noncompliance noted                               No noncompliance noted




                                                                                    AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3        117
OTHER INFORMATION




                                                                        Memorandum
                       U.S. Department of
                       Transportation
                       Office of the Secretary
                       of Transportation
                       Office of Inspector General


           Subject:   INFORMATION: DOT’s Fiscal Year 2014                             Date:   December 16, 2013
                      Top Management Challenges
                      Department of Transportation
                      Report Number PT-2014-009

             From:    Calvin L. Scovel III                                        Reply to
                                                                                              J-1
                                                                                  Attn. of:
                      Inspector General

               To:    The Secretary
                      Deputy Secretary


                       A safe and well-managed transportation system is key for the U.S. economy and the
                       quality of life for the traveling public. The Department of Transportation (DOT)
                       provides over $70 billion annually to fund a wide range of programs. Consequently, it
                       is critical for the Department to provide rigorous stewardship of taxpayer funds while
                       carrying out its mission.

                       Safety remains the Department’s top priority, and DOT has a number of initiatives
                       underway to enhance safety in the air and on the ground. To maintain the Nation’s
                       excellent aviation safety record, the Department must continue to improve pilot,
                       runway, and repair station safety oversight; assess its recent policy changes to prevent
                       controller fatigue; and enhance the data it collects to prevent separation losses
                       between aircraft. At the same time, the Department must set investment priorities and
                       realistic plans for the Next Generation Air Transportation System (NextGen)—a
                       complex and costly effort that is vital to provide safer and more efficient air traffic
                       management. This will require difficult trade-offs among diverse capital programs.

                       With regard to highways, transit, and pipelines, the Department must address our
                       longstanding recommendations and new safety oversight requirements in the Moving
                       Ahead for Progress in the 21st Century Act (MAP-21). Key priorities include
                       implementing data-driven, risk-based oversight for bridge inspections; developing a
                       national tunnel safety program; removing unsafe motor carriers from our Nation’s
                       roads; setting effective policies for its newly expanded rail transit oversight role; and
                       strengthening States’ pipeline safety programs.


                       2014 Top Management Challenges, Department of Transportation




  118        U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                          OTHER INFORMATION




The Department must also continue efforts to meet other MAP-21 requirements for
surface infrastructure projects nationwide to accelerate their delivery and employ
performance-based management. In addition, the Department faces a new challenge to
effectively manage the influx of relief funds to restore transit systems damaged by
Hurricane Sandy in the northeastern United States and establish an emergency relief
program for future disasters. Securing the Department’s information technology (IT)
infrastructure also remains a top priority, as we continue to find information security
deficiencies in critical systems. To protect its mission and credibility, the Department
must help its Operating Administrations address cyber threats; protect sensitive
information; and develop a strategic vision to better manage its current technologies,
plan for future systems, and maximize cost savings.

Finally, we continue to identify opportunities for the Department to save taxpayer
dollars and better manage its contracts and resources. Key focus areas include
reducing use of high-risk contract types, improving oversight of major IT
acquisitions, and better protecting high-dollar recipient programs from fraud, waste,
and abuse.

We remain committed to assisting the Department in improving the management and
execution of its programs and protecting its resources through our audits and
investigations. As required by law, we have identified the Department’s top
management challenges for fiscal year 2014. We considered several criteria in
identifying the following seven challenges, including their impact on safety,
documented vulnerabilities, large dollar implications, and the ability of the
Department to effect change in these areas:

 • Improving FAA’s Oversight of the Aviation Industry and the Operations of the
   National Airspace System
 • Identifying and Addressing Root Causes of Problems With NextGen and Setting
   Investment Priorities

 • Continuing Actions To Strengthen Highway, Transit, and Pipeline Safety
 • Improving Oversight of Surface Infrastructure Investments and Implementing
   Statutory Requirements
 • Implementing Requirements To Address the Federal Railroad Administration’s
   Expanded and Traditional Responsibilities
 • Managing Acquisitions and Contracts To Achieve Results and Save Taxpayer
   Dollars
 • Building a Secure and Modern Information Technology Infrastructure



2014 Top Management Challenges, Department of Transportation                                               ii




                                                               AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 201 3   119
OTHER INFORMATION




                      We appreciate the Department’s commitment to taking prompt corrective action in
                      response to our findings and recommendations. This report and the Department’s
                      response will be included in the Department’s Annual Financial Report. The
                      Department’s response is included in its entirety in the appendix to this report. If you
                      have any questions regarding this report, please contact me at (202) 366-1959. You
                      may also contact Lou E. Dixon, Principal Assistant Inspector General for Audits and
                      Evaluation, at (202) 366-1427.
                                                                       #

                      cc: DOT Audit Liaison, M-1




                      2014 Top Management Challenges, Department of Transportation                          iii




  120       U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                                   OTHER INFORMATION




                                                      CHAPTER 1

                                                      IMPROVING FAA’S OVERSIGHT OF THE AVIATION INDUSTRY
                                                      AND THE OPERATIONS OF THE NATIONAL AIRSPACE SYSTEM
                                                      The Federal Aviation Administration (FAA) operates the world’s safest air transporta­
                                                      tion system and has a number of initiatives underway to enhance safety in the National
                                                      Airspace System (NAS). However, our audit work as well as recent aircraft accidents
                                                      and incidents underscore the need for FAA to further improve its pilot safety initiatives,
                                                      controller workforce management, repair station and runway oversight, and safety
                                                      data analysis.


                                                      KEY CHALLENGES
                                                      •	 Advancing initiatives to improve pilot training, mentoring, and record keeping
                                                      •	 Improving air traffic controller training, scheduling, and performance
                                                      •	 Implementing a risk-based approach for repair station oversight
                                                      •	 Enhancing runway safety
                                                      •	 Improving data collection and analysis to identify and mitigate risks with aircraft
                                                         separation losses and air carrier operations


                                                      ADVANCING INITIATIVES TO IMPROVE PILOT TRAINING, MENTORING,
                                                      AND RECORD KEEPING
                                                      Investigations of recent accidents, including the July 2013 crash of Asiana Airlines
                                                      flight 214, have focused attention on airline pilots’ training, performance, and quali-
                                                      fications. The 2010 Airline Safety and FAA Extension Act1 required improvements in
                                                      these areas, and FAA has made important progress on many of them. For example,
                                                      in recent weeks, FAA issued a final rule to significantly advance commercial pilot
                                                      training, and in July 2013, FAA completed a rule that raised airline pilot qualifications
                                                      for first officers from 250 flight hours to 1,500. Last year, FAA also updated its rule on
                                                      flight and duty requirements to help ensure pilots are rested when they fly. These are
                                                      significant achievements for the Agency and should further enhance aviation safety.

                                                      Despite these improvements, the Agency is still experiencing delays in issuing rules
                                                      required by the act to develop pilot mentoring and leadership programs, and establish
                                                      better processes for managing safety risks. Additionally, FAA has been slow to make
                                                      long-term implementation decisions on a new electronic database for pilot records.
                                                      Effectively implementing the database will require FAA to ensure air carriers are
                                                      retaining pilot records and that records contain enough information to help carriers
                                                      identify specific performance deficiencies.


                                                      IMPROVING AIR TRAFFIC CONTROLLER TRAINING, SCHEDULING, AND
                                                      PERFORMANCE
                                                      Training new air traffic controllers to replace the large number of retirees remains a
                                                      key priority for FAA—especially in light of FAA’s transition to the Next Generation Air
                                                      Transportation System (NextGen). In August 2013, we reported that while FAA has
                                                      taken actions to improve its controller training program, such as determining whether
                                                      to base new hires’ facility placement on their performance at the FAA Academy, it
1
 Airline Safety and Federal Aviation Administration
Extension Act of 2010, P. L. No. 111-216 (2010).      needs to track the progress of these actions and establish efficient mechanisms to



                                                                                        AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   121
OTHER INFORMATION




                                                                  assess their impact. We also found that further steps are needed to ensure that air
                                                                  traffic facilities have the training support resources they need. In July 2012, FAA
                                                                  reduced its use of contracted instructors at its 22 en route centers by 62 percent. This
                                                                  resulted in some facility managers taking certified controllers off of their air traffic
                                                                  control positions to supplement training.

                                                                  We also recently completed a review of FAA’s policy changes to address controller
                                                                  fatigue. These include placing an additional air traffic controller on the midnight shift
                                                                  at certain facilities and mandating a minimum of 9 hours off between evening and day
                                                                  shifts. While the new policies are positive steps to improve safety in this area, they
                                                                  lack clarity and metrics to measure the effects of fatigue on controllers. For example,
                                                                  facility managers were concerned about the lack of explicit guidance on what activities
                                                                  are allowed during recuperative breaks. They also expressed concern over the ability
                                                                  to recall employees on their breaks.


                                                                  IMPLEMENTING A RISK-BASED APPROACH FOR REPAIR STATION
                                                                  OVERSIGHT
                                                                  FAA’s development of the Safety Assurance System (SAS), a new risk-based approach
                                                                  to enhance oversight of repair stations, has been delayed 2 years. The Agency now
                                                                  projects inspectors will not begin using this system until fiscal year 2015. When fully
                                                                  implemented, SAS should address our recommendations to target inspector resources
                                                                  based on risk and develop a risk-based system suitable for oversight of foreign repair
                                                                  stations. In the meantime, FAA has proposed interim solutions to address some of our
                                                                  recommendations, such as providing inspectors with more comprehensive, standard-
                                                                  ized procedures for conducting inspections and reporting findings. However, further
                                                                  delays in implementing the new risk-based system will likely hinder FAA’s ability to
                                                                  improve its oversight of repair stations.

                                                                  FAA must also ensure it effectively monitors FAA-certificated repair stations in the
                                                                  European Union. In 2011, the United States and the European Union entered into
                                                                  an agreement, which in part directed FAA to begin transferring oversight of its repair
                                                                  stations to the national aviation authorities of those countries to reduce duplicative
                                                                  oversight. As of May 2013, these authorities assumed responsibility for inspecting,
                                                                  on FAA’s behalf, nearly 400 FAA-certificated repair stations located in 18 countries.
                                                                  This presents a unique challenge for FAA because, despite its diminished oversight
                                                                  presence at European repair stations, it must still ensure that these repair stations
                                                                  continue to meet FAA standards. We are reviewing this issue and plan to report on the
                                                                  process early next year.


                                                                  ENHANCING RUNWAY SAFETY
                                                                  FAA’s Runway Safety Program Office tracks all reported runway incursions and
                                                                  categorizes them in terms of risk. FAA met its goal to reduce the rate of serious
                                                                  runway incursions—those in which a collision was barely avoided—for fiscal year
                                                                  2012.2 However, between fiscal years 2010 and 2012, the number of serious incur-
                                                                  sions tripled—from 6 to 18. Additionally, the total number of all runway incursions
                                                                  increased by 21 percent (954 to 1,150) between fiscal years 2011 and 2012, and
                                                                  continues to rise, despite a slight decline in total air traffic operations. While FAA
   2
     FAA’s serious runway incursion rate goal for                 recently reorganized its Runway Safety Office and changed the way it reports runway
   fiscal year 2012 was 0.395 runway incursions per
   1 million operations. The actual rate for serious              incursions, it has not assessed the impact of these changes.
   runway incursions was 0.356 for fiscal year 2012.




  122              U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                                         OTHER INFORMATION




                                                            FAA is also working to deploy technology that could help prevent collisions on
                                                            runways. For example, in fiscal year 2011, FAA completed deployment of the Airport
                                                            Surface Detection Equipment-Model X (ASDE-X) system at 35 major airports, which
                                                            provides detailed information to air traffic controllers regarding aircraft operations
                                                            on runways and taxiways. While ASDE-X is a step in the right direction, it does not
                                                            provide alerts directly to pilots, a longstanding National Transportation Safety Board
                                                            (NTSB) recommendation. To address this shortcoming, FAA is integrating ASDE-X
                                                            with two other systems—Runway Status Lights (RWSL)3 and Automatic Dependent
                                                            Surveillance-Broadcast (ADS-B)4—to simultaneously alert controllers and pilots of po-
                                                            tential ground collisions. However, progress toward these enhancements depends on
                                                            a number of other actions, such as establishing requirements for technical upgrades,
                                                            testing system integrity, and determining whether ASDE-X capabilities will meet FAA’s
3
  RWSL consists of red lights embedded into the             goals of increasing capacity while improving safety.
runway designed to provide a visible warning to
pilots when runways are not clear to enter, cross,
or depart.                                                  IMPROVING DATA COLLECTION AND ANALYSIS TO IDENTIFY AND
4
  ADS-B is a satellite-based effort expected to             MITIGATE RISKS WITH AIRCRAFT SEPARATION LOSSES AND AIR
provide more precise information about the position         CARRIER OPERATIONS
of aircraft and vehicles operating on airport surfaces
to both pilots and controllers.                             Accurately counting and identifying trends that contribute to separation losses and
5
  Based on FAA data, we calculated that the total           operational errors continues to be a top priority for FAA. In April 2013, we reported
number of operational errors may have increased up          that between fiscal years 2011 and 2012, operational errors appeared to increase by as
to 2,509 in fiscal year 2012. We are unable to state
that our calculations for FY 2012 are 100 percent           much as 32 percent (from 1,895 to 2,509)5; the most serious reported errors (category
accurate due to limitations in FAA data. Specifically,      A)6 also increased (from 55 to 275).
FAA stopped using the term “operational errors” in
2012.                                                       According to FAA, the increase in reported operational errors between fiscal years
6
  Prior to fiscal year 2011, FAA reported the rate of       2011 and 2012 was largely due to increased reporting through programs such as
category A and B errors per every 1,000 operations
as a performance measure. FAA rated operational
                                                            the Air Traffic Safety Action Program (ATSAP)7 and the Traffic Analysis and Review
errors by severity based on aircraft proximity using        Program (TARP), an automated system to detect losses of separation at air traffic
A, B, or C—with A being the most severe risk and            terminal facilities.8 However, we found that the increase in reported errors was linked
C the least severe. In FY 2011, FAA began reporting
its System Risk Event Rate (SRER) performance               in part to a rise in actual errors rather than increased reporting. For example, FAA’s
measure, which also considers repeatability and             air route traffic control centers (ARTCC)9—which have had an automated system in
severity of events. According to FAA, using its SRER
performance measure, the rate of high risk events           place for years to detect and investigate reported errors—had a 32 percent increase in
per 1,000 losses of separation decreased nearly             operational errors during the same period.
every month during fiscal year 2012 from 24.38 in
October 2011 to 9.33 in September 2012.                     FAA is taking action to mitigate separation losses. For example, FAA has developed
7
  ATSAP is a voluntary, non-punitive program in             a Risk Analysis Process to evaluate the risk of separation losses, an annual list of the
which controllers can self-report safety instances
and concerns. In July 2012, we issued a separate
                                                            five highest risk separation losses, and corrective actions to address such hazards.
report on FAA’s implementation of ATSAP: Long-              FAA states it has implemented over 90 percent of the mitigation strategies within the
Term Success of ATSAP Will Require Improvements             corrective plans that address the fiscal year 2012 Top Five Hazards and has begun
in Oversight, Accountability, and Transparency (OIG
Report Number 2012-152), July 19, 2012. OIG                 developing corrective action plans for the fiscal year 2013 list.
reports are available on our Web site at http://www.
oig.dot.gov/.                                               FAA is also moving toward a data-driven approach to identify and mitigate risks
8
  Terminal facilities include air traffic control towers    related to airline operations. As part of this initiative, FAA implemented the Aviation
and Terminal Radar Approach Control (TRACON)                Safety Information Analysis and Sharing (ASIAS) system in 2007, which collects and
facilities. Air traffic control towers separate aircraft
on the airport surface and guide aircraft as they
                                                            analyzes data from multiple databases to proactively identify accident risks. ASIAS
take off and land. TRACONs guide aircraft as they           enables authorized users to obtain data from confidential databases—such as airline
approach or leave airspace surrounding airports to
about 40 miles away.
                                                            voluntary safety reporting programs—as well as publicly available data sources. These
                                                            data could help increase inspectors’ awareness of industry-wide safety issues. We are
9
 ARTCC guide aircraft flying at high altitudes,
generally above 17,000 feet.
                                                            currently reviewing ASIAS and expect to issue a report later this year. Thus far, we
                                                            have found that FAA is improving ASIAS by increasing the number of participating
10
  FOQA is a voluntary safety program that allows
for the routine collection and analyses of digital flight   commercial airlines and capturing key confidential voluntary safety data, such as those
data generated during aircraft operations.                  from air carrier Flight Operational Quality Assurance10 programs and Aviation Safety



                                                                                              AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   123
OTHER INFORMATION




                                                                   Action Programs.11 However, FAA’s plan to use ASIAS as a fully predictive tool is still
                                                                   several years away due to a number of challenges. These include enhancing automated
                                                                   capabilities and analytical methodologies, improving the quality of data ASIAS receives
                                                                   from carriers, and addressing access issues and airline concerns over using confidential
                                                                   ASIAS data.


                                                                   RELATED PRODUCTS
                                                                   The following related documents can be found on the OIG Web site at http://www.
                                                                   oig.dot.gov.

                                                                   •	 FAA’s Controller Scheduling Practices Can Impact Human Fatigue, Controller Perfor-
                                                                      mance, and Agency Costs, August 27, 2013

                                                                   •	 FAA Is Making Progress but Improvements in Its Air Traffic Controller Facility Training
                                                                      Are Still Needed, August 27, 2013

                                                                   •	 FAA Lacks a Reliable Model for Determining the Number of Flight Standards Safety
                                                                      Inspectors It Needs, June 20, 2013

                                                                   •	 FAA Continues To Face Challenges in Implementing a Risk-Based Approach to Repair
                                                                      Station Oversight, May 1, 2013

                                                                   •	 FAA’s Fiscal Year 2014 Budget Request: Key Issues Facing the Agency, April 18, 2013

                                                                   •	 FAA’s Progress and Challenges in Advancing Safety Oversight Initiatives, April 16, 2013

                                                                   •	 FAA’s Efforts To Track and Mitigate Air Traffic Losses of Separation Are Limited by Data
                                                                      Collection and Implementation Challenges, February 27, 2013

                                                                   •	 FAA and Industry Are Advancing the Airline Safety Act, but Challenges Remain To
                                                                      Achieve Its Full Measure, January 31, 2013

                                                                   For more information on the issues identified in this chapter, please contact Jeffrey B.
                                                                   Guzzetti, Assistant Inspector General for Aviation Audits, at (202) 366-0500.




                                                                   CHAPTER 2

                                                                   IDENTIFYING AND ADDRESSING ROOT CAUSES OF PROBLEMS
                                                                   WITH NEXTGEN AND SETTING INVESTMENT PRIORITIES
                                                                   The Next Generation Air Transportation System (NextGen) is a multibillion-dollar
                                                                   transportation infrastructure project that is necessary to modernize our Nation’s aging
                                                                   air traffic system and provide safer and more efficient air traffic management. NextGen
                                                                   is also a complex undertaking that involves new technologies and procedures and
                                                                   multiple stakeholders whose priorities may conflict. In response to a more constrained
                                                                   budget environment and the need for more realistic plans, the Federal Aviation
                                                                   Administration (FAA) is working with industry to set investment priorities for
                                                                   NextGen and make trade-offs among programs, plans, and funding profiles. Since the
                                                                   effort began almost a decade ago, we have reported on cost increases and delays with
                                                                   modernization projects and other key management challenges that FAA must address
   11
      ASAP is a voluntary safety program that allows
   aviation employees to self-report safety violations to          to successfully transform the National Airspace System (NAS).
   air carriers and FAA without fear of reprisal through
   legal or disciplinary actions.




  124               U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                                      OTHER INFORMATION




                                                         KEY CHALLENGES
                                                         •	 Identifying and addressing the underlying causes of cost increases and schedule delays
                                                         •	 Integrating new performance-based navigation routes to maximize near-term
                                                            benefits and gain user support
                                                         •	 Implementing an integrated master schedule for NextGen programs
                                                         •	 Mitigating implementation risks with key automation systems that controllers rely
                                                            on to manage air traffic
                                                         •	 Further developing and implementing consolidation and modernization plans
                                                         •	 Safely integrating unmanned aircraft systems in the NAS


                                                         IDENTIFYING AND ADDRESSING THE UNDERLYING CAUSES OF DELAYS
                                                         FAA’s NextGen plans—which initially targeted completion for 2025 at a cost of $40
                                                         billion—lacked sound strategies for achieving a system that could handle three times
                                                         more traffic while reducing FAA’s operating costs. FAA has been unable to set realistic
                                                         plans, budgets, and expectations for key NextGen programs due to a lack of firm
                                                         requirements for NextGen’s most critical capabilities. FAA’s organizational culture has
                                                         also been slow to embrace NextGen’s transformational vision, and gaps in leadership
                                                         have further undermined the Agency’s efforts to advance NextGen. Recognizing the
                                                         need to better position itself to execute NextGen, FAA announced a major reorgani-
                                                         zation in 2011, creating an Assistant Administrator for NextGen who reports directly
                                                         to the FAA Deputy Administrator and establishing a new Program Management
                                                         Office. While these changes could enhance FAA’s management of NextGen, it remains
                                                         unclear whether they will be sufficient to successfully implement NextGen.


                                                         INTEGRATING NEW PERFORMANCE-BASED NAVIGATION ROUTES TO
                                                         MAXIMIZE NEAR-TERM BENEFITS AND GAIN USER SUPPORT
                                                         A central question with NextGen has been when users will begin realizing benefits.
                                                         Near-term benefits—such as more direct flights, improved on-time aircraft arrival rates,
                                                         and greater fuel savings—can be achieved through new performance-based navigation
                                                         (PBN) procedures, such as Area Navigation (RNAV) and Required Navigation Perfor-
                                                         mance (RNP).12 However, FAA’s implementation and airlines’ use of PBN procedures
                                                         has been inconsistent. For example, according to preliminary data, RNP use is high at
                                                         some small- to medium-sized airports, such as Oakland, CA, but overall RNP use is
                                                         low, particularly at busy airports, such as those in the New York area. Several obsta-
                                                         cles undermine FAA’s efforts to increase use of PBN procedures. These include a lack
                                                         of updated PBN policies and procedures for controllers, a lengthy flight procedure
                                                         development process, and a lack of controller tools to manage and sequence aircraft.
12
   RNAV is a method of navigation in which aircraft
use avionics, such as Global Positioning Systems,
                                                         Until FAA addresses these obstacles and clearly demonstrates the type and timing of
to fly any desired flight path without the limitations   expected benefits, airspace users will remain reluctant to equip with new avionics
imposed by ground-based navigation systems. RNP
is a form of RNAV that adds on-board monitoring
                                                         needed to advance new procedures and NextGen.
and alerting capabilities for pilots, thereby allowing
aircraft to fly more precise flight paths.
                                                         IMPLEMENTING AN INTEGRATED MASTER SCHEDULE FOR NEXTGEN
13
   These six programs are Automatic Dependent
Surveillance-Broadcast (ADS-B), System Wide
                                                         PROGRAMS
Information Management (SWIM), Data Communi-
                                                         In response to our April 2012 recommendation, FAA continues to develop an
cations (DataComm), NextGen Network Enabled
Weather (NNEW), NAS Voice System (NVS), and              integrated master schedule for NextGen’s transformational programs13 and related
Collaborative Air Traffic Management Technologies        efforts. The integrated master schedule is a key tool for FAA and the Department
(CATM-T).




                                                                                           AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   125
OTHER INFORMATION




                                                           to manage NextGen given the complex interdependencies between new NextGen
                                                           technologies and existing air traffic systems. Without an effective master schedule,
                                                           it will be difficult for FAA to (1) fully address operational, technical, programmatic
                                                           risks; (2) prioritize and make informed trade-offs among capital programs consistent
                                                           with industry recommendations; and (3) determine what capabilities should be
                                                           delivered first and at what locations. FAA plans to begin using the integrated master
                                                           schedule in March 2014 and demonstrate its capabilities by showing the linkages and
                                                           dependencies among NextGen programs through 2015. FAA also states that it will
                                                           need to further refine and update the schedule to reflect developmental efforts it plans
                                                           to implement through 2020.


                                                           MITIGATING IMPLEMENTATION RISKS WITH KEY AUTOMATION
                                                           SYSTEMS THAT CONTROLLERS RELY ON TO MANAGE AIR TRAFFIC
                                                           FAA’s long-term goals for NextGen, such as increasing airspace capacity and reducing
                                                           flight delays, depend on fully implementing the En Route Automation Modernization
                                                           (ERAM) program—a $2.4 billion system to replace hardware and software at FAA’s
                                                           facilities that manage high-altitude traffic. After experiencing significant delays and
                                                           cost increases due to extensive software-related problems, FAA began making progress
                                                           deploying ERAM over the last 2 years. FAA is using the new system either on a full- or
                                                           part-time basis at 17 air traffic facilities. However, FAA is now revising ERAM plans
                                                           due to the impacts of sequestration, increased costs incurred to fix problems, and the
                                                           remaining work required to implement the system at the Nation’s busiest facilities on
                                                           the East Coast. FAA plans to complete ERAM in March 2015.

                                                           FAA’s Terminal Automation Modernization/Replacement (TAMR) program is also a
                                                           prerequisite for introducing new NextGen capabilities. This program involves about
                                                           $1 billion through 2018 to replace aging displays and processors with a single auto-
                                                           mation platform that controllers rely on to manage takeoffs and landings, the most
                                                           critical phases of flight. FAA recently approved plans to begin transitioning to a new
                                                           terminal automation system at 11 large Terminal Radar Approach Control (TRACON)
                                                           facilities through 2017 at a cost of $438 million. However, FAA has not identified
                                                           and finalized all hardware and software requirements or “gaps” needed to successfully
                                                           replace the existing system. While FAA is developing software to address 94 gaps, it
                                                           anticipates finding more as it deploys the system. To achieve future NextGen capabil-
                                                           ities, continued management attention from the Department and FAA is essential to
                                                           ensure timely implementation of these foundational programs.


                                                           FURTHER DEVELOPING AND IMPLEMENTING CONSOLIDATION AND
                                                           MODERNIZATION PLANS
                                                           An important and controversial component of FAA’s NextGen efforts is the extent
                                                           to which the Agency consolidates or realigns the Nation’s extensive network of
                                                           aging air traffic control facilities. FAA’s consolidation plans will impact various
                                                           NextGen programs that already have established baselines, including automation and
                                                           communication projects. Moreover, these programs were originally based on FAA’s
                                                           current facility set-up for en route centers and TRACONs—not consolidated facilities.
                                                           However, FAA has not made changes to its Capital Investment Plan, and the full
                                                           extent of any changes will remain unknown until FAA makes decisions for the first
                                                           integrated facility in the New York area. These issues include cost, schedule, technical
                                                           capabilities, and the impact on the aviation workforce. To date, FAA has been unable



  126       U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                                         OTHER INFORMATION




                                                          to quantify the potential cost savings and benefits from realigning air traffic facilities
                                                          for airspace users and the traveling public. FAA expects to provide a detailed cost
                                                          estimate for the integrated New York facility by the end of 2014.


                                                          SAFELY INTEGRATING UNMANNED AIRCRAFT SYSTEMS IN THE NAS
                                                          FAA predicts there will be roughly 7,500 small commercial Unmanned Aircraft
                                                          Systems (UAS)14 in 5 years, with the aerospace industry investing over $89 billion
                                                          in UAS technology over the next 10 years. Integrating UAS in domestic US airspace
                                                          will impact several FAA lines of business and offices, including safety and air traffic
                                                          modernization. In 2012, FAA appointed a senior executive to lead its UAS Program
                                                          Office. In 2013, this became the UAS Integration Office, with Aviation Safety and
                                                          Air Traffic personnel combined into one office. However, it took over a year to fully
                                                          establish the office due to difficulties with creating a hybrid organization for an
                                                          emerging technology. FAA is still working on the necessary internal agreements to
                                                          establish roles and responsibilities between the UAS Integration Office and other FAA
                                                          lines of business. At the same time, FAA is behind in meeting requirements of the
                                                          FAA Modernization and Reform Act of 2012,15 which calls for FAA to safely integrate
                                                          UAS into the NAS by September 2015. For example, FAA has neither completed
                                                          the requirements to establish six test ranges, which were due in 2012, nor provided
                                                          Congress with a comprehensive UAS integration plan, which was due by February
                                                          2013. FAA states that problems in meeting the act’s requirements are due to the
                                                          complexity of the problem, privacy issues, and unresolved coordination issues with
                                                          other Federal agencies.

                                                          In addition, FAA must resolve a number of UAS-specific safety issues. While UAS
                                                          capabilities have improved, their ability to detect, sense, and avoid other air traffic
                                                          is limited. Although UAS are now operating in the NAS, FAA has not developed
                                                          standard air traffic procedures for safely co-managing them with manned aircraft.
                                                          FAA must continue to work with other Federal agencies and the aerospace industry to
                                                          establish certification standards, obtain reliable safety data, address privacy concerns,
                                                          and align changes with its capital investments.


                                                          RELATED PRODUCTS
                                                          The following related documents can be found on the OIG Web site at http://www.
                                                          oig.dot.gov.

                                                          •	 FAA Has Made Progress Fielding ERAM, but Critical Work on Complex Sites and Key
                                                             Capabilities Remains, August 15, 2013

                                                          •	 FAA’s Progress and Challenges in Advancing the Next Generation Air Transportation
                                                             System, July 17, 2013

                                                          •	 FAA’s Acquisition Strategy for Terminal Modernization Is at Risk for Cost Increases,
14
  A UAS is comprised of a pilotless aircraft, satellite      Schedule Delays, and Performance Shortfalls, May 29, 2013
or radio link, and ground control station where an
operator controls the movements of the aircraft.          •	 Weaknesses in Program and Contract Management Contribute to ERAM Delays and Put
UAS aircraft range in size from those with a wingspan
as large as a Boeing 737 to smaller than a radio-
                                                             Other NextGen Initiatives at Risk, September 13, 2012
controlled model airplane. UAS can serve diverse
purposes, such as conducting military operations,         •	 Update on FAA’s Progress and Challenges in Advancing the Next Generation Air Transpor-
enhancing border security, and monitoring forest fires.      tation System, September 12, 2012
 FAA Modernization and Reform Act of 2012, P. L.
15

No. 112-95, February 14, 2012.                            •	 Status of Transformational Programs and Risks To Achieving NextGen Goals,
                                                             April 23, 2012


                                                                                              AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   127
OTHER INFORMATION




                                                                     •	 Challenges With Implementing Near-Term NextGen Capabilities at Congested Airports
                                                                        Could Delay Benefits, August 1, 2012

                                                                     •	 The Success of FAA’s Long-Term Plan for Air Traffic Facility Realignments and Consoli-
                                                                        dations Depends on Addressing Key Technical, Financial, and Workforce Challenges, July
                                                                        17, 2012

                                                                     For more information on the issues identified in this chapter, please contact Jeffrey B.
                                                                     Guzzetti, Assistant Inspector General for Aviation Audits, at (202) 366-0500.




                                                                     CHAPTER 3

                                                                     CONTINUING ACTIONS TO STRENGTHEN HIGHWAY,
                                                                     TRANSIT, AND PIPELINE SAFETY
                                                                     The Department plays a key role in improving and overseeing the Nation’s surface
                                                                     transportation systems that are critical to efficiently move people and energy resources,
                                                                     promote interstate commerce, and grow the U.S. economy. Sustained focus on the
                                                                     safety requirements enacted in the Moving Ahead for Progress in the 21st Century
                                                                     Act (MAP-21)16 will be an essential part of the Department’s oversight across multiple
                                                                     modes of transportation.


                                                                     KEY CHALLENGES
                                                                     •	 Strengthening the national bridge inspection program
                                                                     •	 Developing a new tunnel safety program
                                                                     •	 Enhancing motor carrier safety oversight
                                                                     •	 Continuing efforts to build a rail transit safety program
                                                                     •	 Providing stronger oversight of pipeline safety programs


                                                                     STRENGTHENING THE NATIONAL BRIDGE INSPECTION PROGRAM
                                                                     The May 2013 partial collapse of the Skagit River Bridge on Interstate 5 in Washington
                                                                     State brought renewed attention to the safety and condition of the Nation’s bridges.
                                                                     One-fourth of the Nation’s more than 600,000 bridges are deficient according to the
                                                                     Federal Highway Administration (FHWA).17 Our recommendations and new MAP-21
                                                                     requirements both focus on developing enhanced tools to help States improve safety,
                                                                     allocate scarce resources, measure performance, and effectively oversee Federal funds.
                                                                     Since 2006, we have recommended that FHWA improve its oversight of State bridge
                                                                     programs by implementing a data-driven, risk-based approach to assessing States’
                                                                     compliance with National Bridge Inspection Standards, prioritizing and remediating
                                                                     national bridge safety risks, improving bridge inspection and inventory practices, and
                                                                     encouraging States’ effective use of bridge management systems. In response, FHWA
                                                                     revised its approach to bridge oversight in 2011 to more objectively assess bridge safe-
                                                                     ty risks. However, FHWA needs to implement our remaining recommendations and
   16
        P. L. No. 112-141 (2012).                                    meet MAP-21 provisions for strengthening bridge inspection and inventory standards.
   17
     Deficient bridges include those that have experi­               At the request of the Ranking Member of the House Committee on Transportation and
   enced significant deterioration or have substandard
                                                                     Infrastructure, we are currently assessing FHWA’s progress in responding to our prior
   geometric characteristics, such as narrow lane
   widths or low clearances for the traffic on or under              recommendations and its implementation of MAP-21 bridge provisions.
   the bridge.




  128                 U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                                    OTHER INFORMATION




                                                        DEVELOPING A NEW TUNNEL SAFETY PROGRAM
                                                        MAP-21 also requires FHWA to establish a new national tunnel inspection program
                                                        and a tunnel inventory. These requirements include setting tunnel inspection standards
                                                        by 2015 with qualifications, certification procedures, and formal training for tunnel
                                                        inspectors. Similar to FHWA’s national bridge inspection program and inventory,
                                                        MAP-21 requires States to inspect and periodically report on the condition of the
                                                        Nation’s tunnels. To fully implement the MAP-21 provisions and promote consistent
                                                        application of tunnel safety standards, FHWA will need to take a number of steps,
                                                        including issuing regulations that clearly specify what dimensions and characteristics
                                                        constitute a tunnel,18 ensuring the baseline inventory of highway tunnels is accurate,
                                                        and establishing a process to assess inspection data. Prior to MAP-21, FHWA issued
                                                        a proposed rule on tunnel inspection standards in 2010 and developed guidance on
                                                        tunnel design and other topics. In response to MAP-21, FHWA issued a supplemental
                                                        proposed rule to add MAP-21 tunnel inspection standards. Any delays in developing
                                                        training and certification procedures could impact FHWA’s ability to oversee compli-
                                                        ance with new regulations.


                                                        ENHANCING MOTOR CARRIER SAFETY OVERSIGHT
                                                        Between 2010 and 2012, large truck and bus crashes decreased by 3.5 percent (from
                                                        129,587 to 125,063); associated fatalities were also down by 4.9 percent19 (from 4,307
                                                        to 4,096). While the Federal Motor Carrier Safety Administration (FMCSA) has taken
                                                        actions to remove high-risk carriers from the road, DOT must take additional steps
                                                        to implement MAP-21’s large truck and bus safety provisions, which include several
                                                        rulemakings, programmatic changes, and reports to be completed in the next 2 years.
                                                        FMCSA and the National Highway Traffic Safety Administration (NHTSA) must
                                                        complete a number of actions to meet these provisions:

                                                        •	 Motor Coach Safety Rules: While NHTSA has the lead on MAP-21 provisions
                                                           to strengthen motor coach safety regulations for improved occupant protection,
                                                           passenger evacuation, and crash avoidance, FMCSA is still developing a rule the
                                                           National Transportation Safety Board (NTSB) recommended to address oversight
                                                           concerns on passenger carrier leases. FMCSA is also preparing to initiate a required
                                                           rulemaking on safety inspections of passenger carrying vehicles.

                                                        •	 Reincarnated Carriers: FMCSA issued a rule on revoking reincarnated carriers’20
                                                           operating authority in response to an NTSB recommendation. Since the rule went
                                                           into effect in May 2012, FMCSA has taken 43 actions, and is pursuing 3 more,
                                                           against 123 companies to consolidate the records of reincarnated or affiliated
                                                           carriers. Of the 46 actions, 38 involved motor carriers attempting to avoid existing
                                                           out-of-service orders. FMCSA must also complete its pilot of a risk-based screening
                                                           methodology to detect reincarnated carriers and take enforcement action against
                                                           them to effectively implement the rule.

                                                        •	 Motor Carrier Data: FMCSA published its long-delayed Unified Registration Sys-
                                                           tem (URS) Final Rule in August 2013, which should streamline the motor carrier
18
     MAP-21 does not specify a definition for tunnel.      registration process and, if properly implemented, enable the Agency to maintain
19
  According to preliminary data for 2012. Final data       more accurate industry information. FMCSA must implement the URS rule and
for 2012 will be reported later in 2014.                   enforcement mechanisms to ensure accurate information is available to evaluate
20
   Motor carriers that attempt to operate as a             carriers’ safety performance. Such mechanisms include automatic deactivation of
different entity in an effort to evade enforcement         DOT numbers for carriers who fail to update company information every 2 years.
action, out-of-service orders, or both.
                                                           FMCSA must also ensure data quality in the measurement system it uses to evaluate


                                                                                         AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   129
OTHER INFORMATION




                                                                       motor carriers’ safety performance under the Compliance, Safety, Accountability
                                                                       Program,21 and complete nationwide deployment of interventions, such as on- and
                                                                       off-site reviews, which are planned for later this year.


                                                                   CONTINUING EFFORTS TO BUILD A RAIL TRANSIT SAFETY PROGRAM
                                                                   MAP-21 enhanced the Federal Transit Administration’s (FTA) authority to oversee
                                                                   the safety of the Nation’s public transportation systems. FTA must continue to work
                                                                   on initial policies and procedures for its expanded safety oversight role and effectively
                                                                   distribute almost $22 million to State Safety Oversight (SSO) agencies to ensure finan-
                                                                   cial independence from transit agencies.22 FTA needs to ensure that each State with
                                                                   an SSO has a State safety oversight plan that complies with MAP-21 requirements.23
                                                                   FTA must follow through on its plan to adopt a Safety Management System frame-
                                                                   work to address the need for data-driven risk identification and performance-based
                                                                   measures—concerns highlighted in our prior work. FTA also needs to issue timely
                                                                   guidance, prioritize the greatest safety risks for any rulemakings, and enlist leadership
                                                                   commitment to expedite these rulemakings.

                                                                   As FTA begins plans for a Transit Asset Management system for rail transit infrastruc-
                                                                   ture, it may want to consider MAP-21 program changes in other DOT modes that are
                                                                   in the process of implementing similar systems. For example, under MAP-21, FHWA
                                                                   is developing its first national tunnel inventory and safety inspection program, similar
                                                                   to its longstanding bridge safety program. FTA could build on past collaborations
                                                                   with FHWA and discuss opportunities to initiate an inventory and safety inspection
                                                                   program for rail transit bridges and tunnels nationwide.


                                                                   PROVIDING STRONGER OVERSIGHT OF PIPELINE SAFETY PROGRAMS
                                                                   Several recent pipeline accidents highlight the need for the Pipeline and Hazardous
                                                                   Materials Administration (PHMSA) and its State agents to implement an effective
   21
      Compliance, Safety, Accountability is a 2010                 performance-based approach for assessing pipeline safety.24 NTSB has reported
   FMCSA initiative to improve large truck and bus
   safety. It introduces a new enforcement and com­-               weaknesses in this aspect of PHMSA’s and States’ oversight. After its investigation
   pliance model that allows FMCSA and its State                   of the 2010 San Bruno, CA, pipeline explosion,25 NTSB recommended an audit of
   partners to contact a larger number of carriers earlier
   to address safety problems before crashes occur.                PHMSA’s certification program26 to assess the effectiveness of (1) State pipeline safety
                                                                   programs and Federal pipeline safety grants with regard to oversight of intrastate
   22
      Many oversight agencies have limited staffing
   levels and budgets, and some depend on funding                  pipeline operations and (2) State inspection and enforcement activities.
   from the same rail transit agencies they oversee.
                                                                   We are currently finalizing the results of our review of PHMSA’s State Pipeline Safety
   23
     MAP-21 required FTA to make this determination
   by October 1, 2013.                                             Program.27 To date, we have determined that despite several efforts underway to
                                                                   enhance program oversight, PHMSA faces critical challenges, including accurately
   24
     Under the Natural Gas Pipeline Safety Act of 1968,
   PHMSA manages the State Pipeline Safety Program                 assessing States’ compliance with performance safety factors and scoring their
   by requiring State agencies to self-certify that they           performance. In addition, PHMSA’s guidelines for the State Pipeline Safety Program
   are qualified to oversee intra-State pipeline operators
   and enforce Federal pipeline safety regulations.                lack elements needed to identify all safety weaknesses. For example, the guidelines do
                                                                   not establish minimum qualifications for State inspectors who lead standard pipeline
   25
     On September 9, 2010, a 54-year old gas pipeline
   exploded in San Bruno, CA, killing 8 and injuring 58            operator inspections. Consequently, PHMSA cannot be sure that State inspections
   people, and destroying 38 homes.                                cover all Federal requirements and that pipeline operators maintain safety standards.
    In early 2012, the Secretary stated in a letter to
   26                                                              The guidelines also do not detail how States should use risk factors for scheduling
   NTSB that our office would conduct the audit.                   inspections or specify appropriate time intervals between inspections, making it diffi-
   27
      Through this program, PHMSA authorizes States                cult for PHMSA to ensure States conduct inspections frequently enough to detect and
   to oversee and enforce operators’ compliance with               mitigate safety risks. Finally, PHMSA needs to strengthen its oversight of suspension
   Federal pipeline safety regulations and allocates
   grants to State programs. Grant funding increased               grant funds—funds awarded to States that are fiscally unable to maintain or expand
   from $19.5 million in 2008 to $46.3 million in 2012.




  130               U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                                       OTHER INFORMATION




                                                        their pipeline safety programs. The Agency’s guidance to States on how to account for
                                                        these funds has proven insufficient, and PHMSA must follow through on its intent to
                                                        begin auditing the funds in calendar year 2014.


                                                        RELATED PRODUCTS
                                                        The following related documents can be found on the OIG Web site at http://www.
                                                        oig.dot.gov.

                                                        •	 Timely and Targeted FMCSA Action Is Needed To Fully Address National Transportation
                                                           Safety Board Recommendations for Improving Passenger Carrier Oversight,
                                                           April 17, 2012

                                                        •	 Challenges to Improving Oversight of Rail Transit Safety and Implementing an Enhanced
                                                           Federal Role, January 31, 2012

                                                        •	 Assessment of FHWA Oversight of the Highway Bridge Program and National Bridge
                                                           Inspection Program, January 14, 2010

                                                        •	 National Bridge Inspection Program: Assessment of FHWA’s Implementation of Data-Driven,
                                                           Risk-Based Oversight, January 12, 2009

                                                        •	 Audit of Oversight of Load Ratings and Postings on Structurally Deficient Bridges on the
                                                           National Highway System, March 21, 2006

                                                        For more information on the issues identified in this chapter, please contact Joseph W.
                                                        Comé, Assistant Inspector General for Highway and Transit Audits, at (202) 366-5630;
                                                        Jeffrey B. Guzzetti, Assistant Inspector General for Aviation Audits, at (202) 366-0500;
                                                        or Mitch Behm, Assistant Inspector General for Rail, Maritime, Hazmat Transport, and
                                                        Economic Analysis, at (202) 366-9970.




                                                        CHAPTER 4

                                                        IMPROVING OVERSIGHT OF SURFACE INFRASTRUCTURE
                                                        INVESTMENTS AND IMPLEMENTING STATUTORY
                                                        REQUIREMENTS
                                                        In late 2012, Hurricane Sandy substantially damaged transit infrastructure in the
                                                        mid-Atlantic and northeastern United States. To assist State and local agencies in
                                                        their recovery and resiliency efforts, DOT received approximately $13 billion in
                                                        relief funds.28 DOT is responsible for effective stewardship of these funds as well as
                                                        billions in Federal funds provided annually to States and localities to construct and
                                                        maintain the Nation’s roadways, bridges, transit systems, and ports. At the same time,
                                                        DOT’s Federal Transit Administration (FTA) and Federal Highway Administration
                                                        (FHWA) must meet new requirements of the Moving Ahead for Progress in the 21st
                                                        Century Act (MAP-21). These requirements include accelerating project delivery,
                                                        employing performance management, and making oversight activities more risk based.
                                                        The Maritime Administration (MARAD) must also continue to correct management
                                                        vulnerabilities with its port projects as it works to develop a framework for ongoing
                                                        and future port infrastructure projects.
28
  In response to the storm, Congress passed, and
the President signed into law, the Disaster Relief
Appropriations Act, P. L. No. 113-2, in January 2013.




                                                                                            AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   131
OTHER INFORMATION




                                                           KEY CHALLENGES
                                                           •	 Ensuring effective oversight of Hurricane Sandy relief funds and considering lessons
                                                              learned from Federal emergency responses
                                                           •	 Maintaining efforts to strengthen highway and transit oversight
                                                           •	 Implementing initiatives to expedite project delivery and reduce costs
                                                           •	 Transitioning to a system of performance-based surface transportation investments
                                                           •	 Developing an effective port infrastructure program


                                                           ENSURING EFFECTIVE OVERSIGHT OF HURRICANE SANDY RELIEF
                                                           FUNDS AND CONSIDERING LESSONS LEARNED FROM FEDERAL
                                                           EMERGENCY RESPONSES
                                                           FTA is responsible for ensuring appropriate stewardship over the largest allocation—
                                                           more than $10 billion—of DOT’s Hurricane Sandy relief funds. FTA is also required
                                                           by MAP-21 to establish an Emergency Relief Program to effectively respond to future
                                                           emergencies. FTA quickly responded to Hurricane Sandy by making more than $5 billion
                                                           of relief funds available to recipients within 4 months of the Disaster Relief Appropria­
                                                           tions Act. Our initial review of FTA’s oversight of Hurricane Sandy relief funds identified
                                                           opportunities for FTA to more effectively allocate, obligate, and oversee them. A key
                                                           challenge for FTA will be ensuring that oversight plans target key project and grantee
                                                           risks, such as improper payments. FTA must also develop a process for allocating and
                                                           awarding the remaining resiliency funds on a competitive basis and define clear and
                                                           transparent criteria for evaluating proposed resiliency projects.

                                                           Drawing on lessons learned from Federal emergency responses and best practices
                                                           for recipients’ acquisitions based on Department and other Federal resources could
                                                           inform FTA’s efforts to finalize a rule for the Emergency Relief Program. These lessons
                                                           include mitigating the risk of overpayment for some services in emergencies, establish-
                                                           ing timeframes to limit requests for emergency relief funds after events occur, setting
                                                           a minimum amount for providing emergency relief funds, and reviewing a sample of
                                                           emergency grantee acquisitions. We expect to issue our report later this year.


                                                           MAINTAINING EFFORTS TO STRENGTHEN HIGHWAY AND TRANSIT
                                                           OVERSIGHT
                                                           FHWA and FTA took several actions to align their programs with MAP-21 require-
                                                           ments, strengthen oversight of highway and transit investments, and move towards
                                                           more risk-based approaches to oversight. Maintaining momentum on improving
                                                           these oversight tools will be critical to ensure proper stewardship of about $40 billion
                                                           annually in Federal-aid highway funds. For example, FHWA should more clearly
                                                           and consistently define Federal and State oversight roles and responsibilities within
                                                           its congressionally required Stewardship and Oversight Agreements with States.
                                                           In response to our recommendations and MAP-21, FHWA significantly revised its
                                                           oversight approach. However, actions are needed to link national and local project
                                                           priorities to a National Program Stewardship and Oversight Plan, implement a new
                                                           risk assessment process, develop a more data-driven and consistent approach to
                                                           project level oversight, and use internal Program Management Improvement teams.
                                                           These actions would help ensure effective and consistent implementation of Federal
                                                           requirements across FHWA’s 52 division offices.




  132       U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                                   OTHER INFORMATION




                                                     Similarly, FTA must complete a comprehensive review of its oversight program,
                                                     which relies heavily on private contractors, and implement any changes that emerge
                                                     from that review. For example, in response to vulnerabilities we identified on the
                                                     Dulles Corridor Metrorail Project, FTA committed to assess the effectiveness of its
                                                     project management oversight contractors—who help oversee major transit projects
                                                     in accordance with FTA guidance. Further, FTA agreed to address vulnerabilities we
                                                     found in its oversight of billions in grants provided to State and local transit agencies.
                                                     For example, FTA must follow through on ensuring its regions and contractors
                                                     accurately enter data into its oversight tracking system to address repeat findings and
                                                     trends and to implement performance measures that assess the effectiveness of the
                                                     oversight program’s outcomes.


                                                     IMPLEMENTING INITIATIVES TO EXPEDITE PROJECT DELIVERY AND
                                                     REDUCE COSTS
                                                     MAP-21’s Subtitle C is designed to increase efficiency and innovation, with a focus
                                                     on environmental issues during the planning and design phase of highway and transit
                                                     projects. According to DOT, fully implementing Subtitle C requires completion of
                                                     42 actions. To enable States to fully achieve Subtitle C’s anticipated project delivery
                                                     benefits in a timely manner, DOT must complete rulemakings—including a rule to
                                                     expand use of categorical exclusions.29 DOT should also assign estimated completion
                                                     dates, where feasible, for planned actions that do not have milestones specified by
                                                     statute and track their progress. Sustained management attention will be critical to
                                                     ensure the timely completion of rulemakings, guidance, other program initiatives, and
                                                     reports to Congress.


                                                     TRANSITIONING TO A SYSTEM OF PERFORMANCE-BASED SURFACE
                                                     TRANSPORTATION INVESTMENTS
                                                     MAP-21 requires DOT to move toward more performance-based investment manage-
                                                     ment of its highway and transit programs. MAP-21 also requires States to establish a
                                                     transportation performance plan that is linked to Federal-aid highway funds. Accordingly,
                                                     DOT must establish new rules, performance standards, and modify related oversight
                                                     mechanisms. For example, DOT must implement new performance measures that
                                                     incorporate the Department’s seven national goals: safety, infrastructure condition,
                                                     congestion reduction, system reliability, freight movement and economic vitality,
                                                     environmental sustainability, and reduced project delivery delays. Further, to meet
                                                     MAP-21 requirements, DOT must use its newly defined performance measures and
                                                     associated data improvements to better assess and report on the impact of core programs,
                                                     such as FHWA’s Highway Safety Improvement Program (HSIP)—DOT’s primary pro­-
                                                     gram for reducing fatalities and serious injuries on roadways through infrastructure
                                                     improvements. FHWA could use existing financial and performance data on HSIP
                                                     projects, combined with the consistent and complete data on fatalities and serious
                                                     injuries throughout the United States called for by MAP-21, to develop a more
                                                     complete picture of HSIP’s impact on traffic safety.

29
  A categorical exclusion is a category of actions
that do not individually or cumulatively have a
                                                     DEVELOPING AN EFFECTIVE PORT INFRASTRUCTURE PROGRAM
significant effect on the human environment. In
                                                     Since 2003, MARAD has been authorized to administer funds to develop and modern-
these cases, an environmental impact statement or
an environmental assessment is not required.         ize port infrastructure. In 2009, the National Defense Authorization Act30 mandated
30
     P. L. No. 111-84 § 3512 (Oct. 28, 2009).
                                                     that MARAD establish a Port Infrastructure Development Program to improve port



                                                                                        AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   133
OTHER INFORMATION




                                                           facilities and provide a framework for ongoing and future port infrastructure projects.
                                                           In recent years, port projects under MARAD’s management have experienced setbacks,
                                                           including construction problems and schedule delays, raising concerns about MARAD’s
                                                           ability to manage its port projects.

                                                           While MARAD has taken steps to improve management of its port infrastructure
                                                           projects, we reported in August 2013 that MARAD could do more to provide effective
                                                           oversight of its projects and develop a Port Infrastructure Development Program.
                                                           These steps include adequately defining its port project oversight responsibilities
                                                           and providing guidance to contractors for developing program management plans;
                                                           establishing a sound risk management process consistent with industry best practices;
                                                           and establishing a process to systematically store, maintain, and track project progress
                                                           and funds. MARAD is developing a Port Infrastructure Development Program but has
                                                           yet to provide a completion date.


                                                           RELATED PRODUCTS
                                                           The following related documents can be found on the OIG Web site at http://www.oig.
                                                           dot.gov.

                                                           •	 MARAD Has Taken Steps To Develop a Port Infrastructure Development Program but Is
                                                              Challenged in Managing Its Current Port Projects, August 2, 2013

                                                           •	 Letter to Congress on the Status of MAP-21, Subtitle C: Acceleration of Project Delivery,
                                                              May 22, 2013

                                                           •	 Lessons Learned from ARRA Could Improve the Federal Highway Administration’s Use of
                                                              Full Oversight, May 7, 2013

                                                           •	 FHWA Provides Sufficient Guidance and Assistance To Implement the Highway Safety
                                                              Improvement Program but Could Do More To Assess Program Results, March 26, 2013

                                                           •	 FHWA Has Opportunities To Improve Oversight of ARRA High Dollar Projects and the
                                                              Federal-Aid Highway Program, November 12, 2012

                                                           •	 Improvements to Stewardship and Oversight Agreements Are Needed To Enhance
                                                              Federal-aid Highway Program Management, October 1, 2012

                                                           •	 Improvements Needed in FTA’s Grant Oversight Program, August 2, 2012

                                                           •	 Actions Needed To Improve FTA’s Oversight of the Dulles Corridor Metrorail Project’s
                                                              Phase 1, July 26, 2012

                                                           For more information on the issues identified in this chapter, please contact Joseph W.
                                                           Comé, Assistant Inspector General for Highway and Transit Audits, at (202) 366-5630
                                                           or Mitch Behm, Assistant Inspector General for Rail, Maritime, Hazmat Transport, and
                                                           Economic Analysis, at (202) 366-9970.




  134       U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                                      OTHER INFORMATION




                                                        CHAPTER 5

                                                        IMPLEMENTING REQUIREMENTS TO ADDRESS THE FEDERAL
                                                        RAILROAD ADMINISTRATION’S EXPANDED AND TRADITIONAL
                                                        RESPONSIBILITIES
                                                        The Rail Safety Improvement31 (RSIA) and the Passenger Rail Investment and Improve-
                                                        ment32 (PRIIA) Acts of 2008 directed the Federal Railroad Administration (FRA) to
                                                        broaden its safety related responsibilities, establish a National Rail Plan, and develop a
                                                        grant program to fund rail investment. Five years later, the Agency has only disbursed
                                                        16 percent of $10.1 billion in grant funds for the High Speed Intercity Passenger
                                                        Rail Program.33 FRA’s progress toward defining rail safety priorities and completing
                                                        requirements for new responsibilities has also been limited. Going forward, FRA will
                                                        need to expedite required rulemakings to mitigate rail safety hazards and address
                                                        national transportation needs, provide its oversight staff with the training needed to
                                                        carry out new responsibilities, and ensure that policies and procedures governing its
                                                        traditional responsibilities reflect the current regulatory environment.


                                                        KEY CHALLENGES
                                                        •	 Completing implementation of key RSIA and PRIIA provisions
                                                        •	 Updating policies and procedures for traditional responsibilities


                                                        COMPLETING IMPLEMENTATION OF KEY RSIA AND PRIIA PROVISIONS
                                                        RSIA directed FRA to develop 17 new or revised safety regulations governing a wide
                                                        variety of areas, including positive train control (PTC), track maintenance, minimum
                                                        training standards for railroad employees, and highway rail grade crossings.34 In April
                                                        2013, we reported that FRA had issued or made progress on the RSIA-required rules,
                                                        but its primary focus on developing a PTC rule created delays with other rules. Ultimately,
                                                        FRA missed statutory deadlines for seven of the eight rules it issued and has now missed
                                                        the deadlines for seven of the remaining nine. The lack of timely rules delays mitigation
                                                        of railroad industry hazards that Congress intended the rules to address. For example,
                                                        FRA has yet to issue a rule on minimum training standards for safety-related railroad
                                                        employees and a rule on grade crossing inventories. Respectively, these rules are intended
                                                        to reduce accidents caused by human factors and to mitigate risk of injury and death
                                                        due to highway-rail grade crossing accidents.

                                                        In addition, FRA has not provided updated guidance or training for overseeing com­
                                                        pliance with certain new RSIA rules. For example, although FRA’s rule on PTC has
31
     P. L. No. 110-432 Div. A.                          been in effect since March 2010, the Agency did not update its compliance manual
32
     P. L. No. 110-432 Div. B.                          to include information on the new rule until April 2012. FRA uses these compliance
                                                        manuals to set expectations for inspection tasks and establish investigation require-
33
   $8 billion of which was appropriated by the
American Recovery and Reinvestment Act of 2009          ments. Training has been similarly lacking. For example, PTC oversight staff informed
(ARRA). FRA has obligated 99 percent of the $10.1       us that they still needed additional training to be confident in their abilities to oversee
billion in grant funding.
                                                        PTC tests. FRA implemented a new policy in September 2013 requiring staff to develop
34
  PTC is a communication-based system designed          technical bulletins or other guidance documents outlining new regulations and to
to prevent accidents caused by human factors,
including train collisions, derailments due to speed,   develop and host training sessions to explain new regulations; however, it remains to
incursions into work zones, and movement of trains      be seen whether this new policy will be effective.
through switches left in wrong positions. Human
factor accidents are accidents due to causes such
as employee physical condition, improper communi­
                                                        Of the 29  responsibilities PRIIA assigned to FRA, 17 have been completed, 10 are in
cations, and improper train handling.                   progress, and 2 have not been started. One critical responsibility—development of a



                                                                                           AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   135
OTHER INFORMATION




                                                                    National Rail Plan35—is underway. However, rather than producing a single national
                                                                    rail plan, FRA has focused on developing tools and guidance for States and regions
                                                                    to create regional rail plans, as well as criteria and parameters for justifying Federal
                                                                    investments. To date, FRA has primarily focused on regional plans for the Southwest
                                                                    and the Northeast Corridor. Consequently, 5 years after the passage of PRIIA, FRA has
                                                                    still not articulated rail plans and milestones for the rest of the country.


                                                                    UPDATING POLICIES AND PROCEDURES FOR TRADITIONAL RESPONSI-
                                                                    BILITIES
                                                                    FRA must ensure that policies and procedures governing its traditional responsibilities
                                                                    reflect the current regulatory environment, such as the National Environmental Policy
                                                                    Act (NEPA),36 which requires agencies to consider the potential environmental impact
                                                                    of proposed actions including federally funded projects. However, because most of
                                                                    FRA’s procedures for the NEPA process have not been updated since 1999, many
                                                                    references in the procedures are outdated, and requirements from subsequent statutes
                                                                    and recommended guidance are not included. As a result, FRA staff lack guidance to
                                                                    efficiently administer the NEPA process and ensure grantees comply with legal and
                                                                    regulatory requirements.

                                                                    Finally, improvements are needed in FRA’s Railroad Rehabilitation and Improvement
                                                                    Financing (RRIF) program—a $35 billion credit program established in 1998 to pro-
                                                                    vide loans to railroads and other eligible entities to finance rail infrastructure projects.
                                                                    Since its inception, the RRIF program has issued 33 loans totaling approximately $1.7
                                                                    billion. However, because RRIF has disbursed less than 5 percent of its authorized
                                                                    spending limit and has only issued seven loans since the beginning of 2010, Congress
                                                                    has expressed concerns over the extent to which the program has been used and
                                                                    suggested that lengthy reviews of applications may be contributing to the program’s
                                                                    low participation rate. Our analysis found that accepting incomplete applications has
                                                                    affected the timeliness of FRA’s RRIF application reviews, which have taken as long as
                                                                    28 months. Management attention is needed to identify ways to expedite this process
                                                                    as a step toward maximizing this program’s full potential.


                                                                    RELATED PRODUCT
                                                                    The following related document can be found on the OIG Web site at http://www.oig.
                                                                    dot.gov.

                                                                    •	 FRA Is Nearing Completion of Rules Required by the Rail Safety Improvement Act, but
                                                                       Needs To Improve Oversight, April 17, 2013

                                                                    For more information on the issues identified in this chapter, please contact Mitch
                                                                    Behm, Assistant Inspector General for Rail, Maritime, Hazmat Transport, and Economic
                                                                    Analysis, at (202) 366-9970.



   35
      PRIIA directs the Federal Railroad Administrator
   to develop a long-range national rail plan that is
   consistent with approved State rail plans and the rail
   needs of the Nation, as determined by the Secretary
   in order to promote an integrated, cohesive,
   efficient, and optimized national rail system for the
   movement of goods and people.
   36
        42 U.S.C. § 4321-4347, Jan. 1, 1970.




  136                U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                                     OTHER INFORMATION




                                                        CHAPTER 6

                                                        MANAGING ACQUISITIONS AND CONTRACTS TO ACHIEVE
                                                        RESULTS AND SAVE TAXPAYER DOLLARS
                                                        In fiscal year 2012, DOT obligated approximately $62 billion on contracts and grants.37
                                                        Investing and administering these funds wisely and fulfilling the President’s Executive
                                                        Order38 and Office of Management and Budget (OMB) initiatives39 to deliver an efficient,
                                                        effective, and accountable Government continues to be a challenge for DOT manage-
                                                        ment. Our audits have identified opportunities for DOT to better manage its contracts
                                                        and resources and save taxpayer dollars.


                                                        KEY CHALLENGES
                                                        •	 Increasing management focus on reducing high-risk contract types
                                                        •	 Ensuring taxpayer dollars are invested and administered wisely on major contracts
                                                        •	 Improving management oversight of recipients’ contract practices to ensure
                                                           program integrity and efficient use of limited funds


                                                        INCREASING MANAGEMENT FOCUS ON REDUCING HIGH-RISK
                                                        CONTRACT TYPES
                                                        A Government-wide initiative calls for Federal agencies to reduce spending on high-
                                                        risk contract types—such as cost-reimbursement—and management support services
                                                        contracts,40 which are often awarded using high-risk contract types. However, between
                                                        fiscal years 2009 and 2012, DOT increased its obligations for cost-reimbursement
                                                        contracts from $1.5 billion to $1.9 billion. While these contracts may be justified in
                                                        some cases, they pose a high risk for waste of taxpayer funds because they do not
                                                        provide a direct incentive for contractors to control costs. Similarly, our ongoing work
                                                        shows that DOT’s obligations on management support services contracts have increased
                                                        by 17 percent (approximately $1.1 billion to almost $1.3 billion) from fiscal years
                                                        2010 through 2012. Given DOT’s significant investment in high-risk contracts each
                                                        year, even minimal steps toward reducing the use of these contracts could yield
                                                        substantial savings for the Government and taxpayers.
37
  DOT’s fiscal year 2013 data were not available at     In addition, revised Federal Acquisition Regulations (FAR) impose increased oversight
the time of this report.
                                                        requirements on Federal agencies that choose cost-reimbursable contracts over less
38
  Executive Order 13576, “Delivering An Efficient,      risky contract types. DOT did not meet at least 25 percent of these FAR revisions
Effective, and Accountable Government,” Jun. 13,
2011.                                                   on 15 of the 31 cost-reimbursable contract awards we examined. For example, the Op-
                                                        erating Administrations we reviewed41 did not fully comply with acquisition planning
39
  OMB Memoranda: Reduced Contract Spending
for Management Support Services, Nov. 7, 2011,          and justification requirements or consistently assess oversight risks, properly designate
and Improving Government Acquisition, Jul. 29,          oversight personnel, or verify that contractors’ accounting systems were adequate to
2009.
                                                        provide valid and reliable cost data. As a result, the Department is missing opportuni-
40
   Management support services contracts include        ties to reduce the Government’s risk associated with use of these contract types.
those for professional and technical support ser-
vices such as engineering, information technology,
acquisition planning, and program management.
                                                        ENSURING TAXPAYER DOLLARS ARE INVESTED AND ADMINISTERED
  Our review included 6 of the 11 Operating
                                                        WISELY ON MAJOR CONTRACTS
41

Administrations that awarded cost-reimbursement
contracts within the timeframe selected for our audit   Each year, DOT awards billions of dollars for major information technology (IT) and
of July 1, 2011, through May 31, 2012. We did not
include the Federal Aviation Administration in our      infrastructure improvement contracts. To maximize its investment, the Department
audit because the Agency is not required to comply      needs to administer these funds wisely while meeting program goals. Several concerns
with the FAR.
                                                        require sustained management attention:


                                                                                          AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   137
OTHER INFORMATION




                                                           •	 DOT’s Oversight of Major IT Investments: DOT has made significant progress
                                                              toward implementing our March 2013 recommendations to strengthen its decision
                                                              processes and oversight for its major IT investments, which in fiscal year 2012 were
                                                              just over $2.2 billion. For example, in fiscal year 2013, DOT updated its Investment
                                                              Review Board’s charter to clarify organizational responsibilities and establish the
                                                              Senior Procurement Executive as a voting member. However, DOT still needs to
                                                              develop a comprehensive plan to ensure it is equipped to properly oversee all
                                                              Operating Administrations’ IT investments; assign organizational responsibility,
                                                              accountability, and authority; and develop written implementation policies.

                                                           •	 MARAD Port Projects: In August 2013, we reported that inadequate acquisition
                                                              planning, lack of reliable cost estimates, and noncompliance with Federal contracting
                                                              requirements on the Port of Anchorage project put the Maritime Administration’s
                                                              (MARAD) ongoing and future port projects at risk. Notably, we found that MARAD
                                                              acted contrary to the intent of the Small Business Administration’s 8(a) program by
                                                              steering the first Port of Anchorage contract to the Port’s preferred firm. According
                                                              to MARAD’s documentation, this project’s cost estimate grew from $211 million in
                                                              2003 to $1 billion as of January 2011, with scheduled completion slipping by 8 years.
                                                              Further, MARAD representatives informed us that the Municipality is considering
                                                              scaling down the project, but they did not have a revised cost estimate at the time
                                                              we concluded our review. According to MARAD officials, prior to 2011 the Agency’s
                                                              leadership made a policy decision that abdicated programmatic and technical control
                                                              to local port officials, which contributed to problems with the project. We also found
                                                              weaknesses in MARAD’s contract management of its Port of Guam and Hawaii Harbors
                                                              projects, including a lack of established contract administration plans, required
                                                              contractor performance evaluations, and independent Government estimates.

                                                           •	 Air Traffic Control Optimum Training Solution (ATCOTS): In 2010, we made
                                                              several recommendations to improve the Federal Aviation Administration’s (FAA)
                                                              management of its ATCOTS contract, which was awarded in 2008 to provide controller
                                                              training support, reduce total training time and costs, and develop training innova­-
                                                              tions. Despite FAA’s efforts to address recommendations from our 2010 report, we
                                                              continue to identify weaknesses in program and contract management. Notably, FAA
                                                              did not identify training needs, as we recommended, before exercising an option to
                                                              continue the contract even though it experienced $89 million in cost overruns for
                                                              the first 4 years. While FAA reduced the number of contractor instructors by 44 
                                                              percent to prevent future cost overruns, this required FAA to perform more internal
                                                              training—a cost FAA has not quantified. In addition, FAA was unable to achieve key
                                                              contract goals to reduce controller training times or produce sufficient training inno­-
                                                              vations, as the average time to certify controllers increased by 41 percent from fiscal
                                                              year 2009 through fiscal year 2012. Finally, FAA did not effectively use cost incentives
                                                              to control contract spending for the first 4 years, and award fees were not linked to
                                                              the achievement of contract goals. We plan to issue our report by January 2014.


                                                           IMPROVING MANAGEMENT OVERSIGHT OF RECIPIENTS’ CONTRACT
                                                           PRACTICES TO ENSURE PROGRAM INTEGRITY AND EFFICIENT USE OF
                                                           LIMITED FUNDS
                                                           DOT’s Disadvantaged Business Enterprise (DBE) program—a high-dollar recipient
                                                           program—requires close management attention to mitigate the risk of fraud, waste,
                                                           and abuse. DOT will need to closely monitor grant recipients’ contract award practices
                                                           to ensure ineligible firms do not receive awards.


  138       U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                             OTHER INFORMATION




•	 Overseeing DBE Contract Practices: In April 2013, we reported deficiencies in
   the Department’s management of its multibillion-dollar DBE program. Specifically,
   DOT did not provide comprehensive and standardized DBE guidance or sufficient
   training to recipients—the State and local transportation agencies who implement
   the program—or assign a DOT organization to integrate and manage the program.
   In addition, DOT does not regularly assess the effectiveness of the Operating
   Administrations’ oversight of DBE recipients, which was inadequate to ensure
   compliance with program requirements, such as applicant eligibility. For example,
   State certification staffs were unsure of how to calculate an applicant’s personal net
   worth—a key factor in determining DBE eligibility. Such weaknesses increase the
   risk that ineligible firms will be certified as DBEs. Fraud also remains prevalent in
   the DBE program, with 40 percent of our active procurement and grant fraud inves-
   tigations involving DBE fraud as of October 31, 2013. From October 2012 through
   October 2013, our DBE investigations resulted in 16 indictments, 20 convictions,
   and financial recoveries over $10.3 million. Finally, the Department has not fully
   met its regulatory program objective to help DBE firms succeed in the marketplace,
   as most certified DBEs never receive work on Federal projects. However, because
   DOT does not assess its achievement of this or other regulatory objectives, it cannot
   assess program effectiveness or identify needed changes.

•	 Preventing Suspended and Debarred Firms From DBE Participation: DOT
   must strengthen controls over its DBE program to prevent suspended and debarred
   firms from participating in the program. Federal regulations exclude these firms
   from receiving federally funded contracts. However, our review of 26 State DBE
   directories identified 3 suspended or debarred firms listed as eligible to receive
   federally funded DBE awards, raising concerns that the total number of suspended
   or debarred firms currently listed in State DBE directories may be higher than
   our review indicated. Accordingly, we issued a management advisory to DOT in
   September 2013 noting that its DBE program may lack the guidance and safeguards
   to prevent award of DBE work to suspended or debarred firms.


RELATED PRODUCTS
The following related documents can be found on the OIG Web site at http://www.oig.
dot.gov.

•	 Management Advisory—Suspended or Debarred Firms Are Listed on State DBE Direc­
   tories as Eligible for DBE Participation, September 24, 2013
•	 DOT Does Not Fully Comply With Revised Federal Acquisition Regulations on the Use
   and Management of Cost-Reimbursement Awards, August 5, 2013
•	 MARAD Has Taken Steps To Develop a Port Infrastructure Development Program but Is
   Challenged in Managing Its Current Port Projects, August 2, 2013
•	 Weaknesses in the Department’s Disadvantaged Business Enterprise Program Limit
   Achievement of Its Objectives, April 23, 2013
•	 Improvements to DOT’s Governance Processes Are Needed To Enhance Oversight of Major
   IT Investments, March 27, 2013
For more information on the issues identified in this chapter, please contact Mary Kay
Langan-Feirson, Assistant Inspector General for Acquisition and Procurement Audits,
at (202) 366-5225 or Timothy Barry, Principal Assistant Inspector General for Investiga-
tions, at (202) 366-1967.



                                  AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   139
OTHER INFORMATION




                                                                  CHAPTER 7

                                                                  BUILDING A SECURE AND MODERN INFORMATION
                                                                  TECHNOLOGY INFRASTRUCTURE
                                                                  Securing DOT’s information technology (IT) infrastructure remains a top priority since
                                                                  breaches by computer hackers have placed a number of major entities at risk and
                                                                  exposed individuals’ personal information to unauthorized access. For the last 3 fiscal
                                                                  years, the Department has declared the deficiencies in its information security program
                                                                  to be a material weakness. In addition, to build a secure and modern IT infrastructure,
                                                                  DOT needs an enterprise architecture (EA)—a blueprint for aligning DOT’s strategic
                                                                  vision with its IT infrastructure. An effective EA looks beyond immediate IT needs,
                                                                  uses a standardized technology platform, and ensures new IT projects fit into the
                                                                  overall strategy.


                                                                  KEY CHALLENGES
                                                                  •	 Securing information technology infrastructure
                                                                  •	 Protecting sensitive information
                                                                  •	 Building an effective departmentwide EA program


                                                                  SECURING INFORMATION TECHNOLOGY INFRASTRUCTURE
                                                                  Last year, we reported that the Department improved its information security program
                                                                  by enhancing its cyber security policy and guidance and establishing a repository for
                                                                  software security baselines. However, DOT’s information systems still remained vulnerable
                                                                  to significant security threats and risks because the program did not meet key Office
                                                                  of Management and Budget (OMB) and Federal Information Security Management
                                                                  Act (FISMA) requirements to protect agency information and systems. As a result, in
                                                                  2012, DOT again declared its information security deficiencies a material weakness in
                                                                  its annual assurance statement, which is required by the Federal Managers’ Financial
                                                                  Integrity Act.42

                                                                  We determined that the Department’s Office of the Chief Information Officer (OCIO),
                                                                  the modal Administrators, and their CIOs could do more to build and sustain strong
                                                                  information security practices. For example, all Operating Administrations’ CIOs are
                                                                  still in the process of completing information security procedures for several key areas,
                                                                  including capital planning for IT security and developing continuous monitoring guidance
                                                                  and implementing practices. While DOT has taken actions, such as establishing a
                                                                  repository of secure software settings and acquiring sophisticated security monitoring
                                                                  software, it has been slow to address both our FISMA 2012 recommendations and
                                                                  self-identified weaknesses. Specifically, in 2012 we reported that over 2,000 actions to
                                                                  remediate security weaknesses were behind schedule. We also identified weaknesses
                                                                  in critical Office of the Secretary (OST) and Federal Aviation Administration (FAA)
                                                                  systems. For example, OST’s Common Operating Environment (COE), which provides
                                                                  key services, such as email and Internet access to non-FAA Operating Administrations,
                                                                  is vulnerable to hackers. In addition, our ongoing work on air traffic control systems
                                                                  continues to identify weaknesses in access controls and incident reporting that FAA
                                                                  needs to remediate. We plan to issue our 2013 FISMA report later this year. Coopera­-
                                                                  tion between the Department and the Operating Administrations to continue addressing
    Federal Managers’ Financial Integrity Act, P. L.
   42

   No. 97–255 (1982).                                             these deficiencies will be key to building a strong information security program—one
                                                                  that can quickly adapt to and avert new cyber threats.

  140              U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                                   OTHER INFORMATION




                                                     PROTECTING SENSITIVE INFORMATION
                                                     In fiscal year 2013, the Department demonstrated its commitment toward providing
                                                     privacy protections through progress on its plan to identify, reduce, and protect person­-
                                                     ally identifiable information (PII) collected and stored by its systems. OMB emphasized
                                                     the importance of protecting PII and provided agencies with simple and cost-effective
                                                     steps to reduce the volume of data collected, limit access to it, and use encryption and
                                                     strong authentication procedures.43 The Department plans to complete these actions
                                                     by the end of fiscal year 2014; in the meantime, we continue to identify weaknesses
                                                     that could expose sensitive data. For example, in June 2013 we reported that PII data
                                                     in FAA’s Civil Aviation Registry were not encrypted or adequately protected from
                                                     compromise through strong authentication techniques. We also found that numerous
                                                     configuration deficiencies in the system’s software rendered the Registry vulnerable to
                                                     attacks and unauthorized access. FAA states that it will implement upgrades to correct
                                                     the software vulnerabilities and establish data encryption by the end of 2013. Our
                                                     September 2013 report on the Department’s COE similarly identified sensitive data
                                                     that were not adequately protected from hackers or malicious insiders. OST plans to
                                                     complete actions to secure the COE by the end of fiscal year 2014.


                                                     BUILDING AN EFFECTIVE DEPARTMENTWIDE EA PROGRAM
                                                     An agency’s EA program helps management understand its current technology
                                                     infrastructure, define future infrastructure needs to facilitate the accomplishment of its
                                                     mission, and develop a transition plan. Despite years of effort towards creating an EA,
                                                     DOT still lacks comprehensive EA policy and procedures, direction in the selection
                                                     of EA development tools, performance measures, and an approved plan to build a
                                                     departmentwide EA. Absent this blueprint, the Department faces significant challenges
                                                     in maximizing its return on IT investments through cost savings, reduced duplicative
                                                     systems, aligned information technology and mission, and effective information
                                                     security spending—all critical elements in an environment of limited resources and
                                                     increased security risks.


                                                     RELATED PRODUCTS
                                                     The following related documents can be found on the OIG Web site at http://www.oig.
                                                     dot.gov.

                                                     •	 Security Weaknesses in DOT’s Common Operating Environment Expose Its Systems and
                                                        Data to Compromise, September 10, 2013
                                                     •	 FAA’s Civil Aviation Registry Lacks Information Needed for Aviation Safety and Security
                                                        Measures, June 27, 2013
                                                     •	 FISMA 2012: Ongoing Weaknesses Impede DOT’s Progress Toward Effective Information
                                                        Security, November 14, 2012
                                                     •	 DOT Does Not Have an Effective Enterprise Architecture Program for Management of
                                                        Information Technology Changes, April 17, 2012

                                                     For more information on the issues identified in this chapter, please contact Louis C.
                                                     King, Assistant Inspector General for Financial and Information Technology Audits, at
                                                     (202) 366-1407.
43
  OMB Memorandum M-07-16, Safeguarding
Against and Responding to the Breach of Personally
Identifiable Information, May 22, 2007.




                                                                                        AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   141
OTHER INFORMATION




                                                           EXHIBIT

                                                           COMPARISON OF FISCAL YEARS 2014 AND 2013 TOP
                                                           MANAGEMENT CHALLENGES


                                                             Fiscal Year 2014 Challenges                     Fiscal Year 2013 Challenges
                                                           •	 Improving FAA’s Oversight of the Aviation      •	 Enhancing FAA’s Oversight and Use of Data
                                                              Industry and the Operations of the National       To Identify and Mitigate Safety Risks
                                                              Airspace System
                                                           •	 Identifying and Addressing Root Causes of      •	 Ensuring the Next Generation Air Trans-
                                                              Problems With NextGen and Setting Invest-         portation System Advances Safety and Air
                                                              ment Priorities                                   Travel
                                                           •	 Continuing Actions To Strengthen Highway,      •	 Strengthening Existing Surface Safety Pro-
                                                              Transit, and Pipeline Safety                      grams and Effectively Implementing New
                                                                                                                Safety Requirements
                                                           •	 Improving Oversight of Surface Infrastruc­-­   •	 Maximizing Surface Infrastructure Invest-
                                                              ture Investments and Implementing                 ments With Effective Program Oversight
                                                              Statutory Requirements                            and Execution of New Legislative Require-
                                                                                                                ments
                                                           •	 Implementing Requirements To Address the •	 Adequately Overseeing Administration of
                                                              Federal Railroad Administration’s Expanded  High Speed Intercity Passenger Rail Grant
                                                              and Traditional Responsibilities            Funds
                                                           •	 Managing Acquisitions and Contracts To         •	 Ensuring Effective Management of DOT’s
                                                              Achieve Results and Save Taxpayer Dollars         Acquisitions To Maximize Value and Pro-
                                                                                                                gram Performance
                                                           •	 Building a Secure and Modern Information       •	 Managing and Securing Information Sys-
                                                              Technology Infrastructure                         tems To Efficiently Modernize Technology
                                                                                                                Infrastructure and Protect Sensitive Data
                                                                                                                from Compromise
                                                                                                             •	 Overseeing Administration of Key Transpor-
                                                                                                                tation Assets To Ensure Their Success and
                                                                                                                Sustainability
                                                                                                             •	 Strengthening Financial Management Over
                                                                                                                Grants To Better Use Funds, Create Jobs,
                                                                                                                and Improve Infrastructure




  142       U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                            OTHER INFORMATION




APPENDIX. DEPARTMENT RESPONSE



                                                        Memorandum
U.S. Department of
Transportation
Office of the Secretary
of Transportation


  Subject:    ACTION: Management Comments on Office of                     Date: November 22, 2013
              Inspector General Report on Top Management
              Challenges 2014

  From:       Sylvia I. Garcia                                             Reply to
              Assistant Secretary for Budget and Programs                  Attn of:

               and Chief Financial Officer

  To:         Calvin L. Scovel III
              Inspector General

The Department carefully considers and constructively acts upon each of the products and issues
identified by the Office of Inspector General (OIG). The Department’s actions focus on both
macro and micro levels, including both large scale issues and individual programmatic elements.
At the macro level, crosscutting the OIG top management challenges report identifies important
issues that assist the Department’s management in fulfilling our mission to:

    •     Ensure the safety of the Nation’s transportation systems in the air, land and on the water,
    •     maintain and grow the Nation’s transportation infrastructure to provide sound highways,
          bridges and rail systems that efficiently move people and goods both across the country
          and across town,
    •     refine financial systems and controls and oversee compliance both internally and
          externally to ensure that the Department is a sound and effective steward of taxpayer
          funds, and
    •     ensure that the Department has secure and effective internal systems and processes, and
          provide the strategic vision, programs, guidance and oversight necessary to effectively
          and expeditiously accomplish our missions.

On a micro level, the Department provides clear and detailed responses to each and every OIG
report that served as the foundation for its top management challenges report. The Department
has developed strong processes for managing the interactions with the OIG, that include
developing detailed responses to every OIG report and working with the OIG to ensure
resolution, to the greatest extent possible on every report and every on individual
recommendation. The Department further maintains a Recommendation Action Tracking
System that provides frequent detailed metrics to management throughout the Department to


2014 Top Management Challenges, Department of Transportation                                                32




                                                                 AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 201 3   143
OTHER INFORMATION




                APPENDIX. DEPARTMENT RESPONSE

                track and encourage completion of action on these recommendations until agreement is reached
                with the OIG that we have indeed accomplished the recommended action.
                As a result, of employing both the top down macro approach, and the bottoms up micro
                approach, the Department has continuously achieved significant progress addressing both the
                overall issues enumerated in the OIG management challenges report and the individual
                component reports and recommendations that form its basis.
                The Department is pleased with the constructive relationship that continues to develop with its
                OIG. The OIG provides useful information from its unique and independent perspective on our
                programs and operations. As the government continues to adapt to constraints on resources, we
                will continue to rely on OIG that provides useful insights to aid management in further
                improving programmatic performance while identifying additional efficiencies and potential cost
                savings.




                2014 Top Management Challenges, Department of Transportation                                  33




  144       U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                             OTHER INFORMATION




IMPROPER PAYMENTS INFORMATION ACT (IPIA)
REPORTING (AS AMENDED BY IPERA)
The Improper Payments Information Act of 2002 (P. L. 107-300) requires agencies
to review their programs and activities to identify those susceptible to significant
improper payments. IPIA was amended on July 22, 2010, by the Improper Payments
Elimination and Recovery Act (IPERA) of 2010 (P. L. 111-204). IPERA strengthens
the requirements for government agencies to carry out cost-effective programs for
identifying and recovering overpayments, also known as “recapture auditing.”

The Office of Management and Budget (OMB) Circular A-123, Appendix C, “Require-
ments for Effective Measurement and Remediation of Improper Payments,” provides
guidance on the implementation of IPERA. A-123, Appendix C defines an improper
payment as any payment that should not have been made or that was made in an in-
correct amount under statutory, contractual, administrative, or other legally applicable
requirements. Incorrect amounts are overpayments or underpayments that are made
to eligible recipients (including inappropriate denials of payment or service, any pay-
ment that does not account for credit for applicable discounts, payments that are for
the incorrect amount, and duplicate payments). An improper payment also includes
any payment that was made to an eligible recipient or for an ineligible good or service,
or payments for goods or services not received (except for such payments authorized
by law). In addition, when an agency’s review is unable to discern whether a payment
was proper as a result of insufficient documentation or lack of documentation, this
payment must also be considered an improper payment.


U.S. DEPARTMENT OF TRANSPORTATION (DOT) PROCESS
DOT’s process for complying with IPERA and OMB Circular A-123, Appendix C
consists of the following steps:

1)	 Review program and activities to identify those susceptible to significant improper
    payments.

2)	 Obtain a statistically valid estimate of the annual amount of improper payments in
    programs and activities for those programs identified as susceptible to significant
    improper payments.

3)	 Implement a plan to reduce erroneous payments.

4)	 Report estimates of the annual amounts of improper payments in programs and
    activities and progress in reducing them.

For fiscal year (FY) 2013 reporting, DOT conducted the above four-step process for
the 12-month period of April 1, 2012, to March 31, 2013. For FY 2013, DOT also
achieved the following accomplishments related to IPERA: developed a Do Not Pay
Implementation Plan to be in compliance with the Improper Payments Elimination
and Recovery Improvement Act (IPERIA) of 2012 (P. L. 112–248) and provided a
high-dollar quarterly report to the DOT Office of Inspector General (OIG) and the
OMB and posted it on the DOT Web site.

The following sections provide information on the Risk Assessment, Statistical Sampling,
Corrective Actions, and Recapture and Improvement Payment Reporting.




                                  AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   145
OTHER INFORMATION




                                                                I. RISK ASSESSMENT
                                                                DOT’s Programmatic Improper Payment Risk Assessment leverages the Assessable
                                                                Units (AU) Risk Profiles compiled as part of the ongoing compliance with the Federal
                                                                Managers Financial Integrity Act (FMFIA). This assessment identified four programs as
                                                                being at high risk for FY 2013 due to the volume of payments made annually, coupled
                                                                with the fact that Federal funds within these programs are further administrated
                                                                outside the agency by third parties, listed in Table 1.

                                                                The fifth program, the Federal Railroad Administration (FRA) High-Speed Intercity
                                                                Passenger Rail (HSIPR) Program was selected, because it is a new program to DOT.

                                                                Table 1 lists the high-risk programs and the disbursements population selected for
                                                                FY 2013 testing.

   TABLE 1. HIGH-RISK PROGRAMS SELECTED FOR TESTING
                                                                                                                                         Disbursements
                                                                                                                                  (Based on Actual Data)
    Operating Administration                                                Program Name                                                     ($ millions)
   Federal Aviation Administration (FAA)                                    Airport Improvement Program (AIP)                                  $3,517.55
   Federal Transit Administration (FTA)                                     Formula Grant (FG)                                                 $8,518.14
                                                                            Capital Improvement Grant (CIG)                                    $2,386.29
   Federal Highway Administration (FHWA)                                    Federal-Aid Grant Program                                         $45,203.59
   Federal Railroad Administration (FRA)                                    High-Speed Intercity Passenger Rail (HSIPR) Program                  $751.51



                                                                DOT is in the process of completing a revised department wide risk assessment for
                                                                reporting in FY 2014, which will include the 14 Operating Administrations (OA) pro-
                                                                grams and funding activities. Basing information on the results of this risk assessment,
                                                                DOT will determine if the in-scope programs for FY 2013 are still considered high-risk
                                                                programs and/or if additional programs should be considered as being at high risk.
                                                                For FY 2014 reporting, under OMB Circular A-123, Appendix C, the threshold for
                                                                determining whether a program is at high risk for improper payments is reduced from
                                                                2.5 to 1.5 percent and $10 million or $100 million in improper payments (regardless
                                                                of the error rate).

                                                                The susceptibility of programs making significant improper payments will be deter-
                                                                mined by quantitative and qualitative factors. For qualitative factors, DOT will review
                                                                the total expenditures for each funding activity to determine if the volume of transac-
                                                                tions may result in an error rate of 1.5 percent and $10 million or $100 million. The
                                                                qualitative factors will include the following:

                                                                •	 Payment processing controls
                                                                •	 Quality of internal monitoring controls
                                                                •	 Human capital
                                                                •	 Complexity of program
                                                                •	 Nature of payments and recipients
                                                                •	 Operating environment
                                                                •	 Additional grant programs factors
                                                                •	 Contract payment management




  146            U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                               OTHER INFORMATION




                                                  II. STATISTICAL SAMPLING
                                                  The sampling approaches have not changed from the previous year. The DOT OAs
                                                  obtained the data extracts from a single source—DOT’s financial system of record,
                                                  Delphi. In addition, to verify both sample integrity and the accuracy of extrapolated
                                                  programmatic improper payment estimates, DOT OAs collaborated closely with the
                                                  Office of Inspector General (OIG) IPERA statistician to develop sampling and extrap-
                                                  olation methodologies mutually agreed upon by both parties and in compliance with
                                                  the OMB requirements.

                                                  Sample results provided an overall improper payment point estimate of the percentage
                                                  of improper payment dollars at the 90 percent confidence level within precision
                                                  requirements of 2.5 percent.

                                                  Table 2 lists the results of the DOT improper payment testing.

TABLE 2. SAMPLE TEST RESULTS
                                                                   FY 2013
                                                                  Payment          FY 2013          FY 2013             FY 2013
                                                                  Sampling     Sample Size      Sample Size            Est. Error          FY 2013
                                                                Population      ($ millions)     ($ millions)           Amount            Est. Error
 Operating Administration and Program Name                      ($ millions)      – Stage 1        – Stage 2         ($ millions)                 %
Federal Aviation Administration (FAA) Airport Improvement        $3,517.55         $118.05             $17.83               $2.42              0.07%
  Program (AIP)
Federal Transit Administration (FTA) Formula Grant (FG)          $8,518.14         $297.10               $8.14            $62.55               0.73%
FTA Capital Improvement Grant (CIG)                              $2,386.29         $708.37             $53.45               $0.84              0.04%
Federal Highway Administration (FHWA)                           $45,203.59         $434.71            $216.28             $91.44               0.20%
  Federal-Aid Grant Program
Federal Railroad Administration (FRA) High-Speed Intercity         $751.51         $366.44            $219.82                   $0             0.00%
  Passenger Rail (HSIPR) program




                                                  III. CORRECTIVE ACTIONS
                                                  The following tables list corrective actions for the DOT programs. These corrective
                                                  actions are targeted at addressing the root causes behind administrative and documen-
                                                  tation errors caused by processing the payments incorrectly by the grantees.




                                                                                    AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3      147
OTHER INFORMATION




   TABLE 3.1. CORRECTIVE ACTIONS FOR FAA
                                                                                                                                              Target
                                                                                                                                           Completion
    Risk Factor                                     Corrective Action                                                                           Date


   Category of Error—Application of the Incorrect Federal Share
   Identified instances of grantees                 Develop a formal communication plan and associated training to be delivered to the      5/31/2014
   applying the incorrect Federal share             grantees, especially related to the reimbursement processing. This communication/
                                                    training would also include adherence to the correct application of Federal share.



   TABLE 3.2. CORRECTIVE ACTIONS FOR FTA
                                                                                                                                              Target
                                                                                                                                           Completion
    Risk Factor                                     Corrective Action                                                                           Date


   Category of Error—Application of the Incorrect Federal Share
   Identified instances of grantees                 Enforce policies and procedures around the review and approval of grantee payment       3/31/2014
     applying the incorrect Federal share             requests, including the correct application of Federal share.
                                                    Develop and provide mandatory training to grantees on the policies and procedures       6/30/2014
                                                     surrounding the application of the correct Federal share.


   Category of Error—Incorrect Payment Amount
   Incorrect reimbursement amount                   Revise reimbursement processing Standard Operating Procedures, with emphasis on         5/31/2014
                                                     matching vendor invoices to grantee reimbursement requests.


   Category of Error—Insufficient Documentation
   Missing audit/certification to confirm Develop a checklist of supporting documentation required for payments.                            3/31/2014
    purchased items have been received
                                                    Perform internal reviews/spot checks of payment request packages to confirm required      Ongoing
                                                      supporting documentation was provided before payment.


   Category of Error—Application of Incorrect Payroll Rate
   Grantee paid incorrect overtime rate to Revise payroll policies and procedures, highlighting the requirement to compare the              2/28/2014
     an employee                            employee’s hourly rate to the rate applicable to each pay period.




   TABLE 3.3. CORRECTIVE ACTIONS FOR FHWA
                                                                                                                                              Target
                                                                                                                                           Completion
    Risk Factor                                     Corrective Action                                                                           Date


   Category of Error—Incorrect Payment Amounts
   Incorrect reimbursement amount                   Revise reimbursement processing Standard Operating Procedures, with emphasis on         5/30/2014
                                                     matching vendor invoices to grantee reimbursement.


   Category of Error—Insufficient Documentation
   Insufficient documentation to support Provide payment documentation requirements and instructions to the grantees,                       6/30/2014
     and/or validate financial transactions emphasizing the requirement that invoices that do not contain complete invoice backup
                                            documentation should not be paid.


   Category of Error—Ineligible Service
   Payment of invoices for charges       Conduct refresher training for accounts payable employees and implement a checklist to             6/30/2014
     incurred before the grant agreement  incorporate the review of invoices, for dates and application to the correct grant.




  148             U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                             OTHER INFORMATION




Fund Stewardship
Although DOT identifies its five largest grant programs as susceptible to significant
improper payment rates, none of these five programs reported significant rates of
improper payments of 2.5 percent and $10 million or $100 million, as defined by
IPERA, in FY 2012 or FY 2013. To prevent any increases of the improper payments
rates and to achieve complete elimination of improper payments, DOT’s OAs stress the
importance of proper fund stewardship with its Grant recipients via various Grantee
Review programs.

•	 FAA. Through a grant and sponsor oversight process, continuous throughout
   the duration of the grant, FAA promotes proper fund stewardship. FAA receives
   quarterly reports on each grant to assess sponsor performance under every grant
   agreement. On a broader level, FAA uses a risk-based approach that increases
   the level of review of sponsor documentation, depending on the risk level of the
   Grantee.

•	 FTA. FTA uses the State Management Reviews and Triennial Reviews to ensure
   proper compliance with Federal Grant regulations. In addition to stressing proper
   financial oversight, FTA Grantee reviews delve into various focus areas, such as
   legal compliance, technical compliance, and procurement processes at the State and
   local level.

•	 FHWA. Under its Financial Integrity Review and Evaluation (FIRE) program,
   FHWA subjects States and territories not selected as part of the IPERA sample to
   a similar billing review process. The FIRE program also incorporates additional
   reviews, including focus areas such as inactive projects, grant administration at the
   local level, and procurement at the local level using Federal funds.

•	 FRA. Under a comprehensive, risk-based oversight program, FRA conducts routine
   monitoring, including periodic reviews of projects, as part of the management and
   administration of the HSIPR program. The routine monitoring activities center
   on recipient compliance with the FRA agreement and on the approved budget,
   schedule, and fund stewardship. Routine monitoring highlights potential areas of
   concern and opportunities for training and technical assistance.


IV. IMPROPER PAYMENT REPORTING
Table 4.1 summarizes improper payment amounts for the high-risk programs.
Improper payment percent (IP%) and improper dollar (IP$) results are provided from
last year’s and this year’s testing of payments. Data for projected future year improve-
ments are based on the timing and significance of completing corrective actions.




                                  AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   149
OTHER INFORMATION




   TABLE 4.1. IMPROPER PAYMENT REDUCTION OUTLOOK
    Program                                              PY Outlays ($M)           PY IP%      PY IP$ ($M)        CY Outlays (3M)          CY IP %        CY IPS (SM)
   Federal Aviation Administration (FAA)                              $3,653         0.64%           $23.38                   $3,933         0.07%              $2.75
     Airport Improvement Program (AIP)
   Federal Transit Administration (FTA)                               $8,092         0.44%           $35.60                   $9,911         0.73%             $72.35
     Formula Grant (FG)
   FTA Capital Improvement Grant (CIG)                                $2,113         0.00%            $0.00                   $2,386         0.04%              $0.95
   Federal Highway Administration (FHWA)                            $41,742          0.22%           $91.83                  $41,455         0.20%             $82.91
     Federal-Aid Grant Program
   Federal Railroad Administration (FRA)                                 $768        0.96%            $7.37                   $2,326         0.00%                 $0
     High-Speed Intercity Passenger Rail
     (HSIPR) program

                                                          CY+1                               CY+2                                       CY+3
                                                             Est.                               Est.                                       Est.
                                                         Outlays        CY+1 IP    CY+1 IP$ Outlays         CY+2 IP    CY+2 IP$        Outlays CY+3 IP CY+3 IP$
    Program                                                 ($M)             %         ($M)    ($M)              %         ($M)           ($M)      %      ($M)
   Federal Aviation Administration (FAA)                   $3,554          0.50%      $17.77    $3,250        0.50%         $16.25     $3,063     0.50%        $15.32
     Airport Improvement Program (AIP)
   Federal Transit Administration (FTA)                  $10,820           0.50%      $54.10   $10,346        0.50%         $51.73   $10,387      0.50%        $51.94
     Formula Grant (FG)
   FTA Capital Improvement Grant (CIG)                     $2,553          0.25%       $6.38    $2,605        0.25%          $6.51     $2,114     0.25%         $5.21
   Federal Highway Administration (FHWA)                 $41,955           0.25%     $104.89   $42,509        0.25%     $106.27      $43,043      0.25%      $107.61
     Federal-Aid Grant Program
   Federal Railroad Administration (FRA)                   $1,323          0.25%       $3.31    $1,641        0.25%          $4.10     $2,084     0.25%         $5.21
     High-Speed Intercity Passenger Rail
     (HSIPR) Program
   CY = current year. PY = prior year.




                                                                   Overpayment and Underpayment Details
                                                                   Table 4.2 provides overpayment and underpayment breakouts for DOT’s high-risk
                                                                   programs.

   TABLE 4.2. EXTRAPOLATED OVERPAYMENT / UNDERPAYMENT PROGRAMMATIC ESTIMATE
                                                                                           Gross Total            Overpayment Total           Underpayment Total
                                                                                (Based on Actual Data)        (Based on Actual Data)       (Based on Actual Data)

                                                                                  Est. Error                   Est. Error                    Est. Error
    Operating                                                                      Amount      Est. Error       Amount        Est. Error      Amount        Est. Error
    Administration                       Program Name                           ($ millions)         (%)     ($ millions)           (%)    ($ millions)           (%)

   Federal Aviation                      Airport Improvement                          $2.42       0.07%            $2.42         0.07%               $0        0.00%
     Administration (FAA)                  Program (AIP)

   Federal Transit                       Formula Grant (FG)                         $62.55        0.73%          $62.55          0.73%               $0        0.00%
     Administration (FTA)
                                         Capital Investment Grant (CIG)               $0.84       0.04%            $0.84         0.04%               $0        0.00%

   Federal Highway                       Federal-Aid Grant Program                  $91.44        0.20%          $90.38          0.20%           $1.06         0.00%
     Administration (FHWA)

   Federal Railroad                      High-Speed Intercity                            $0       0.00%               $0         0.00%               $0        0.00%
     Administration (FRA)                  Passenger Rail (HSIPR)
                                           program

   DOT                                                                             $157.25                      $156.19                          $1.06




  150               U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                                                                     OTHER INFORMATION




                                RECAPTURE OF IMPROPER PAYMENTS REPORTING
                                DOT contracted with a recovery audit firm to conduct the annual recovery audit. The
                                contractor worked to recover identified departmental overpayments and to identify
                                opportunities for departmental payment process improvements. The contractor,
                                working closely with DOT’s internal shared service provider, did not identify any
                                systemic payment process weaknesses. Overpayments resulted from individual cases
                                of duplicate payments due to human input errors, sales tax billing errors, open credit
                                on statements, and other miscellaneous overpayments.

                                TABLE 2. PAYMENT RECAPTURE AUDIT REPORTING
                                 Program or Activity                                                                           DOT Total
                                Type of Payment                                                                 Contracts and Grants
                                Amount Subject to Review for CY Reporting                                                     $57.3 billion
                                Actual Amount Reviewed and Reported (CY)                                                      $57.3 billion
                                Amount Identified for Recovery (CY)                                                           $1,432,200
                                Amount Recovered (CY)                                                                         $1,199,046
                                % of Amount Recovered out of Amount Identified (CY)                                                  83.7%
                                Amount Outstanding (CY)                                                                          $233,154
                                % of Amount Outstanding out of Amount Identified (CY)                                                16.3%
                                Amount Not Collectable (CY)                                                                             $0
                                % of Amount Not Collectable out of Amount Identified (CY)                                            0.0%
                                Amounts Identified for Recovery (PY)                                                             $536,840
                                Amount Recovered (PY)                                                                            $395,086
                                Cumulative Amounts Identified for Recovery (CY + PY)                                          $1,969,040
                                Cumulative Amounts Recovered (CY + PY)                                                        $1,594,132
                                Cumulative Amounts Outstanding (CY + PY)                                                         $374,954
                                Cumulative Amounts Not Collectable (CY + PY)                                                            $0
                                CY = current year. PY = prior year.



TABLE 3. PAYMENT RECAPTURE AUDIT TARGETS
                                                                          CY
                                                              Recovery Rate
                                                                    (Amount                    CY+1              CY+2              CY+3
                                        CY                CY     Recovered                  Recovery          Recovery          Recovery
                                   Amount             Amount        /Amount                     Rate              Rate              Rate
 Type of Payment                 Identified         Recovered     Identified)                 Target            Target            Target
Contract                          $1,432.2              $1,199.0              83.7%             90.0%              90.0%             90.0%
CY = current year.



TABLE 4. AGING OF OUTSTANDING OVERPAYMENTS
                              CY Amount Outstanding                   CY Amount Outstanding                  CY Amount Outstanding
 TYPE OF PAYMENT                     (0 to 6 Months)                      (6 Months to 1 Year)                   (More Than 1 Year)
N/A                                                    N/A                              $233,154                                       N/A
N/A = Not applicable.




                                                                          AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3      151
OTHER INFORMATION




   TABLE 5. DISPOSITION OF RECAPTURED FUNDS
                                                            Agency                                      Financial
                                                       Expenses to                  Payment         Management                        Office of
                                                         Administer                Recapture        Improvement      Original        Inspector    Returned to
    Type of Payment                                    the Program               Auditor Fees           Activites    Purpose           General       Treasury
   Contract                                                          N/A                   $0                N/A    $1,199.046             N/A            $0
   N/A = Not applicable.


   TABLE 6. OVERPAYMENTS RECAPTURED OUTSIDE OF PAYMENT RECAPTURE AUDITS

                                                                                                                                 Cumulative       Cumulative
                                                          Amount                 Amount           Amount       Amount               Amount           Amount
                                                        Identified             Recovered        Identified   Recovered            Identified      Recovered
    Type of Payment                                          (CY)                   (CY)             (PY)         (PY)             (CY+PY)          (CY+PY)
   Post-Payment Review                                     $37,818               $35,391         $10,550              $0            $48,368          $35,391
   CY = current year. PY = prior year.



                                                                   Table 3 Notes
                                                                   DOT’s recovery auditor completed its identification of overpayments in February
                                                                   2013. Recovery of overpayments occurs throughout the audit process and will contin-
                                                                   ue through 2013. The current recovery rate of 83.7 percent mirrors past recovery rates
                                                                   of 80 to 90 percent.

                                                                   Table 6 Notes
                                                                   Overpayments identified during DOT’s Post-Payment Review were identified during
                                                                   the audit process ending in November 2013. DOT is in the process of continuing with
                                                                   the recovery of these payments.

                                                                   Accountability
                                                                   DOT has implemented various Grantee Review programs, as highlighted in PART III of
                                                                   this IPERA Reporting Details Section, to hold States and local agencies accountable for
                                                                   improper payments. All review programs stress the importance of reducing and recap-
                                                                   turing improper payments, and the focus on improper payments is now an ongoing
                                                                   concern, not just an annual review exercise.

                                                                   DOT’s various Operating Administrations use a vast network of regional offices to
                                                                   ensure that DOT maintains regular communication with Grantees and with State
                                                                   and local officials. Operating Administrations ensure that Grantees understand the
                                                                   purpose of Grant Reviews during each step of the review process. This constant com-
                                                                   munication, along with the aid of Grantee staff, has enabled DOT to not only maintain
                                                                   a low rate of improper payments, but also achieve success in recapturing payments
                                                                   identified as both improper and recoverable.

                                                                   Agency Information Systems and Other Infrasturcture
                                                                   DOT currently possesses the internal controls, human capital, and information systems
                                                                   necessary to maintain improper payment levels at the targeted programmatic rate.




  152               U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                  OTHER INFORMATION




LIST OF ACRONYMS



A
AATF        Airport and Airway Trust Fund
ADA         Americans With Disabilities Act
ADA         Anti-Deficiency Act
AEC         Atomic Energy Commission
AFR         Agency Financial Report
AICPA       American Institute of Certified Public Accountants
AIP         Airport Improvement Program
APR         Annual Performance Report
ARRA        American Recovery and Reinvestment Act of 2009
AU          Assessable Units

B
BBEDCA      Balanced Budget and Emergency Deficit Control Act
BCA         Budget Control Act

C
CASTLE      Consolidated Automation System for Time and Labor Entry
CDM         Continuous Diagnostic and Monitoring
CERCLA      Comprehensive Environmental Response, Compensation and
             Liability Act of 1980
CFO         Chief Financial Officer
CFO Act     Chief Financial Officers Act of 1990
CIO         Chief Information Officer
COE         Common Operating Environment
CSRS        Civil Service Retirement System
CY          current year

D
DHS         Department of Homeland Security
DOL         Department of Labor
DOT         Department of Transportation

E
ERAM        En Route Automation Modernization system
ESC         Enterprise Services Center




                       AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   153
OTHER INFORMATION




                                                           F
                                                           FAA         Federal Aviation Administration
                                                           FASAB       Federal Accounting Standards Advisory Board
                                                           FASB        Financial Accounting Standards Board
                                                           FBWT        Fund Balance with Treasury
                                                           FCRA        Federal Credit Reform Act of 1990
                                                           FECA        Federal Employees Compensation Act Benefits
                                                           FEGLI       Federal Employees Group Life Insurance Program
                                                           FEHB        Federal Employees Health Benefit Program
                                                           FEMA        Federal Emergency Management Agency
                                                           FERS        Federal Employee Retirement System
                                                           FFGAs       Full Funding Grant Agreements
                                                           FFMIA       Federal Financial Management Improvement Act of 1996
                                                           FHWA        Federal Highway Administration
                                                           FIRE        Financial Integrity Review and Evaluation
                                                           FISMA       Federal Information Security Management Act of 2002
                                                           FMCSA       Federal Motor Carrier Safety Administration
                                                           FMFIA       Federal Managers’ Financial Integrity Act of 2002
                                                           FRA         Federal Rail Administration
                                                           FTA         Federal Transit Administration
                                                           FY          Fiscal Year

                                                           G
                                                           GAAP        Generally Accepted Accounting Principles
                                                           GAO         Government Accountability Office
                                                           GHG         Greenhouse Gas
                                                           GSA         General Services Administration
                                                           GTAS        Governmentwide Treasury Account Symbol Adjusted Trial
                                                                        Balance System

                                                           H
                                                           HTF         Highway Trust Fund

                                                           I
                                                           IG          Inspector General
                                                           IPERIA      Improper Payments Elimination and Recovery Improvement Act
                                                           IPIA        Improper Payments Information Act of 2002
                                                           IRS         Internal Revenue Service




  154       U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
                                                                 OTHER INFORMATION




J, K

L
LUST     Leaking Underground Storage Tank

M
MAP-21   Moving Ahead for Progress in the 21st Century
MARAD    Maritime Administration
MD&A     Management’s Discussion and Analysis
MOU      Memorandum of Understanding

N
NAS      National Airspace System
NATCA    National Air Traffic Controllers Association
NHTSA    National Highway Traffic Safety Administration
NRC      Nuclear Regulatory Commission

O
OA       Operating Administration
OI       Other Information
OIG      Office of Inspector General
OMB      Office of Management and Budget
OPM      U.S. Office of Personnel Management
OST      Office of the Secretary
OTA      U.S. Treasury Office of Tax Analysis

P
PAR      Performance and Accountability Report
PCB      polychlorinated biphenyls
PHMSA    Pipeline and Hazardous Materials Safety Administration
PIV      Personal Identity Verification
P. L.    Public Law
PP&E     Property, Plant & Equipment
PRIIA    Passenger Rail Investment Improvement Act of 2008
PY       prior year

Q
QCR      Quality Control Review




                      AGE NCY F INA NCIA L R E P ORT | F IS CA L YE A R 20 1 3   155
OTHER INFORMATION




                                                           R
                                                           RCRA         Resource Conservation and Recovery Act of 1976
                                                           R&D          Research and Development
                                                           RD&T         Research, Development and Technology
                                                           RITA         Research and Innovative Technology Administration
                                                           RSI          Required Supplementary Information
                                                           RSSI         Required Supplementary Stewardship Information

                                                           S
                                                           SAFETEA-LU   Safe, Accountable, Flexible, Efficient Transportation Equity Act:
                                                                          A Legacy for Users
                                                           SAS          Statement on Auditing Standards
                                                           SBR          Statement of Budgetary Resources
                                                           SCA          Statement of Custodial Activity
                                                           SCNP         Statement of Changes in Net Position
                                                           SFFAS        Statement of Federal Financial Accounting Standards
                                                           SLSDC        U.S. Saint Lawrence Seaway Development Corporation
                                                           SNC          Statement of Net Cost
                                                           SOS          Schedule of Spending
                                                           SSAE         Statements on Standards for Attestation Engagements
                                                           STB          Surface Transportation Board

                                                           T
                                                           TBD          to be determined
                                                           TEU          Twenty Foot Equivalent
                                                           TIFIA        Transportation Infrastructure Finance and Innovation Act
                                                           TSCA         Toxic Substances Control Act

                                                           U
                                                           UDO          Undelivered Orders
                                                           USC          United States Code
                                                           USMMA        U.S. Merchant Marine Academy
                                                           USSGL        United States Standard General Ledger

                                                           V
                                                           VMT          Vehicle-Miles Traveled

                                                           W
                                                           WCF          Working Capital Fund

                                                           X, Y, Z



  156       U . S . D E PA R T M E N T O F T R A N S P O R TAT I O N
